<html>
<title> - CONFRONTING THE CORONAVIRUS: THE FEDERAL RESPONSE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                     CONFRONTING THE CORONAVIRUS: 
                          THE FEDERAL RESPONSE

=======================================================================


                                HEARING

                               BEFORE THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 11, 2020

                               __________

                           Serial No. 116-69

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
                                     

        Available via the World Wide Web: http://www.govinfo.gov

                               __________
                               
                               
                  U.S. GOVERNMENT PUBLISHING OFFICE                    
42-346 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------
                               
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
James R. Langevin, Rhode Island      Peter T. King, New York
Cedric L. Richmond, Louisiana        Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     John Katko, New York
Kathleen M. Rice, New York           Mark Walker, North Carolina
J. Luis Correa, California           Clay Higgins, Louisiana
Xochitl Torres Small, New Mexico     Debbie Lesko, Arizona
Max Rose, New York                   Mark Green, Tennessee
Lauren Underwood, Illinois           John Joyce, Pennsylvania
Elissa Slotkin, Michigan             Dan Crenshaw, Texas
Emanuel Cleaver, Missouri            Michael Guest, Mississippi
Al Green, Texas                      Dan Bishop, North Carolina
Yvette D. Clarke, New York           Jefferson Van Drew, New Jersey
Dina Titus, Nevada
Bonnie Watson Coleman, New Jersey
Nanette Diaz Barragan, California
Val Butler Demings, Florida
                       Hope Goins, Staff Director
                 Chris Vieson, Minority Staff Director
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Oral Statement.................................................     5
  Prepared Statement.............................................     6
The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama, and Ranking Member, Committee on Homeland 
  Security:
  Oral Statement.................................................     3
  Prepared Statement.............................................     4
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Prepared Statement.............................................     6
The Honorable Lauren Underwood, a Representative in Congress From 
  the State of Illinois:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3

                               Witnesses

Mr. Ken Cuccinelli, II, Senior Official Performing the Duties of 
  the Deputy Secretary, U.S. Department of Homeland Security:
  Oral Statement.................................................    10
  Prepared Statement.............................................    12
Dr. Stephen C. Redd, Deputy Director of Public Health Service and 
  Implementation Science, Centers for Disease Control and 
  Prevention, U.S. Department of Health and Human Services:
  Oral Statement.................................................    15
  Prepared Statement.............................................    16

                             For the Record

The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Letter, February 26, 2020......................................    56
  Letter, March 11, 2020.........................................    57
The Honorable Lauren Underwood, a Representative in Congress From 
  the State of Illinois:
  Statement of the American Federation of Government Employees, 
    AFL-CIO......................................................    71

                                Appendix

Questions From Honorable Michael T. McCaul for Ken Cuccinelli, II    73
Questions From Honorable Michael T. McCaul for Stephen C. Redd...    74

 
           CONFRONTING THE CORONAVIRUS: THE FEDERAL RESPONSE

                              ----------                              


                       Wednesday, March 11, 2020

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:19 p.m., in 
room 310, Cannon House Office Building, Hon. Lauren Underwood, 
presiding.
    Present: Representatives Thompson, Lee, Richmond, Rice, 
Correa, Torres Small, Rose, Underwood, Slotkin, Cleaver, Green, 
Clarke, Titus, Watson Coleman, Barragan, Demings; Rogers, 
Katko, Walker, Higgins, Lesko, Joyce, Crenshaw, Guest, Bishop, 
Van Drew.
    Ms. Underwood. The Committee on Homeland Security will come 
to order. The committee is meeting today to receive testimony 
on the Federal response to the coronavirus.
    Without objection, the Chair is authorized to declare the 
committee in recess at any point.
    Good afternoon. Today, the committee is meeting to examine 
the Federal Government response to the novel coronavirus 
pandemic.
    As a nurse, I want to open by encouraging everyone to visit 
coronavirus.gov for the most up-to-date information from the 
Centers for Disease Control and Prevention--and take care to 
practice habits that will keep us all safe. Wash your hands 
often with soap and water or use hand sanitizer. Don't touch 
your face. Cover your coughs and sneezes. Avoid close contact 
with others if you or they are sick.
    We know that the spread of coronavirus has likely not yet 
reached its peak, and it is affecting all of our communities. I 
don't think there is a person in this room who isn't worried 
about an elderly or immunocompromised relative's health, a 
friend's job, or a child's school closure.
    Just yesterday the first 2 cases were diagnosed in the 
counties that I represent in Illinois. Our jobs as Members of 
Congress is to keep Americans safe by working with the 
Executive branch to lead a strong Federal Government response, 
including the House-led $8.3 billion supplemental funding 
package that passed last week. A strong response must include 
each of these 3 elements.
    First, we must continue to support our local and State 
public health departments, our health care system, our 
emergency responders who are at the front lines of this 
outbreak.
    This starts with having reliable data to make decisions, 
like how to prepare for a surge to our health system and how 
much personal protective equipment is needed for health 
workers.
    It also means developing and disseminating clear, accurate 
risk communication to the public. America's scientific and 
public health expertise is unmatched throughout the world, and 
it must be driving our decisions.
    Second, we must protect people from health care costs 
associated with the coronavirus. Testing and treatment must be 
widely available at no cost to patients. Price gouging of 
medical essentials and other supplies must be stopped.
    If we do not take these crucial steps, the epidemic will 
worsen because families will avoid seeking care for fear that 
they can't afford it. Our communities will be less safe.
    Third, we must soften the economic impact of this crisis on 
American families and small businesses. This means paid sick 
leave for every worker, unemployment insurance, and food 
assistance if needed.
    Given the committee's jurisdiction, today we will also 
examine the Department of Homeland Security's role in the 
coronavirus response effort. The Department plays a key role in 
protecting workers on the front lines of this outbreak, 
processing travelers entering the United States and referring 
them for screening by health care workers as necessary.
    We will have questions today about the efficacy of this 
screening and how it is being performed at our air, land, and 
seaports. We also want to learn more about the Department's 
ability to protect its own workers, whether it has adequate 
personal protective equipment for front-line personnel such as 
Customs and Border Protection officers, Board Patrol agents, 
and Transportation Security officers.
    Finally, we want to hear about what plans the Department 
has to ensure continuity of operation at certain essentially 
facilities in case of outbreaks there such as ports of entry, 
TSA checkpoint, and immigration detention facilities.
    Today, we are joined by Mr. Ken Cuccinelli who is currently 
serving as the senior official performing the duties of deputy 
secretary of Homeland Security to respond to these important 
questions. Mr. Cuccinelli is also the Department's 
representative on the White House Coronavirus Task Force. I 
hope to hear from him about the work of the task force this 
afternoon.
    He is joined by Doctor Stephen Redd, a medical doctor and 
epidemiologist with decades of experience with the Centers for 
Disease Control and Prevention. It is my understanding that 
Doctor Redd was due to retire this month, but he has agreed to 
stay on to assist with the coronavirus response.
    We thank you, sir, for your dedication and service to our 
country, and thank both of our witnesses for being here with us 
today. I look forward to a productive dialog with my colleagues 
and our witnesses today.
    [The statement of Vice Chairwoman Underwood follows:]
             Statement of Vice Chairwoman Lauren Underwood
                             March 11, 2020
    Today, the committee is meeting to examine the Federal Government's 
response to the novel coronavirus outbreak. We know that the spread of 
coronavirus has likely not yet reached its peak, and is affecting all 
of our communities. Just yesterday, the first 2 cases were diagnosed in 
the counties I represent in northern Illinois.
    Our job as Members of Congress is to keep Americans safe by working 
with the Executive branch to lead a strong Federal Government response, 
including the House-led $8.3 billion supplemental funding package that 
passed last week. A strong response must include each of these 3 
elements: First, we must continue support for our local and State 
public health departments, our health care system, and our emergency 
responders who are on the front lines of this outbreak. This starts 
with having reliable data to make decisions, like how to prepare for a 
surge to our health system, and how much personal protective equipment 
is needed for health workers. It also means developing and 
disseminating clear, accurate risk communication to the public. 
America's scientific and public health expertise is unmatched across 
the world, and it must be driving our decisions.
    Second, we must protect people from health care costs associated 
with coronavirus. Testing and treatment must be widely available at no 
cost to patients, and price gouging of medical essentials and other 
supplies must be stopped. If we do not take these crucial steps, the 
epidemic will worsen, because families will avoid seeking care for fear 
they can't afford it, and our communities will be less safe.
    Third, we must soften the economic impact of this crisis on 
American families and small businesses. This means paid sick leave for 
every worker, unemployment insurance, and food assistance if needed. 
Given the Committee's jurisdiction, today we will also examine the 
Department of Homeland Security's role in the coronavirus response 
effort. The Department plays a key role in protecting workers on the 
front lines of this outbreak, processing travelers entering the United 
States, and referring them for screening by health care workers as 
necessary. We will have questions today about the efficacy of this 
screening and how it is being performed at our air, land, and sea 
ports. We also want to learn more about the Department's ability to 
protect its workers, and whether it has adequate personal protective 
equipment for front-line personnel such as Customs and Border 
Protection officers, Border Patrol agents, and Transportation Security 
officers.
    Finally, we want to hear about what plans the Department has to 
ensure continuity of operations at certain essential facilities in case 
of outbreaks there, such as ports of entry, TSA checkpoints, and 
immigration detention facilities.

    Ms. Underwood. The Chair now recognizes the Ranking Member 
of the full committee, the gentleman from Alabama, Mr. Rogers, 
for an opening statement.
    Mr. Rogers. Thank you, Madam, Chairman. I want to thank the 
witnesses for their presence and for your preparation. I know 
it takes a lot of time and effort to be here and prepare for 
it. We appreciate that. It is very helpful to this committee.
    As I said last week, our hearts go out to those who have 
lost loved ones and to those who are currently undergoing 
treatment. This is a global event and requires a global 
response. Our country has faced outbreaks of serious disease in 
the past. In each case, we have martialed our collective 
resources and ingenuity to overcome these crises. I am 
confident that will be the case with COVID-19.
    Congress has worked closely with current and past 
administrations to prepare for outbreaks just like this. Last 
summer, the President signed into the law The Pandemic and All 
Hazards Preparedness Act to enhance Government authorities and 
authorize funding for emergency response and medical 
countermeasures.
    Since 2015 under Republican leadership, we have increased 
funding for infectious disease response by 70 percent. Just 
last week, we came together in a bipartisan fashion to provide 
over $8 billion to help keep public officials able to respond 
to this crisis and expediate the development of a vaccine.
    I hope the spirit of bipartisanship will continue as we 
look at ways to sure up the economy in the wake of this crisis. 
But I am concerned about the petty political attacks on the 
administration's response, such as the Majority's attack on the 
Vice President.
    The bipartisan commission on biodefense as well as the 
panel of health experts that appeared before us last week 
agreed that the Vice President should be the one leading the 
response. The Vice President is the only one with a direct line 
to the President and the authority to achieve a whole-of-
Government coordinated response to this outbreak.
    Unlike the Ebola czar named under the Obama administration, 
the Vice President is in the chain of command, and he didn't 
lobby for the pharmaceutical industry. Last week we heard from 
a panel of medical experts who all agreed that the Government 
is doing the best they can under the circumstances.
    Today, we had the CDC and the Department of Homeland 
Security here to talk about their response efforts. I am 
interested in hearing how the agencies are using the 
supplemental funding Congress provided last week as well as 
what additional authorities they need to effectively respond to 
this crisis.
    In the middle of a crisis like this, it is very important 
for political leaders to avoid flaming the fire of hysteria. 
Our job should be to support the response effort and to provide 
the public with accurate and timely information to keep them 
safe.
    I encourage everyone to heed the advice of our medical 
professionals and our Chairwoman. Wash your hands. Stay home 
when sick. Visit the Center for Disease Control and 
Prevention's website for updated information.
    With that, I yield back the balance of my time.
    [The statement of Ranking Member Rogers follows:]
                Statement of Ranking Member Mike Rogers
                             March 11, 2020
    As I said last week, our hearts go out to those who have lost their 
loved ones and those who are currently undergoing treatment.
    This is a global event that requires a global response.
    Our country has faced outbreaks of serious disease in the past. In 
each case, we've marshalled our collective resources and ingenuity to 
overcome the crisis.
    I'm confident that will be the case with COVID-19.
    Congress has worked closely with current and past administrations 
to prepare for outbreaks like this.
    Last summer, the President signed into law the Pandemic and All-
Hazards Preparedness Act to enhance Government authorities and 
authorize funding for emergency response and medical countermeasures.
    Since 2015, under Republican leadership, we've increased funding 
for infectious disease response by 70 percent.
    And just last week, we came together to provide over $8 billion to 
help public health officials respond to this crisis and expedite the 
development of a vaccine.
    I hope that spirit of bipartisanship will continue as we look at 
ways to sure up the economy in the wake of this crisis.
    But I'm concerned about petty political attacks on the 
administration's response, such as the Majority's attack on the Vice 
President.
    The Bipartisan Commission on Biodefense, as well as the panel of 
health experts that appeared before us last week agreed that the Vice 
President should be the one leading the response.
    The Vice President is the only one with a direct line to the 
President and the authority to achieve a whole-of-Government, 
coordinated response to this outbreak.
    And unlike the Ebola czar named under the Obama administration, the 
Vice President is in the chain of command and he didn't lobby for the 
pharmaceutical industry.
    Last week, we heard from a panel of medical experts who all agreed 
that the Government is doing the best they can under the circumstances.
    Today, we have the CDC and the Department of Homeland Security here 
to talk about their response efforts.
    I am interested in hearing how the agencies are using the 
supplemental funding Congress provided last week, as well as what 
additional authorities they need to effectively respond to the crisis.
    In the middle of a crisis like this, it is very important for 
political leaders to avoid fanning the flames of hysteria.
    Our job should be to support the response effort and provide the 
public with accurate and timely information to keep them safe.
    I encourage everyone to heed the advice of our medical 
professionals--wash your hands, stay home when sick, and visit the 
Centers for Disease Control and Prevention's (CDC) website for up-to-
date information.

    Ms. Underwood. The Chair now recognizes the gentleman from 
Mississippi, Mr. Thompson, for an opening statement.
    Chairman Thompson. Thank you very much. I appreciate the 
Vice Chairwoman's handling of the meeting today. I have some 
talking problems so I will be short. But let me say the 
witnesses we had last week said absolutely we have to have 
effective communication in a situation like this. People have 
to tell the truth.
    Well, I will just say some of the things that we have heard 
in the past. The President called the Governor of the State of 
Washington last week a snake. Well, that State has been the 
most heavily hit State during this crisis. Our President just 
can't call another Governor a snake.
    Then in the same sense, the Vice President turned around 
and said he is one of the best people doing the job addressing 
it. So I think communication and how you outline this is very, 
very important.
    When this issue first came up, a lot of people said it was 
a Democratic hoax. It was never a hoax. We have video where 
people said it. It just should not be.
    So in the interest of getting and addressing this problem, 
taking a whole-Government approach, I would encourage us to 
deal with the facts. But it starts at the top. If the top is 
calling names, people have to respond. I think going forward if 
we can agree that we will not call names, we will address the 
issue.
    A lot of communities are concerned from New Jersey to New 
York to Texas all over. Everybody is being impacted. Most of us 
who came to Washington this week, there were a lot of empty 
plane seats on those planes coming to Washington because people 
don't feel comfortable in terms of flying.
    Some of the people on the planes have masks. We have been 
told by professionals the masks really doesn't address the 
problem. So I would hope, Madam Chair, that with our experts 
here today we will hear the facts.
    With that, I yield back.
    [The statement of Chairman Thompson follows:]
                Statement of Chairman Bennie G. Thompson
                             March 11, 2020
    Last week, the committee held a hearing with non-government expert 
witnesses to examine the Federal response to the coronavirus and assess 
what more must be done to address this pandemic threat.
    Today, the committee will hear from representatives from the 
Department of Homeland Security and Centers for Disease Control on the 
issue.
    Since our last hearing, I have become increasingly concerned about 
the threat posed by the coronavirus and the Trump administration's lack 
of urgency necessary to mitigate the harm it poses to Americans.
    Test kits have been slow to roll out, masks and personal protective 
equipment for health care workers are in short supply, and even basics 
like hand sanitizer are hard for consumers to find. We are clearly 
behind the curve, and it will take a concerted whole-of-Government 
effort to catch up. As President Trump's own former Homeland Security 
Advisor Tom Bossert recently put it, ``it's now or never'' if we are to 
get the coronavirus under control.
    I hope to hear today from our witnesses about what those steps 
might be, including whether limiting mass gatherings, temporarily 
closing schools, or restricting certain travel may be necessary.
    I also expect to hear from Mr. Cuccinelli about the work of the 
White House Coronavirus Task Force and how he intends to make sure the 
administration moves more quickly to help protect the American people 
confront the coronavirus.
    Finally, I want to know what the Department of Homeland Security is 
doing in its role to protect the public and its own work force. The 
coronavirus is here. We cannot change that. What we do in the coming 
days and weeks will determine what comes next for our country.
    Congress has already shown its willingness to support the response 
with the recent emergency supplemental appropriations bill.
    Our hearing today is another important part of our work, as we 
fulfill our Constitutional oversight responsibilities.
    I certainly hope the administration is up to the task. The American 
people are counting on it.

    Ms. Underwood. Other Members of the committee are reminded 
that under committee rules opening statements may be submitted 
for the record.
    [The statement of Hon. Jackson Lee follows:]
               Statement of Honorable Sheila Jackson Lee
                             March 11, 2020
    Chairman Thompson and Ranking Member Rogers, thank you for this 
opportunity for holding today's hearing on ``Confronting the 
Coronavirus: The Federal Response.''
    I thank today's witnesses and look forward to their testimony:
  <bullet> Ken Cuccinelli, senior official performing the duties of the 
        deputy secretary, Department of Homeland Security (DHS) and the 
        DHS representative on the White Coronavirus Task Force:
  <bullet> Stephen C. Redd, MD (RADM, USPHS), deputy director for 
        public health service and implementation science, Centers for 
        Disease Control and Prevention (CDC).
    Today, the World Health Organization, declared that COVID-19 to be 
a pandemic, which has reached at least 114 countries, sickening over 
100,000 people, and killing more than 4,000.
    My thoughts and prayers are with the families who have lost a loved 
one to the coronavirus, and the many others who have contracted the 
disease.
    COVID-19's infectiousness ratio is 2.3, while the flu is 1.5, 
making it much more infectious than the flu.
    People can pass the illness along with few symptoms.
                          testing for covid-19
    For these reasons, the Nation's testing for the virus must improve.
    While the United States has produced 75,000 tests, South Korea has 
tested over 200,000 persons and can perform 11,000 tests a day.
    Testing is the only way to fully understand community spread of 
COVID-19.
    Currently tests, because there are so few available, are limited to 
people who have traveled to areas where the virus is experiencing 
community spread or if the person is symptomatic.
    Limiting access to testing must end because communities, States, 
and the Nation cannot plan a counter offensive to stop the spread of 
COVID-19 without knowing who is and who is not infected.
       houston area's first presumptive positive test of covid-19
    The first presumptive positive COVID-19 case in Texas was reported 
this week to have occurred in Montgomery County Texas, which borders 
Harris County, the location of Houston, Texas.
    Montgomery County, Texas officials confirmed that the man has not 
traveled out of the State or country recently.
    Currently, everyone he has been in close contact with is in self-
quarantine.
    If the case is confirmed by the CDC, this could be the first 
community-spread case in the Houston area.
    The Houston area has other cases that are linked to travel outside 
of the State, but this is the first case not linked to travel outside 
of the State.
    The Montgomery County Community has taken steps to protect children 
by closing schools 2 days before spring break to do a deep clean, and 
they are expecting to resume classes after the break.
    The person is being treated at an undisclosed hospital and is 
reported to be under observation and doing well.
    We owe a special debt to First Responders who will be the lifeline 
for many people who will need medical care to overcome novel 
Coronavirus (COVID-19).
                               a vaccine
    I have received reports that the Baylor's College of Medicine has a 
vaccine for COVID-19.
    We cannot delay in seeking confirmation on this report and, if 
true, set into motion the processes necessary to produce enough vaccine 
to inoculate the American people.
    Even if Baylor has a cure it will take a year to grow enough 
vaccine to treat people at risk of contracting COVID-19.
                                  who
    On March 3, the World Health Organization sought to differentiate 
the spreading novel coronavirus from influenza, with the underlying 
message that while seasonal flu cannot be stopped, countries still have 
the chance to limit cases of COVID-19, the disease caused by the new 
virus.
    WHO said the Coronavirus is not SARS, MERS, or the flu.
    COVID-19 is a unique virus with unique characteristics that 
scientists, and virologists, and researchers around the world are 
racing to understand.
    We have a window to escape the worst of this disease's impact on 
our world, but that window is closing.
    A critical tool in the arsenal for stopping COVID-19 is the 
Department of Homeland Security and, more specifically, the men and 
women who are on the front line at our Nation's airports and borders.
    The Department of Homeland Security has a vital mission: To secure 
the Nation from the many threats we face.
    This requires the dedication of more than 240,000 employees in jobs 
that range from aviation and border security to emergency response, 
from cybersecurity analyst to chemical facility inspector.
    But we cannot forget that they too are vulnerable to the 
Coronavirus.
    We must protect DHS personnel and their families, while they 
fulfill their vital mission of protecting the American people as we 
fight the spread of COVID-19.
                         ebola lessons learned
    In 2014, the world had a close call with the Ebola outbreak that 
took the lives of so many, and reached U.S. soil, when Eric Duncan 
arrived from Liberia for visit with his family not knowing he was 
infected.
    When Mr. Duncan went to an Dallas area hospital for treatment for 
the symptoms of Ebola he was denied admission, but after returning a 
few days later he was admitted and later died.
    That battle with Ebola lasted from 2014 until 2016.
    It took thousands of researchers, doctors, nurses, public health 
professionals, and volunteers who worked for over 2 years to win that 
war against Ebola.
    To win that war we fought the disease close to its place of origin.
    We could not afford to lose that fight because that would risk 
Ebola becoming endemic, meaning that it could be contracted in many 
Nation's around the world.
    President Obama and bipartisan leadership in the House and Senate 
made the difference.
    President Obama created a Task Force and established a full-time 
presence in the White House to ensure that the Nation would be ready 
for when another pathogen threatened the American people.
                       covid-19 and public health
    Today, COVID-19 is a new coronavirus threatens the world.
    As of March 11, 2020, the global death toll is 4,382, while more 
than 121,622 people have been infected in more than 80 countries.
    In China, the COVID-19 outbreak has infected around 90,000 
individuals, and killed 3,158 people.
    More than 60,000 people in China have recovered from COVID-19.
    Until China lifts the draconian quarantine measures put into place, 
we will not know if they are past the worst consequences of COVID-19.
    The number of deaths will surely rise in the coming weeks, but we 
must not lose heart and be delayed in placing every tool needed in the 
hands of physicians, researchers, medical professionals, public health 
agencies, and Federal, State, and local emergency response agencies to 
defeat COVID-19.
                     covid-19 in the united states
    On Tuesday, March 11, Johns Hopkins reported that COVID-19 cases in 
the United States have surpassed 1,000.
    The Centers for Disease Control and Prevention (CDC) reported 
COVID-19 is in 35 States.
    Texas reported at least 8 new cases of Coronavirus in the State on 
Tuesday.
    They include the first known instances in Dallas, Gregg, 
Montgomery, and Tarrant counties, while 2 new Collin County patients, 
including a 3-year-old, contracted the virus from a family member.
    There was also a new, seventh case in Montgomery County, which is 
outside of Harris County late Tuesday.
    In Dallas County, 2 people tested positive.
    The first was a ``77-year-old out-of-State traveler with an 
extensive travel history,'' according to a news release.
    The second was a person in their 50's who ``is a close contact'' of 
the 77-year-old. County officials said they expected the second 
person's coronavirus test to come back positive, but that ``there is 
not a cause for concern.''
    This virus is a serious public health threat, but this does not 
mean that we should have a public health panic.
                    fighting the spread of covid-19
    The weapons for slowing the spread of COVID-19 are simple and they 
work:
  <bullet> Washing hands;
  <bullet> Sanitizing surfaces; and
  <bullet> Quarantines.
    These tools for controlling the spread of infectious diseases are 
as old as civilization and are still used today because they work.
    Some of the first records of the use of cleaning, washing, and 
isolation of the sick is found in the Bible in the Book of Leviticus 
Chapter 13.
    Which provides detailed instructions to the community about 
leprosy, a dreaded contagious disease.
    The isolation or quarantine for leprosy was 14 days, the same 
period that COVID quarantines may last.
    Given the fluid nature of the events unfolding the time may be 
longer based upon circumstances.
    I believe that we are not doing enough to prepare the public for 
what may be localized, household, or individual quarantines to address 
spread of COVID-19.
    My concerns about public education are informed by my work to 
address the Zika Virus, a mosquito-borne illness, which emerged as a 
domestic public health threat in Gulf Coast States in 2016.
                               zika virus
    Zika Virus was the first illness known to cause severe brain 
deformities in a developing fetus while in the womb.
    I worked with infectious disease experts, policy makers, and worked 
to raise awareness with my fellow Members of Congress.
    Congresswoman Rosa DeLauro and I published an editorial in the 
Houston Chronical on the importance of the Federal response to the Zika 
Virus to help focus Congressional attention on the issue.
    This year, when I saw news reports in early January on the novel 
Coronavirus's rapid spread and the numbers of infected expanding so 
quickly, I knew this was not something to be taken lightly and that 
time was not on our side to mount an effective defense.
          efforts to raise community awareness about covid-19
    On February 10, 2020, I held the first press conference on the 
issue of the novel Coronavirus at Houston Intercontinental Airport.
    I was joined by public health officials, local unions, and 
advocates to raise awareness regarding the virus and the implications 
it might have for travel to the United States from China and to combat 
early signs of discrimination targeting Asian businesses in the United 
States.
    On February 24, 2020, I held a second press conference on the 
International Health Regulations Emergency Committee of the World 
Health Organization declaration of a ``public health emergency from the 
outbreak of the Coronavirus.''
    At this media conference, I also released an Action Plan:
  <bullet> ENHANCED PRODUCTION OF N-95 MASKS
  <bullet> INFORMING STATE HEALTH AGENCIES AND ALL FEDERALLY-QUALIFIED 
        HEALTH CLINICS TO TEST ALL PATIENTS PRESENTING WITH FLU-LIKE 
        SYMPTOMS FOR THE CORONAVIRUS
  <bullet> INCREASE THE SUPPLY OF FLU VACCINE AND USE PUBLIC SERVICE 
        ANNOUCEMENTS TO PROMOTE GETTING A FLU SHOT TO REDUCE THE NUMBER 
        OF PERSONS WITH FLU-LIKE SYMPTOMS
  <bullet> TASK FORCE MUST NAME A SINGLE CORONAVIRUS AUTHORITATIVE 
        SOURCE FOR ALL FEDERAL INFORMATION ON THE VIRUS AND ESTABLISH 
        CLEAR COMMUNICATION LINKS TO K-12 AND POST-SECONDARY SCHOOLS, 
        THE MEDIA, AND THE PUBLIC
  <bullet> ESTABLISH A REQUIREMENT THAT THE NATION'S AIRPORTS, TRAINS, 
        AND MASS TRANSIT SYSTEMS, BOTH SMALL AND LARGE, NEED TO HAVE 
        RESPONSE TEAMS AS NECESSARY TO DEAL WITH AND TREAT THE 
        TRAVELING PUBLIC
  <bullet> MAKE SURE THE FEDERAL ADVISORY TASK FORCE MAKES PUBLIC 
        REPORTS ON THE STATUS OF THE SPREAD OF THE CORONAVIRUS 
        INCLUDING THROUGH THE DEVELOPMENT OF AN APP THAT PROVIDES UP-
        TO-DATE TRAVEL ADVISORIES REGARDING CERTAIN COUNTRIES AND BASIC 
        INFORMATION ON THE VIRUS.
    On February 26, 2020, I sent a letter to the Chair and Ranking 
Member of the Committee on Homeland Security, seeking a meeting with 
Acting Secretary of Homeland Security Chad Wolf to gain insight into 
the preparedness of the agency to address a possible pandemic.
    On February 28, 2020, I spoke on the floor of the House and 
announced plans to form a Congressional Coronavirus Task Force.
    On March 4, 2020, the House of Representatives is giving a full-
throated response to Coronavirus by introducing $8.3 billion in funding 
to help State and local public health departments meet the challenge of 
preparing communities for COVID-19.
    On Monday, March 9, 2020, we sent the Dear Colleague invitation to 
other Members of the House to signed by me, Congressmen Brian 
Fitzpatrick, and Dr. Raul Ruiz, to join the Congressional Coronavirus 
Task Force.
    Our Nation can win this battle against COVID-19 because we have 
knowledgeable and trained virologists, public health experts, and 
physicians who are available to help people get the information they 
need and provide care should they need it.
    To win we must have the leadership, appropriate levels of funding, 
and the guidance of State, Tribal, territorial, and local public health 
officials.
    I look forward to witness testimony on this important homeland 
security threat.
    Thank you.

    Ms. Underwood. I welcome our witnesses. Mr. Ken Cuccinelli 
currently serves as the senior official performing the duties 
of the deputy secretary for the Department of Homeland 
Security.
    He is also the Department of Homeland Security's 
representative to the White House Coronavirus Task Force. 
Previously, he served as acting director of U.S. Citizenship 
and Immigration Services. Mr. Cuccinelli was attorney general 
in Virginia from 2010 to 2014.
    Next, we have Doctor Stephen Redd, who is the deputy 
director for public health service and implementation science 
at the Centers for Disease Control and Prevention.
    He previously directed CDC's Office of Health Preparedness 
and Response where he was responsible for State and local 
readiness and emergency operations. Doctor Redd is a medical 
doctor, an epidemiologist with 30 years of experience at CDC.
    Without objection, the witnesses' full statements will be 
inserted in the record.
    I now ask each witness to summarize their statement for 5 
minutes beginning with Mr. Cuccinelli.

STATEMENT OF KEN CUCCINELLI, II, SENIOR OFFICIAL PERFORMING THE 
  DUTIES OF THE DEPUTY SECRETARY, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Cuccinelli. Thank you, Vice Chairman Underwood, 
Chairman Thompson, Ranking Member Rogers, and distinguished 
Members of the committee. It is my honor to appear before you 
today to testify about the work of the Department of Homeland 
Security, what we are doing to respond to the current outbreak 
of the coronavirus.
    I am very proud of the work the men and women of DHS and 
our partners at the Department of Health and Human Services and 
across the Government are doing. The Department's top priority 
is the safety and security of the American people.
    DHS is taking action at airports and land ports of entry to 
support HHS in slowing the spread of the novel coronavirus to 
say nothing of our maritime work.
    DHS continues to work very closely with our partners at CDC 
throughout all admissible persons who have been in mainland 
China and Iran in the previous 14 days to one of 11 designated 
airports of entry where the Federal Government has focused 
public health resources.
    At all ports of entry, CBP officers continue to remain 
alert and notify CDC and other public health officials when 
encountering passengers exhibiting signs of overt illness, 
regardless of their travel history.
    DHSCWMD is currently supporting CDC's enhanced entry 
screening efforts through agreements with State, local, or 
private-sector emergency medical services, public health, and 
first responder personnel at all 11 designated airports of 
entry for passengers who have been in China or Iran within the 
previous 14 days.
    CWMD supports the collection of passenger information for 
CDC to provide direct information to State and local public 
health officials to facilitate contact tracing efforts. CBP and 
the Coast Guard continue their work to recognize, detect, and 
assist individuals arriving through our land ports and 
waterways.
    In coordination with CDC and U.S. Coast Guard, CBP has 
measures already in place at all ports of entry to identify 
travelers with overt signs of illness to minimize the risk to 
the public. U.S. Coast Guard reviews all advanced notice of 
arrivals 96 hours in advance of a schedules arrival of a ship 
in port.
    The Coast Guard captain of the port communicates any 
concerns stemming from sick or deceased crew or passengers to 
their Coast Guard chain of command and the cognizant CDC 
quarantine station who will coordinate with local health 
authorities. This process has been working smoothly across the 
country.
    At and between land ports of entry, CBP is identifying 
persons with recent travel to China or Iran and making 
appropriate referrals to CDC or the local health system.
    The DHS work force is our greatest asset, and every 
precaution is being taken to keep our work force safe, 
especially for our officers and agents on the front lines. 
Ensuring that these individuals and all DHS personnel remain 
safe and healthy is a critical--and immediately upon the onset 
of COVID-19 as a global concern, the Department proactively 
took action.
    The DHS management directorate has established a work force 
protection command center to ensure that protective procedures 
are in place for the front-line work forces who may regularly 
encounter potential disease carriers and is working with all 
DHS components to assess their readiness.
    CWMD continues to work with the U.S. Government 
interagency, State Governors, State and local public health 
agencies, non-governmental organizations, the Governments of 
Mexico and Canada, and private industry partners and 
stakeholders on medical and public health coordination and 
information sharing.
    The Cybersecurity and Infrastructure Security Agency, CISA, 
has been assessing the National critical functions for 
potential impacts to infrastructure and systems from COVID-19 
and is working closely with private-sector owners and operators 
to identify issues of concern and ensure continuity of these 
critical assets.
    FEMA is providing support to HHS as the lead Federal agency 
in the areas of incident management, resource planning, and 
Federal interagency coordination. Additionally, FEMA remains 
postured to support HHS with consequence management to 
anticipate any mitigation actions.
    The American public can be assured that DHS and its 
component agencies are taking decisive action to analyze a 
threat, minimize risk, and slow the spread of the virus by 
working closely with CDC health professionals and interagency 
partners involved in this whole-of-Government effort.
    I want to thank you, Vice Chairwoman Underwood, Ranking 
Member Rogers, Chairman Thompson, and the Members and staff of 
this committee for the support you have shown the Department 
and the Government's effort to respond to COVID-19. I look 
forward to your questions.
    [The prepared statement of Mr. Cuccinelli follows:]
                Prepared Statement of Ken Cuccinelli, II
                             March 11, 2020
                              introduction
    Chairman Thompson, Ranking Member Rogers, and distinguished Members 
of the committee. It is my honor to appear before you today along with 
my CDC colleague RADM Redd to testify about the work the Department of 
Homeland Security (DHS) is doing to respond to the current outbreak of 
Coronavirus Disease 19, known as COVID-19.
    Let me first say that I am very proud of the work that the men and 
women of DHS and our partners at the Department of Health and Human 
Services (HHS) and across the Government are doing to contain the 
spread of the disease, slow the spread of the disease, and to prepare 
and provide for a domestic response. The Department's top priority is 
the safety and security of the American people, and we are committed to 
an aggressive, proactive, and preemptive whole-of-Government response 
in fulfillment of our mission. As required by Congress, in 2018, 
President Trump signed the first-ever ``National Biodefense Strategy'' 
to build upon our ability to rapidly respond to and limit the impacts 
of bioincidents like the one we are facing now. We are seeing that 
strategy pay dividends as we implement a whole-of-Government response 
to this disease.
    Additionally, the operational coordination and cooperation between 
HHS and DHS dates back to a 2005 Memorandum of Understanding (MOU) 
enhancing preparedness against the introduction, transmission, and 
spread of quarantinable and serious communicable disease into the 
United States. Our combined experience and long-standing relationship, 
continues to be beneficial today. Across the air, land, and maritime 
domains, DHS has taken and continues to take proactive measures to 
address COVID-19.
     protecting americans through our efforts at air ports of entry
    DHS is taking action at airports of entry to support HHS in slowing 
the spread of the novel coronavirus. DHS is working to decrease the 
workload of public health officials, expedite the processing of U.S. 
citizens returning from China, and, above all, ensure that resources 
are focused on the health and safety of the American people.
    On January 31, 2020, the Secretary of Health and Human Services 
declared COVID-19 a public health emergency in the United States, and 
the President signed a Presidential Proclamation using his authority 
pursuant to Section 212(f) of the Immigration and Nationality Act to 
suspend the entry into the United States of foreign nationals who pose 
a risk of transmitting the virus. As of 5 p.m. Eastern Standard Time on 
February 2, 2020, foreign nationals, other than immediate family of 
U.S. citizens and lawful permanent residents and other individuals 
falling within narrow exceptions to the Proclamation, who were 
physically present in the People's Republic of China, excluding Hong 
Kong and Macau, within the previous 14 days has been denied entry into 
the United States. On February 29, 2020, President Trump expanded this 
Proclamation to also include most foreign nationals who have been in 
Iran within the previous 14 days.
    DHS, including U.S. Customs and Border Protection (CBP) and the 
Transportation Security Administration (TSA), continues to work very 
closely with our partners at the Centers for Disease Control and 
Prevention (CDC) to route all admissible persons who have been in 
mainland China and Iran in the previous 14 days to one of 11 designated 
airports of entry where the Federal Government has focused public 
health resources.
    Any admissible person who has been in Hubei province, China in the 
previous 14 days is subject to up to 14 days of mandatory quarantine 
where CDC has made arrangement with State and local authorities to 
ensure they are provided proper medical care and health screening. Any 
admissible person who has been in the rest of mainland China or Iran 
within the previous 14 days undergoes proactive entry health screening 
at one of these airports and, if they are asymptomatic, up to 14 days 
of self-monitoring to ensure they have not contracted the virus and do 
not pose a public health risk.
    DHS continues to closely monitor the spread of the virus and is 
taking actions to ensure an appropriate response. We are working very 
closely with airlines and our partners in South Korea and Italy to 
implement exit screening procedures in those locations for travelers 
coming to the United States.
    DHS continues to facilitate enhanced health screening of travelers 
entering the United States who have recently been in China or Iran. 
Travelers identified by CBP officers during their primary inspection 
are referred to a secondary screening area, where contractor personnel 
(through agreements by the DHS Countering Weapons of Mass Destruction 
Office (CWMD)) conduct enhanced entry screening. Travelers who have 
been in Hubei province, China within the previous 14 days or who 
exhibit symptoms consistent with COVID-19 are sent to CDC for tertiary 
screening and consideration for quarantine. Between February 2 and 
March 8, CBP referred 56,543 travelers for secondary screening by the 
CWMD contract personnel at the 11 funneling airports. Of these, 91 
individuals required referral to the CDC for medical evaluation. At all 
ports of entry, CBP officers continue to remain alert and notify CDC 
and other public health officials when encountering passengers 
exhibiting signs of overt illness, regardless of their travel history.
    We realize these actions could prolong travel times for some 
individuals; however public health and security experts agree these 
measures are necessary to contain the spread of the virus and protect 
the American people. To minimize disruptions, CBP and the air carriers 
are working to identify qualifying passengers before their scheduled 
flights.
    DHS CWMD is currently supporting CDC's enhanced entry screening 
efforts through agreements with State, local, or private-sector 
Emergency Medical Services, public health, and first responder 
personnel at all 11 designated airports of entry for passengers who 
have been in China or Iran within the previous 14 days. CWMD 
established this capability in response to the Ebola virus threat that 
was emerging in the Democratic Republic of the Congo last summer. These 
actions ensured a trained, vetted, and badged workforce was ready to 
rapidly deploy to support the CDC with airport screening operations. 
DHS was able to adapt this capability to quickly address the threat of 
COVID-19 and support CDC's enhanced health screenings in the National 
interest.
    CWMD support includes the collection of passenger information 
allowing CDC to provide direct information to State and local public 
health officials to facilitate contact tracing efforts. CWMD's efforts 
have significantly increased the accuracy of the data collected.
protecting americans through our efforts at land and sea ports of entry
    CBP and the United States Coast Guard (USCG) continue their work to 
recognize, detect, and assist individuals arriving in the United States 
through our land ports and waterways who may be carrying the virus. In 
coordination with the CDC and USCG, CBP has measures already in place 
at all ports of entry to identify travelers with overt signs of illness 
who may be potentially infected with a communicable disease and to 
minimize the risk to the traveling public.
    USCG continues to review all ``Advance Notice of Arrivals'' 96 
hours in advance of the scheduled arrival of a ship in port in 
accordance with its current policies. The Captain of the Port will 
communicate any concerns stemming from sick or deceased crew or 
passengers to their Coast Guard chain of command and the cognizant CDC 
quarantine station, who will coordinate with local health authorities. 
This process has been working smoothly across the country.
    To ensure continued facilitation of international trade, non-
passenger commercial vessels that have been to China (excluding Hong 
Kong and Macau) or Iran or embarked crewmembers who have been in China 
(excluding Hong Kong and Macau) or Iran within the previous 14 days, 
with no sick crewmembers, may be permitted to enter the United States 
and conduct normal operations, with restrictions. Crewmembers on these 
vessels will be required under Captain of the Port authority to remain 
aboard the vessel except to conduct specific activities directly 
related to vessel cargo or provisioning operations.
    At and between land ports of entry, CBP is identifying persons with 
recent (within 14 days) travel to China or Iran and making appropriate 
referrals to CDC or the local health system.
                         monitoring the disease
    DHS and its components were well-prepared to take proactive and 
preemptive action to mitigate the threat, minimize risk, and slow the 
spread of the virus by working closely with CDC and other interagency 
partners as cases of the virus in China began to increase. The National 
Biosurveillance Integration Center (NBIC) within DHS CWMD began 
tracking an outbreak of unidentified viral pneumonia in Wuhan, China on 
January 2, providing early situational awareness on what we now know is 
COVID-19. NBIC continues to generate and distribute daily updates to 
thousands of Federal, State, and local partners to apprise them of the 
situation. NBIC further supports CDC and CBP operations by analyzing 
passenger travel data relevant to the movement of persons out of the 
impacted area. These interagency analyses of flight data, in 
conjunction with operational considerations, helped inform the 
selection of U.S. airports for enhanced health screening for 
coronavirus.
    The Science & Technology Directorate's (S&T) National Biodefense 
Analysis and Countermeasures Center has received an isolate of the 
virus and is collaborating with CWMD to produce data on environmental 
stability of the virus as well as decontamination strategies to inform 
DHS component and interagency operations. Building on experience gained 
during the response to the previous Ebola outbreak, S&T has also 
developed and maintains a SARS-CoV-2 Master Question List (MQL), which 
tracks current knowledge and research efforts on the virus across the 
Government and academia, providing situational awareness on these 
important efforts.
                        dhs workforce protection
    The DHS workforce is our greatest asset, and every precaution is 
being taken to keep our workforce safe, especially for our USCG, TSA, 
CBP, and U.S. Immigration and Customs Enforcement officers and agents 
on the front lines. Ensuring that these individuals, and all DHS 
personnel remains safe and healthy is critical, and immediately upon 
the on-set of COVID-19 as a global concern, the Department proactively 
took action.
    The DHS Management Directorate has established a workforce 
protection command center to ensure that protective procedures are in 
place for the front-line workforces who may regularly encounter 
potential disease carriers and is working with all DHS components to 
assess their readiness. Some current precautionary measures for these 
officers include providing gloves, masks, and hand sanitizer.
    Although the most recent CDC guidance does not recommend changes to 
routine security screening operations or respiratory protection, TSA is 
authorizing front-line personnel, whose security screening tasks 
require routine, close contact with the traveling public, to wear 
surgical masks if they choose to do so. CBP personnel have access to 
personal protective equipment (PPE) as part of their normal operations 
at all ports of entry and have been provided guidance in case of 
exposure to a contagion. CBP issued an updated Job Hazard Analysis on 
February 5, 2020, to all employees that outlines the current 
comprehensive PPE guidance, which includes guidance about wearing masks 
under the appropriate circumstances.
    DHS continues to share information with the workforce on an on-
going basis. Our workforce protection command center is in close 
coordination with Federal health partners and component health and 
safety officials. Furthermore, the chief medical officer (CMO) in DHS 
CWMD continues to advise DHS leadership on the on-going health threat 
and its impact on workforce health.
                       supporting the interagency
    As the lead Federal agency for coronavirus response, HHS leads 
outreach to State, local, Tribal, and territorial public health and 
safety officials on the outbreak status and the U.S. public health 
response. In support of HHS, DHS provides information to ports of entry 
on the risks of COVID-19, advising that front-line personnel be alert 
for individuals who may have come from an infected region. TSA has been 
working with select airlines to notify travelers on the risks of 
potentially contracting the communicable disease. CBP has posted travel 
notices at land border crossings informing passengers about the virus. 
Finally, the USCG has issued a Marine Safety Information Bulletin to 
maritime industry partners advising of required reporting of illnesses 
or deaths on-board arriving commercial vessels and delineating 
conditions whereby vessels may be denied entry into the United States.
    CWMD, which includes the DHS CMO, continues to work with the USG 
interagency, State/local public health agencies, non-governmental 
organizations, the Governments of Mexico and Canada, and private 
industry partners/stakeholders on medical and public health 
coordination and information sharing.
    Additionally, the Cybersecurity and Infrastructure Security Agency 
(CISA) has been assessing the National Critical Functions for potential 
impacts to infrastructure and systems from COVID-19 and is working 
closely with private-sector owners and operators to identify issues of 
concern and ensure continuity of these critical assets in the event 
that COVID-19 reaches pandemic levels and the United States sees 
significant community spread.
    Since February 12, DHS has been augmenting the HHS Secretary's 
Operations Center with personnel from FEMA, DHS HQ, USCG, CWMD, and 
CISA, who are assisting the HHS-led interagency response through 
increased support and coordination.
    FEMA is providing support to HHS as the lead Federal agency in the 
areas of incident management, resource planning, and Federal 
interagency coordination. Additionally, FEMA remains postured to 
support HHS with consequence management to anticipate any potentially 
necessary mitigation actions. This on-going planning effort is similar 
to the experience with past outbreaks of Severe Acute Respiratory 
Syndrome (SARS) and Middle East Respiratory Syndrome (MERS), caused by 
similar viruses.
                               conclusion
    The American public can be assured that DHS and its component 
agencies are taking decisive action to analyze the threat, minimize 
risk, and slow the spread of the virus by working closely with CDC 
health professionals and interagency partners involved in this whole-
of-Government effort.
    I want to thank you, Chairman Thompson, Ranking Member Rogers, and 
the Members and staff of this committee for the support you have shown 
the Department and the Government's effort to respond to COVID-19.
    I look forward to your questions.

    Ms. Underwood. Thank you for your testimony.
    I now recognize Doctor Redd to summarize his statement for 
5 minutes.

STATEMENT OF STEPHEN C. REDD, DEPUTY DIRECTOR OF PUBLIC HEALTH 
SERVICE AND IMPLEMENTATION SCIENCE, CENTERS FOR DISEASE CONTROL 
  AND PREVENTION, U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Dr. Redd. Good afternoon, Chairs Underwood and Thompson, 
Ranking Member Rogers, and Members of the committee. Thank you 
for the opportunity to talk with you about CDC.
    Ms. Underwood. Turn on your mic, sir.
    Dr. Redd. Is the mic not on. Maybe I need----
    Ms. Underwood. OK.
    Mr. Redd [continuing]. To get closer.
    Ms. Underwood. Thank you.
    Dr. Redd. Start over. Good afternoon, Chairwoman Underwood 
and Chair--I am sorry--Chairs Underwood and Thompson, Ranking 
Member Rogers, and Members of the committee. Thank you for the 
opportunity to talk with you about CDC's role in the response 
to the novel 2019 coronavirus or COVID-19.
    Before I begin, it is important to recognize that this is a 
new virus and a new disease. The science continues to 
accumulate. We will continue to incorporate that new science 
into our response decisions and response posture.
    There are three overriding themes that have guided our 
response. First, CDC's role in this interagency response is 
built on decades of infectious disease experience and planning 
for pandemic flu and other health emergencies. Second, our 
response is dependent on support of a network of dedicated 
front-line public health workers in our communities, the State 
and local health departments.
    Third, as we begin to see community spread of this virus, 
it will be important for all of us to take action in preventing 
its spread through common sense public health precautions like 
handwashing, staying home if you are sick, and particularly for 
high-risk and vulnerable populations avoiding crowds, 
especially in poorly-ventilated spaces.
    I encourage you to visit CDC's coronavirus website to learn 
more about what you can do. Thank you for the second time we 
have been able to talk about the website and all the 
information that is there.
    From the outset, CDC and our U.S. Government partners have 
implemented an aggressive multi-layered strategy to slow the 
introduction of this virus into the United States to buy time 
so that our scientist could learn how this virus behaves, to 
prepare our Nation's public health system and health care 
system for the possibility of a global pandemic, which as you 
have heard has been declared today, and to educate Americans 
how best to prepare for disruptions to our daily lives and risk 
to our families.
    The administration's interagency containment strategy has 
relied upon tried and true public health interventions. Early 
diagnosis, isolation, and contact tracing, travel advisories, 
and targeted travel restrictions, selective use of quarantine 
for individuals returning from global transmission hot zones.
    Without immunity or treatment, our Nation's public health 
response has relied upon detection and contact tracing to slow 
the emergence of this virus into the United States.
    February 25 was an inflection point for the outbreak when 
for the first time we saw new cases outside of China outpace 
new cases within China. We have observed rapid, wide-spread 
person-to-person transmission in South Korea, Iran, and Italy. 
Before long we had detected our first case of community spread 
in California.
    So what have we learned? The virus spreads easily and 
rapidly mostly through respiratory droplets from sneezing and 
coughing. Going from 30 cases detected by Chinese scientists to 
over 100,000 cases worldwide in a little less than 2 months.
    Reports from China based on more than 70,000 cases of 
COVID-19 indicate that about 80 percent of patients had mild 
illness and recovered. Fifteen to 20 percent developed serious 
illness, predominately in older persons and persons with 
chronic underlying medical conditions.
    For this reason, CDC has issued new guidance advising 
seniors to avoid crowds, stay closer to home, and avoid cruise 
ship travel and long plane trips.
    As of today, CDC has received confirmation of more than 900 
cases of COVID-19 in 38 States plus New York City and the 
District of Columbia. It is with great sadness that I report 
that there have been 31 deaths from this disease in the United 
States.
    As we experience growing community spread in the United 
States, State and local health agencies on the front lines will 
be making difficult decisions to reduce the spread with CDC 
guidance and support. Thank you for your support for additional 
resources to increase public health capacity on our 
communities.
    CDC has put more than 630 staff in the field and has--is 
working side-by-side with other Federal partners--State and 
local partners--and we have had over 1,500 people working on 
the response within Atlanta and the field. CDC is committed to 
this mission. We will continue to work 24/7 to protect the 
American people from this global health threat.
    Thank you, and I look forward to your questions.
    [The prepared statement of Dr. Redd follows:]
                 Prepared Statement of Stephen C. Redd
    Since President Trump took office, his work to protect the health 
and safety of the American people has included a specific focus on 
monitoring, preparing for, and responding to biological threats, such 
as infectious disease outbreaks. As soon as the United States became 
aware of a novel coronavirus at the end of 2019, the U.S. Government 
was tracking its spread and began preparing necessary responses.
    Within the first 2 weeks of China's initial report of the outbreak 
in December 2019, China reported 45 pneumonia cases and 2 deaths. More 
recently, there has been an increase in cases outside of China.
    COVID-19 is a new disease, caused by a novel (or new) coronavirus 
that has not previously been seen in humans. This new disease, 
officially named Coronavirus Disease 2019 (COVID-19) by the World 
Health Organization (WHO), is caused by the SARS-COV-2 virus, which is 
in the same family of viruses as that cause the common cold. There are 
many types of human coronaviruses including some that commonly cause 
mild upper-respiratory tract illnesses. Coronaviruses are a large 
family of viruses. Some cause illness in people, and others, such as 
canine and feline coronaviruses, only infect animals. Rarely, animal 
coronaviruses that infect animals have emerged to infect people and can 
spread between people. This is suspected to have occurred for the virus 
that causes COVID-19. Middle East Respiratory Syndrome (MERS) and 
Severe Acute Respiratory Syndrome (SARS) are two other examples of 
coronaviruses that originated from animals and then spread to people. 
The potential global public health threat posed by this virus is high, 
but right now, the immediate risk to most Americans is low. The greater 
risk is for people who have recently traveled to an affected country or 
been exposed to someone with COVID-19.
    On January 29, 2020, President Trump announced the formation of the 
President's Task Force on the Novel Coronavirus, which is chaired by 
the Secretary for Health and Human Services and coordinated through the 
National Security Council. The President's Task Force is composed of 
subject-matter experts from the White House and several U.S. Government 
agencies, and it includes some of the Nation's foremost experts on 
infectious diseases. The Task Force is leading the administration's 
efforts to monitor, contain, and mitigate the spread of COVID-19 while 
ensuring that the American people have the most accurate and up-to-date 
information to protect themselves and their families.
    The President's top priority is the health and welfare of the 
American people, and his administration has made it a priority to 
prepare for infectious disease outbreaks that can cross borders. In 
2018, President Trump launched the National Biodefense Strategy, which 
lays out a framework for coordination among agencies, with the 
Secretary of the U.S. Department of Health and Human Services (HHS) as 
chair of the Biodefense Steering Committee, and helps identify gaps in 
preparedness and response. As the situation around the new coronavirus 
evolves, the administration will continue its coordinated response, in 
collaboration with State and local governments and the private sector, 
and adjust its positioning as needed.
    Within HHS, the Centers for Disease Control and Prevention (CDC), 
the Assistant Secretary for Preparedness and Response (ASPR), the 
National Institute of Allergy and Infectious Diseases (NIAID), and the 
Food and Drug Administration (FDA) play critical roles in responding to 
COVID-19 by preventing and slowing the spread of the disease, assisting 
repatriated Americans, protecting the supply of food, drugs, and 
devices, and developing diagnostics, therapeutics, and vaccines.
               centers for disease control and prevention
    In late December 2019, Chinese authorities announced a cluster of 
pneumonia cases of unknown etiology centered on a local seafood market 
in Wuhan, China, with an estimated case onset in early December. CDC 
immediately began monitoring the outbreak, and within days--by January 
7, 2020--had established a Center-led Incident Management Structure. On 
January 21, 2020, CDC transitioned to an agency-wide response based out 
of its Emergency Operations Center. This allows CDC to provide 
increased operational support to meet the outbreak's evolving 
challenges and provides strengthened functional continuity to meet the 
long-term commitment needed to curb the outbreak.
    CDC is assisting ministries of health in countries in every region 
of the globe with their most urgent and immediate needs to prevent, 
detect, and respond to the COVID-19 outbreak.
    CDC's most expert and practiced infectious disease and public 
health experts are dedicated to this response 24/7 to protect the 
American people. CDC is a disease preparedness and response agency, and 
this work is fundamental to our mission both domestically and 
internationally. The agency's approach to COVID-19 is built upon 
decades of experience with prior infectious disease emergencies 
including responses to SARS, MERS, and Ebola, and to pandemic 
influenza.
    To mitigate the impact of COVID-19 within the United States, CDC is 
working alongside Federal, State, local, Tribal, and territorial 
partners, as well as public health partners. This public health 
response is multi-layered and includes aggressive containment and 
mitigation activities with an objective to detect and minimize 
introductions of this virus in the United States so as to reduce its 
spread and impact. It is impossible to catch every single traveler 
returning from an affected country with this virus--given the nature of 
this virus and how it's spreading. Our goal continues to be slowing the 
introduction of the virus into the United States as we work to prepare 
our communities for more cases and possible sustained spread.
    To accomplish this, CDC is also working with multiple countries, in 
collaboration with U.S. Agency for International Development (USAID) 
and other Federal agencies and WHO to support ministries of health 
around the globe to prepare and respond to the outbreak. For example, 
the U.S. Government is helping to support countries to implement 
recommendations provided by WHO related to the identification of people 
who might have this new infection, diagnosis, and care of patients, and 
tracking of the outbreak. CDC staff are also starting to work together 
with interagency colleagues in those countries to conduct 
investigations that will help inform response efforts going forward.
    The agency is using its existing epidemiologic, laboratory, and 
clinical expertise to gain a more comprehensive understanding of COVID-
19. CDC is leveraging prior programmatic investments in domestic and 
global public health capacity and preparedness to strengthen the 
agency's response to COVID-19. Thus far, this response has been built 
largely on the foundation of our seasonal and pandemic influenza 
program's infrastructure. The on-going response to COVID-19 also 
demonstrates CDC's continued commitment to strengthen global health 
security. CDC has been engaged in global health security work for over 
7 decades. Thanks to investments in Global Health Security, the U.S. 
Government's work has helped partner countries build and improve their 
public health system capacity. This global effort strengthens the 
world's ability to prevent, detect, and respond to infectious diseases 
like this new coronavirus.
    This outbreak also underscores the need for the United States to 
continue to play a leadership role on the global stage, and to 
strengthen global capacity to stop disease threats at their sources, 
before they spread. Furthermore, the outbreak demonstrates the 
importance of continued investment in our Nation's public health 
infrastructure. Despite years of progress in domestic disease 
prevention and response, efforts to help modernize our Federal, State, 
and local capability and health systems that are crucial to responding 
to and understanding unprecedented threats continue.
    The U.S. Government has taken unprecedented steps to prevent the 
spread of this virus and to protect the American people and the global 
community from this new threat and allow State, local, territorial, and 
private partners time to prepare for any necessary response and 
mitigation activities. Since February 2, 2020, pursuant to arrival 
restrictions imposed by the Department of Homeland Security, flights 
carrying persons who have recently traveled from or were otherwise 
present within mainland China or other affected countries have been 
funneled to designated U.S. airports with CDC quarantine stations. At 
these airports, passengers are subject to enhanced illness screening 
and self-monitoring with public health supervision up to 14 days from 
the time the passenger departs the affected country. This enhanced 
entry screening serves 2 critical purposes. The first is to detect 
illness and rapidly respond to symptomatic people entering the country. 
The second purpose is to educate travelers about the virus and what to 
do if they develop symptoms.
    These measures are part of a layered approach which includes our 
other core public health efforts, including aggressively tracking 
COVID-19 around the globe, building laboratory capacity, and preparing 
the National health care system for community spread. These core 
capabilities and expertise are essential to CDC's comprehensive 
approach to addressing this outbreak.
    While CDC believes that the immediate risk of this new virus to the 
American public is low, CDC is preparing the Nation's health care 
system to respond to identification of individual cases and potential 
person-to-person transmission of COVID-19 in the community, at the same 
time ensuring the safety of its patients and workers. CDC has developed 
guidance on appropriate care and infection control for patients with 
COVID-19 and is engaging regularly with clinical and hospital 
associations to confirm that its guidance is helpful and responsive to 
the needs of the health care system.
    Furthermore, understanding the current constraints of the global 
supply of personal protective equipment (PPE), CDC is working with 
industry and the U.S. health system to comprehend possible effects on 
facilities' abilities to procure the needed levels of PPE, and to 
provide strategies to optimize the supply of PPE.
    Effective disease surveillance enables countries to quickly detect 
outbreaks and continuously monitor for new and reemerging health 
threats. CDC continues to monitor the COVID-19 situation around the 
world.
    CDC has begun working with domestic public health laboratories that 
conduct community-based influenza-like illness surveillance and 
leveraging our existing influenza and viral respiratory surveillance 
systems so that we may begin testing people with flu-like symptoms for 
the SARS-COV-2 virus. HHS is developing plans to expand this effort.
    This collaboration with domestic public health labs is another 
layer of our response that will help us detect if this virus is 
spreading in a community. All of our efforts now are to prevent the 
sustained spread of this virus in our communities, but we need to be 
prepared for the possibility that it will spread. Results from this 
surveillance could necessitate changing our response strategy.
    CDC has issued guidance for people at high risk of exposure to the 
virus, including flight crews, recent travelers to China, and health 
care workers. Through its extensive Health Alert Network, CDC shared 
guidance for clinical care for health care professionals and State and 
local health departments. Health departments, in consultation with 
health care providers, can evaluate patients and determine whether 
someone may have the illness and should be subjected to additional 
diagnostic testing.
    CDC has a demonstrated record of innovative science- and evidence-
based decision making, and an experienced and expert workforce that is 
working 24/7 to combat this public health emergency. The COVID-19 
outbreak is evolving rapidly, and the U.S. Government is constantly 
making adjustments to respond to the changing nature of this public 
health emergency. Our goal continues to be slowing the introduction of 
the virus into the United States and preparing our communities for more 
cases and possible sustained spread. While leaning forward aggressively 
with the hope that we will be able to prevent community spread, CDC 
remains vigilant in confronting the challenges presented by this new 
coronavirus.
           assistant secretary for preparedness and response
    Currently, there are no vaccines or therapeutics approved by the 
FDA to treat or prevent novel coronavirus infections. The Biomedical 
Advanced Research and Development Authority (BARDA), part of ASPR, is 
working with counterparts across the Government, including within HHS 
and with the Department of Defense (DOD). The team is reviewing 
potential vaccines, treatments, and diagnostics from across the public 
and private sectors to identify promising candidates that could be 
developed to detect, protect against, or treat people with coronavirus 
infections. BARDA is working closely across the U.S. Government to 
assess and identify potential partners and technologies suitable to 
address the COVID-19 outbreak--both for prevention and treatment.
    This has allowed BARDA to leverage existing partnerships, 
accelerating the development of COVID-19 medical countermeasures, 
including diagnostics, therapeutics, and vaccines. Established 
partners, including Regeneron, Janssen, and Sanofi Pasteur, have shown 
success in developing both prophylactic and therapeutic medical 
countermeasures for emerging infectious diseases.
    BARDA is collaborating with Regeneron to leverage their partnership 
agreement to develop multiple monoclonal antibodies that, individually 
or in combination, could be used to treat this emerging coronavirus. 
Regeneron's monoclonal antibody discovery platform, called VelocImmune, 
was used to develop a promising investigational three-antibody 
therapeutic which was deployed to treat Ebola in the most recent 
outbreak in the Democratic Republic of the Congo, and an 
investigational two-antibody therapeutic to treat MERS. The technology 
shortened multiple aspects of the product development time line for 
therapeutics to treat MERS and Ebola from years to months. The 
technology helped shorten certain stages of drug development, including 
the process of antibody discovery and selection, preclinical-scale 
manufacturing, and clinical-scale manufacturing. BARDA and Regeneron 
are working to utilize these monoclonal antibodies, produced by a 
single clone of cells or a cell line with identical antibody molecules, 
which will bind to certain proteins of a virus, reducing the ability of 
the COVID-19 virus to infect human cells.
    BARDA is working with Janssen to leverage their Ebola, Zika, HIV 
vaccine platform to expedite development of vaccines that protect 
against the SARS-CoV-2 virus. Using existing resources, BARDA will 
share research and development costs and expertise with Janssen to help 
accelerate Janssen's investigational COVID-19 vaccine into clinical 
evaluation. Janssen will also scale-up production and manufacturing 
capacities required to manufacture the candidate vaccine. This same 
approach was used to develop and manufacture Janssen's investigational 
Ebola vaccine with BARDA support; that vaccine is being used in the 
Democratic Republic of the Congo as part of the current Ebola outbreak 
response. Additionally, BARDA and Janssen are working together to help 
develop treatments for coronavirus infections. Janssen will conduct 
high throughput screening on thousands of potential antiviral compounds 
in order to identify medicines that could safely and effectively be 
used to reduce the severity of illness and treat COVID-19 infections, 
as well as identify compounds that have antiviral activity against 
SARS-CoV-2 as an initial step in developing new treatments. These 
products include those in development to treat and prevent MERS or 
SARS, which are caused by coronaviruses also related to COVID-19.
    Finally, in their work with Sanofi Pasteur, BARDA is able to 
leverage a licensed recombinant influenza vaccine platform to produce a 
recombinant SARS-CoV-2 vaccine candidate. The technology produces an 
exact genetic match to proteins of the virus. DNA encoding the protein 
will be combined with DNA from a virus harmless to humans, and used to 
rapidly produce large quantities of antigen which stimulate the immune 
system to protect against the virus. The antigens will be separated and 
collected from these cells and purified to create working stocks of 
vaccine for advanced development.
    BARDA has initiated early steps of medical countermeasures 
development with partners and will continue to work to accelerate this 
process. Availability of these medical countermeasures is essential to 
save lives and protect Americans against 21st Century public health 
threats.
    Our Nation's health care system is better prepared than it has ever 
been. For example, all 50 States have Pandemic Plans, as a requirement 
of CDC's Public Health Emergency Preparedness Program (PHEP) and ASPR's 
Hospital Preparedness Program (HPP). HPP was established after the 
September 11, 2001, terrorist attacks, with the goal of improving the 
capacity of local hospitals across the country to deal with disasters 
and a large influx of patients in an emergency. Using HPP funding, 
State grantees initially purchased equipment and supplies needed for 
emergency medical surge capacity. Over time, the program has 
successfully evolved to support local, coordinated health care 
coalitions, including hospitals, public health facilities, emergency 
management agencies, and emergency medical services providers. 
Investments administered through PHEP and HPP have improved individual 
health care entities' preparedness and have built a system for 
coordinated health care system readiness. HPP is the only source of 
Federal funding to prepare the Nation's mostly private health care 
system to respond to emergencies, including COVID-19.
    Beginning in 2018, ASPR has been supporting Regional Disaster 
Health Response Systems (RDHRS) pilot projects. The RDHRS concept aims 
to provide funding directly to hospitals and health care systems to 
establish multi-State regional partnerships to increase preparedness 
and response capability and capacity for hospitals and health care 
facilities in advance of, during, or immediately following incidents, 
including emerging infectious diseases. Two sites were selected in 
September 2018 to begin development of RDHRS pilots. In 2019, two 
grants were awarded to support new centers of excellence pilots focused 
on pediatric disaster care. The RDHRS and Pediatric Disaster Care 
Center of Excellence cooperative agreement requirements are 
intentionally aligned to ensure synergy between the programs and 
collaboration between all sites and facilities. Ultimately, these 
efforts inform best practices to help ready health care delivery 
systems for disasters and emergencies and are critical in aiding 
response and limiting the impact of disaster. As you all are aware, the 
United States is in the middle of influenza season. Many emergency 
departments are at 90 percent capacity. If influenza worsens, or if 
COVID-19 intensifies domestically, emergency departments would be 
severely strained, which is why supporting models such as the Hospital 
Preparedness Program health care coalition network is so important.
    The National Ebola Training and Education Center (NETEC) combines 
the resources of health care institutions experienced in treating Ebola 
to offer training, readiness consultations, and expertise to help 
facilities prepare for Ebola and other special pathogens. The regional 
Ebola and other special pathogen treatment centers, of which ASPR and 
CDC funded 10 across the country, all have respiratory infectious 
disease isolation capacity or negative pressure rooms for at least 10 
patients, including pediatric patients. The NETEC and the regional 
Ebola and other special pathogen treatment centers have been used to 
support recent quarantine efforts. Should the coronavirus infections 
increase domestically, these centers will become critical in isolating 
infected persons and providing adequate treatment.
    ASPR and CDC also work to enhance medical surge capacity by 
organizing, training, equipping, and deploying Federal public health 
and medical personnel, such as National Disaster Medical System (NDMS) 
teams, and providing logistical support for Federal responses to public 
health emergencies. NDMS was originally created during the cold war to 
take care of military casualties from overseas in U.S. civilian 
hospitals. Today, NDMS teams are deployed to strategic locations across 
the country, caring for U.S. citizens who may have been exposed to 
SARS-CoV-2, effectively providing medical care and limiting the 
potential spread of the disease.
    Recently, to assist in the repatriation effort, ASPR stood up a 
National HHS Incident Management Team (IMT) located in Washington, DC. 
The IMT serves as the National command-and-control element, deploying 
Public Health Service Commission Corps Officers and NDMS personnel.
    In addition, HHS provided cache equipment, (e.g., medical supplies 
and resources) to Travis AFB, Marine Corps Air Station Miramar, 
Lackland, Air Force Base, and Camp Ashland to support evacuees 
quarantined at these facilities. HHS deployed one Disaster Medical 
Assistance Team (DMAT) and one IMT on February 12, 2020, to support 
American citizens in Japan on the Diamond Princess cruise ship, as well 
as the Embassy, to provide medical care, prescriptions, and behavioral 
health support.
    Many active pharmaceutical ingredients and medical supplies, 
including auxiliary supplies such as syringes and gloves, come from 
China and India. This outbreak demonstrates why ASPR is seeking 
innovative solutions and partnerships to better protect National 
security. ASPR is working to increase access to personal protective 
equipment (PPE) by:
  <bullet> Coordinating with CDC and other Federal agencies to share 
        information about optimization of PPE, to prevnt overbuying and 
        overuse of existing supplies.
  <bullet> Engaging private-sector partners who manufacture and 
        distribute PPE to share information and concerns, and to 
        explore options to anticipate and meet the needs of the U.S. 
        health care sector more effectively. During recent discussions, 
        for example, distributors informed us that they have 
        implemented allocations to help prevent stockpiling at health 
        care facilities. The allocation is a percentage of a customer's 
        previous orders and is designed to help protect the health care 
        supply chain and ensure the right supplies are available for 
        those who need it.
  <bullet> We are also partnering with other Federal agencies such as 
        DHS, DOD, and the U.S. Department of Veterans Affairs who are 
        large buyers of PPE, to develop acquisition strategies that 
        incentivize industry to expand PPE production while not 
        exacerbating supply challenges.
    The Strategic National Stockpile (SNS) holds thousands of 
deployable face masks, N95 respirators, gloves, and surgical gowns that 
could be deployed if State and local supplies are diminished due to the 
current COVID-19 response and commercial supplies are exhausted. The 
SNS is working hand-in-hand with commercial supply chain partners and 
other Federal agencies to continue monitoring supply levels and to 
prepare for a potential deployment of SNS personal protective gear if 
it is needed.
                   the national institutes of health
    The National Institutes of Health (NIH) is the HHS agency leading 
the research response to the global health emergency of COVID-19. 
Within the NIH, the National Institute of Allergy and Infectious 
Diseases (NIAID) is responsible for conducting and supporting research 
on emerging and re-emerging infectious diseases, including COVID-19.
    NIAID is well-positioned to respond rapidly to infectious disease 
threats as they emerge by leveraging fundamental basic research 
efforts; a domestic and international research infrastructure that can 
be quickly mobilized; and collaborative and highly-productive 
partnerships with industry. NIAID provides preclinical research 
resources to scientists in academia and private industry throughout the 
world to advance translational research for emerging and re-emerging 
infectious diseases. These research resources are designed to bridge 
gaps in the product development pipeline, thereby lowering the 
scientific, technical, and financial risks incurred by industry and 
incentivizing companies to partner in the development of effective 
countermeasures including diagnostics, therapeutics, and vaccines.
    NIAID also supports the Infectious Diseases Clinical Research 
Consortium, which includes a network of Vaccine and Treatment 
Evaluation Units (VTEUs). The VTEUs conduct clinical trials to 
investigate promising therapeutic and vaccine candidates when public 
health needs arise. NIAID collaborates with other Federal agencies, 
including through the HHS Public Health Emergency Medical 
Countermeasures Enterprise (PHEMCE), to help advance progress against 
newly-emerging public health threats. In addition, partnerships with 
academia, the biotechnology and pharmaceutical industries, domestic and 
international researchers, and organizations such as the World Health 
Organization (WHO) are integral to these efforts. NIAID has a long-
standing commitment to coronavirus research, including extensive 
efforts to combat two other serious diseases caused by coronaviruses: 
SARS and MERS. This research has improved our fundamental understanding 
of coronaviruses and provides a strong foundation for our efforts to 
address the challenge of SARS-CoV-2, the novel coronavirus that causes 
COVID-19. NIAID has responded to the newly-emerging COVID-19 outbreak 
by expanding our portfolio of basic research on coronaviruses. NIAID 
scientists have rapidly identified the human receptor used by SARS-CoV-
2 to enter human cells. In addition, NIAID investigators and their 
collaborators recently identified the atomic structure of the spike 
protein, an important SARS-CoV-2 surface protein that is a key target 
for the development of vaccines and therapeutics. NIAID scientists also 
are evaluating the stability of SARS-CoV-2 on various ordinary surfaces 
and in aerosols to better understand the potential for viral spread 
throughout the community.
    NIAID-supported researchers are assessing the risk of emergence of 
bat coronaviruses in China, including the characterization of bat 
viruses and surveys of people who live in high-risk communities for 
evidence of bat coronavirus infection. Such research is necessary to 
better understand this emerging infection and to investigate optimal 
ways to diagnose, treat, and prevent COVID-19.
    The NIAID Centers of Excellence for Influenza Research and 
Surveillance (CEIRS), which conduct influenza risk assessments in 
multiple sites throughout the world particularly in Asia, have 
responded rapidly to the COVID-19 outbreak. CEIRS researchers at the 
University of Hong Kong are evaluating the epidemiology, transmission 
dynamics, and severity of COVID-19. These scientists also have 
performed environmental sampling of the Wuhan market where the first 
COVID-19 cases were reported.
    NIAID is working with CEIRS collaborators and the CDC to obtain 
additional virus and biological samples from patients to further 
advance research efforts on COVID-19. Recently, the NIAID-funded BEI 
Resources Repository made samples of SARS-CoV-2 available for 
distribution to domestic and international researchers at Biosafety 
Level 3 laboratories. In addition, CEIRS researchers and other NIAID-
supported scientists are developing reagents, assays, and animal models 
that can be used to evaluate promising therapeutics and vaccines. These 
research resources also will be shared with the domestic and 
international scientific community as soon as they become available.
    On February 6, 2020, NIAID issued a Notice of Special Interest 
regarding the Availability of Urgent Competitive Revisions for Research 
on the 2019 Novel Coronavirus. This notice encourages existing NIAID 
grantees to apply for supplements for research project grants focused 
on the natural history, pathogenicity, and transmission of the virus, 
as well as projects to develop medical countermeasures and suitable 
animal models for preclinical testing of COVID-19 vaccines and 
therapeutics.
    NIAID has responded to public health concerns about COVID-19 by 
increasing on-going coronavirus research efforts to accelerate the 
development of interventions that could help control current and future 
outbreaks of COVID-19. These activities build on prior NIAID research 
addressing other coronaviruses, such as those that cause SARS and MERS.
    The CDC has developed a real-time Reverse Transcription-Polymerase 
Chain Reaction (rRT-PCR) test that can detect COVID-19 using 
respiratory samples from clinical specimens. NIAID is accelerating 
efforts to develop additional diagnostic tests for COVID-19, and NIAID-
supported investigators are developing PCR-based assays for SARS-CoV-2 
to facilitate preclinical studies and aid in the development of medical 
countermeasures. NIAID scientists also are developing reagents for an 
enzyme-linked immunosorbent assay for SARS-CoV-2. CEIRS researchers at 
the University of Hong Kong have developed a separate RT-PCR test and 
made their protocol publicly available through the WHO. These NIAID-
supported investigators also have distributed assay reagents to 12 
countries to facilitate the diagnosis of COVID-19.
    NIAID is pursuing the development of antivirals and monoclonal 
antibodies for potential use against SARS-CoV-2. NIAID has launched a 
multicenter, randomized controlled clinical trial to evaluate the 
safety and efficacy of the antiviral drug remdesivir for the treatment 
of COVID-19 in hospitalized adults with laboratory-confirmed SARS-CoV-2 
illness. The adaptive design of this trial will enable the evaluation 
of additional promising therapies. NIAID plans to assess other existing 
antivirals for activity against SARS-CoV-2, and NIAID scientists are 
working to identify monoclonal antibodies with therapeutic potential 
from COVID-19 patient samples as well as historical SARS patient 
samples. NIAID-funded scientists also aim to delineate new viral 
targets to facilitate the development of novel therapeutics with broad 
activity against coronaviruses. Finally, NIAID is expanding its suite 
of preclinical services to add assays that investigators can use to 
accelerate research and development of therapeutics for COVID-19.
    A safe and effective vaccine for SARS-CoV-2 would be an extremely 
valuable tool to stop the spread of infection and prevent future 
outbreaks. Public and private entities across the globe have announced 
plans to develop SARS-CoV-2 vaccine candidates following the release of 
the SARS-CoV-2 genetic sequence. NIAID is supporting development of 
several SARS-CoV-2 vaccine candidates, and is utilizing vaccine 
platform technologies that have shown promise against the coronaviruses 
that cause SARS and MERS.
    The NIAID Vaccine Research Center (VRC) is collaborating with the 
biotechnology company Moderna, Inc., on the development of a vaccine 
candidate using a messenger RNA (mRNA) vaccine platform containing the 
gene that expresses the VRC-designed spike protein of SARS-CoV-2. NIAID 
anticipates the experimental vaccine will be ready for clinical testing 
in the NIAID VTEUs within the next 2 months and will conduct 
preclinical studies as well as a first-in-human study of this COVID-19 
vaccine candidate. The Coalition for Epidemic Preparedness Innovations 
(CEPI) will fund the manufacture of the first clinical production lot 
of this mRNA-based vaccine candidate using the Moderna rapid 
manufacturing facility.
    NIAID Rocky Mountain Laboratories (RML) scientists are 
collaborating with Oxford University investigators to develop a 
chimpanzee adenovirus-vectored vaccine candidate against SARS-CoV-2; in 
addition, they have partnered with CureVac on an mRNA vaccine 
candidate. RML investigators also have launched a collaboration with 
the University of Washington and have begun early stage testing of an 
RNA vaccine candidate against SARS-CoV-2. In addition, NIAID-supported 
scientists at Baylor College of Medicine and their collaborators are 
evaluating an experimental SARS-CoV recombinant protein vaccine to 
determine if it also provides protection against SARS-CoV-2. NIAID is 
exploring additional collaborations with extramural research and 
industry partners on other vaccine concepts. NIAID also is supporting 
the development of standardized assays and animal models that will be 
utilized to evaluate vaccine candidates.
    With all these efforts, NIAID is coordinating closely with 
colleagues at the CDC, BARDA, FDA, DOD, and other Federal and 
international partners.
    To achieve the ultimate goal of having a SARS-CoV-2 vaccine 
available to the public, it is important that NIAID and the entire 
biomedical research community pursue a range of vaccine strategies in 
order to be better positioned to overcome the scientific or technical 
challenges associated with any particular vaccine approach. In this 
regard, NIAID has dedicated resources toward preclinical research to 
advance a robust pipeline of vaccine candidates into Phase 1 clinical 
evaluation. Further vaccine research, including Phase 2 clinical 
trials, will then be required. Additional research also is needed to 
better understand the fundamental biology of coronaviruses and to 
facilitate the design of vaccines that elicit optimal immune responses 
and protect against infection.
    While on-going SARS-CoV-2 vaccine research efforts are promising, 
it is important to realize that the development of investigational 
vaccines and the clinical testing to establish their safety and 
efficacy take time. Although we plan to begin early stage clinical 
testing of an NIAID-supported vaccine candidate in the next few months, 
a safe and effective, fully licensed SARS-CoV-2 vaccine will likely not 
be available for some time. Currently, the COVID-19 outbreak response 
in the United States remains focused on the proven public health 
practices of containment--identifying cases, isolating patients, and 
tracing contacts.
    NIH is committed to continued collaboration with other HHS agencies 
and additional partners across the U.S. Government and international 
community to advance research to address COVID-19. As part of its 
mission to respond rapidly to emerging and re-emerging infectious 
diseases throughout the world, NIAID is expanding our efforts to 
elucidate the biology of SARS-CoV-2 and employ this knowledge to 
develop the tools needed to diagnose, treat, and prevent disease caused 
by this virus. NIAID is particularly focused on developing safe and 
effective COVID-19 vaccines. These efforts also help to expand our 
knowledge base and improve our continued preparedness for the next 
inevitable emerging disease outbreak.
                      food and drug administration
    The FDA plays a critical role in overseeing our Nation's FDA-
regulated products as part of our vital mission to protect and promote 
public health, including during public health emergencies. Our work 
primarily focuses on four key areas: First, actively facilitating 
efforts to diagnose, treat, and prevent the disease; second, 
surveilling product supply chains for potential shortages or 
disruptions and helping to mitigate such impacts, as necessary; third, 
conducting inspections and monitoring compliance, including of 
facilities that manufacture FDA-regulated products overseas; fourth, 
helping to ensure the safety of consumer products.
    A key focus area for the FDA is helping to expedite the development 
and availability of medical products needed to diagnose, treat, and 
prevent this disease. We're committed to helping foster the development 
of critical medical countermeasures as quickly as possible to protect 
public health. We provide regulatory advice, guidance, and technical 
assistance to sponsors in order to advance the development and 
availability of vaccines, therapies, and diagnostic tests for this 
novel virus.
    On February 4, 2020, the FDA issued an emergency use authorization 
(EUA) to enable immediate use of a diagnostic test developed by the 
CDC, facilitating the ability for this test to be used in CDC-qualified 
laboratories.\1\ The FDA is dedicated to actively working with other 
COVID-19 diagnostic developers to help accelerate development programs 
and requests for EUAs. We have developed an EUA review template for 
tests to detect the virus, which outlines the data requirements for a 
Pre-EUA package that is available to developers upon request. To date, 
we have shared the EUA review template with more than 100 developers 
who have expressed interest in developing diagnostics for this virus.
---------------------------------------------------------------------------
    \1\ FDA. 2019 Novel Coronavirus Emergency Use Authorization. 
February 4, 2020. https://www.fda.gov/medical-devices/emergency-
situations-medical-devices/emergency-use-
authorizations#coronavirus2019. FDA. FDA Takes Significant Step in 
Coronavirus Response Efforts, Issues Emergency Use Authorization for 
the First 2019 Novel Coronavirus Diagnostic: Critical Milestone Reached 
in Response to this Outbreak. https://www.fda.gov/news-events/press-
announcements/fda-takes-significant-step-coronavirus-response-efforts-
issues-emergency-use-authorization-first.
---------------------------------------------------------------------------
    The medical product supply chain is always potentially vulnerable 
to disruption, which makes our surveillance work and collaboration with 
industry critical and why the agency takes a proactive stance on any 
potential impact or disruption to the supply chain. An outbreak of this 
global scale has an impact on the medical product supply chains, 
including potential disruptions to supply or shortages of critical 
medical products in the United States. We are in contact with 
manufacturers; global regulators, like the European Medicines Agency; 
health care delivery organizations; and other participants in the 
medical product supply chains to quickly identify and address any 
supply concerns that come from issues related to China and other 
locations in Southeast Asia sourcing raw materials for manufacturing 
drugs.
    We are also tracking reports of increased ordering of some 
essential medical devices through distributors, such as personal 
protective equipment (PPE) (e.g., respirators and surgical gowns, 
gloves and masks). FDA is working proactively to stay ahead of 
potential shortages or disruptions of medical products. The agency will 
use all available authorities to react swiftly and mitigate the impact 
to U.S. patients and health care professionals as these threats arise.
    Monitoring the safety of FDA-regulated product supply chains is one 
of the FDA's highest priorities. The FDA utilizes risk-based models to 
identify firms for inspection and prioritizes inspections based on 
specific criteria. Because of travel restrictions to China, the agency 
has postponed planned inspection activities in China. However, we are 
currently continuing inspection and enforcement activities as normal 
for the rest of our operations. Inspections of facilities in China 
remain prioritized in our site selection model and, when travel 
restrictions are lifted, inspections of facilities in China will 
resume. Any travel to China that is deemed to be mission-critical is 
being assessed on a case-by-case basis in close coordination with other 
HHS components and with the Department of State. FDA is committed to 
maintaining its scheduled inspections around the globe to the extent 
possible, while maintaining the safety of the staff involved. We will 
revisit this approach and adjust as necessary as this outbreak 
continues to unfold. In the mean time, FDA is working with our partner 
government agency, U.S. Customs and Border Protection (CBP), to 
evaluate and adjust our risk-based targeting strategy to ensure FDA-
regulated products are safe when entering the United States.
    While the outbreak is impacting our ability to conduct inspections 
in China, it's important to underscore that the FDA's regular risk-
based process of surveillance testing of imported products, including 
those from China, continues.
    Inspections are one of many tools that the agency uses to inform 
its risk strategy for imported FDA-regulated products and to help 
prevent products that do not meet the FDA's standards from entering the 
U.S. market. Other tools include: Import alerts, increased import 
sampling, and screening. Inspections are also part of, among other 
things, the new and generic drug approval process. While such pre-
approval inspections are on hold in China, we are working to mitigate 
the impact on new and generic drug approval decisions by requesting 
records that may be used in lieu of an inspection, depending on the 
circumstances. Based on our evaluation of previous FDA inspection 
history, a firm's previous compliance history and information from 
foreign health authorities with which we have mutual recognition 
agreements, we determine if the totality of the information would 
suffice in lieu of such a pre-approval inspection.
    All products offered for entry into the United States, including 
items for personal use, are subject to the regulatory requirements of 
CBP. Imported shipments of FDA-regulated products referred by CBP, 
including those from China, are then reviewed by the FDA and must 
comply with the same standards as domestic products. At this time, we 
want to reassure the public that there is no evidence to support 
transmission of COVID-19 associated with imported goods, including food 
and drugs for people or pets, and there have not been any cases of 
COVID-19 in the United States associated with imported goods.
    We established a cross-agency task force to closely monitor for 
fraudulent FDA-regulated products and false product claims related to 
COVID-19 and we have already reached out to major retailers to ask for 
their help in monitoring their on-line marketplaces for fraudulent 
products with coronavirus and other pathogen claims.
    FDA is utilizing all our existing authorities to address COVID-19 
and we welcome the opportunity to work with Congress to strengthen our 
response capabilities. There are 4 specific proposals included in the 
President's budget that would better equip the agency to prevent or 
mitigate medical product shortages.
(1) Lengthen Expiration Dates to Mitigate Critical Drug Shortages
    Shortages of critical drugs can be exacerbated when drugs must be 
discarded because they exceed a labeled shelf-life due to unnecessarily 
short expiration dates. By expanding FDA's authority to require, when 
likely to help prevent or mitigate a shortage, that an applicant 
evaluate, submit studies to FDA, and label a product with the longest 
possible expiration date that FDA agrees is scientifically justified, 
there could be more supply available to alleviate the drug shortage or 
the severity of a shortage.
(2) Improving Critical Infrastructure by Requiring Risk Management 
        Plans
    Enabling FDA to require application holders of certain drugs to 
conduct periodic risk assessments to identify the vulnerabilities in 
their manufacturing supply chain (inclusive of contract manufacturing 
facilities) and develop plans to mitigate the risks associated with the 
identified vulnerabilities would enable the agency to strengthen the 
supply chain by integrating contingencies for emergency situations. 
Currently, many applicants lack plans to assess and address 
vulnerabilities in their manufacturing supply chain, putting them, and 
American patients, at risk for drug supply disruptions following 
disasters (e.g., hurricanes) or in other circumstances.
(3) Improving Critical Infrastructure Through Improved Data Sharing: 
        Requiring More Accurate Supply Chain Information
    Empowering FDA to require information to assess critical 
infrastructure, as well as manufacturing quality and capacity, would 
facilitate more accurate and timely supply chain monitoring and improve 
our ability to recognize shortage signals.
(4) Device Shortages
    FDA does not have the same authorities for medical device shortages 
as it does for drugs and biological products. For instance, medical 
device manufacturers are not required to notify FDA when they become 
aware of a circumstance that could lead to a device shortage or 
meaningful disruption in the supply of that device in the United 
States, nor are they required to respond to inquiries from FDA about 
the availability of devices. Enabling FDA to have timely and accurate 
information about likely or confirmed national shortages of essential 
devices would allow the agency to take steps to promote the continued 
availability of devices of public health importance. Among other 
things, FDA proposes to require that firms notify the agency of an 
anticipated meaningful interruption in the supply of an essential 
device; require all manufacturers of devices determined to be essential 
to periodically provide FDA with information about the manufacturing 
capacity of the essential device(s) they manufacture; and authorize the 
temporary importation of certain devices where the benefits of the 
device in mitigating a shortage outweigh the risks presented by the 
device that could otherwise result in denial of importation of the 
device into the United States.

    Ms. Underwood. I thank all the witnesses for their 
testimony. I will remind each Member that he or she will have 5 
minutes to question the panel. I now recognize myself for 5 
minutes.
    Americans want to know what they should expect in the 
coming weeks and months. Our State and local public health work 
force and our health care system leaders need to know so they 
can do everything that they can to be prepared. Dr. Redd, I am 
looking for numbers here. What are the current upper and lower 
estimates of total deaths due to the coronavirus that we should 
expect in the United States?
    Dr. Redd. So I don't have an exact answer to that question. 
I think it is an important question. I think that there is a 
lot that depends on how aggressive our public health 
interventions are to really determine the ultimate course of 
this epidemic.
    Ms. Underwood. OK.
    Dr. Redd. There are many unknowns.
    Ms. Underwood. Yes, sir. What are the upper and lower 
estimates for hospital and ICU admissions?
    Dr. Redd. I would give the same answer I gave to the 
previous question. The intensity of our public health 
intervention measures will determine the ultimate impact of 
this pandemic.
    Ms. Underwood. OK. Then at current rate to detection 
spread, when will California and Washington State run out of 
ICU beds and then also hospital beds?
    Dr. Redd. Again, the better and more intensive our 
interventions are, the lower those numbers will ultimately be.
    Ms. Underwood. Do you expect CDC to do modeling that will 
be widely reported through like an MMWR or something like that?
    Dr. Redd. A number of groups are doing that modeling. I am 
not sure what our plans are. We are in communication with 
modelers from the United Kingdom around the country on those 
sort of things.
    A lot of that has to do with estimating the value of 
interventions that might be undertaken and where they would 
have the greatest impact. So I am not--I don't know whether or 
not those things from inside will be published, but there is a 
lot of information out there already.
    Ms. Underwood. OK. For our health system to prepare to 
handle a surge in patients while protecting its work force, 
providers need to be able to test every patient who meets the 
criteria based on symptoms and exposure. But we know that right 
now as the Governor of Illinois just said this morning, not 
everyone who should be tested has been.
    Dr. Redd, since December how many Americans who meet the 
current criteria for being tested have actually been tested and 
received their results?
    Dr. Redd. I can give you the number of people who have been 
tested. Let me, let me find that in my cards here.
    Ms. Underwood. OK.
    Dr. Redd. The guidance has changed as you know recently----
    Ms. Underwood. I know.
    Dr. Redd [continuing]. To allow----
    Ms. Underwood. That is why we are asking about the current 
criteria, sir.
    Dr. Redd. Right. I think we are around a little bit more 
than 1,700 people have been tested by CDC. There is a lot of 
testing happening in State health department----
    Ms. Underwood. I understand that.
    Dr. Redd [continuing]. Labs now. Let me--if I might--take 
the opportunity to talk about--and tell me if you want----
    Ms. Underwood. Well, Dr. Redd, what we are really trying to 
understand is the number of tests that have been completed, how 
many tests need to be done to accurately depict community 
levels that spread in the United States. Do you have that 
figure?
    Dr. Redd. I--what I would like to do is walk through how 
the laboratory testing works in the United States.
    Ms. Underwood. OK. Dr. Redd, we have heard that briefing 
several times here in the Congress. We have some very specific 
questions, sir. What is your plan to support States and 
communities to get those tests done? When will that be done?
    Dr. Redd. So we have taken aggressive action over the last 
several weeks--CDC has sent materials sufficient to test 75,000 
people through the public health system.
    Ms. Underwood. Right.
    Dr. Redd. There are over a million tests available through 
the commercial system.
    Ms. Underwood. Yes, sir.
    Dr. Redd. Both of those numbers are increasing as we speak.
    Ms. Underwood. Right. But my question, sir, was what is 
your plan to support the States to get those tests done for 
every single person who should be tested that meets the current 
criteria? There is a big gap between 1,700 and 75,000 and a 
million. Those are the 3 numbers you just outlined for us now.
    Dr. Redd. That is true. The--I think that there are 2 
different systems in play here. In the public health system--
and this is not just for this disease but in general, the role 
of the public health laboratories are to detect cases early of 
new diseases and then to be able to do--representative testing 
to estimate the overall burden of disease.
    Ms. Underwood. Right.
    Dr. Redd. There is a separate system, the clinical system, 
which is really for clinical care----
    Ms. Underwood. Yes, sir.
    Dr. Redd [continuing]. To make sure that a person gets 
treated for the right disease that we don't assume that he has 
COVID-19 when there is different treatable disease. That is the 
much larger capacity that has actually being implemented 
rapidly compared with previous efforts with new diseases.
    Ms. Underwood. OK. I am going to stop you right there, sir. 
Is every test result from both the public and the private labs 
being fed into the Flu Surveillance System? Yes or no?
    Dr. Redd. Right now the--we are working to include the 
commercial laboratories in that system. The large commercial 
systems are being included. The public health laboratories are 
being included. There are others that are going to be kind of 
outliers that we will work to include, but that would be the 
ultimate aim.
    Ms. Underwood. OK. While there is still a lot that we don't 
know about the pathology of the coronavirus, we are seeing that 
seniors are among those experiencing higher mortality rates.
    So in addition to the coronavirus.gov that we both spoke 
about, CDC has a coronavirus information hotline as I am sure 
you are aware for those who don't have internet access or who 
may not be as internet savvy, like some seniors.
    When the committee staff called the hotline, they 
consistently faced wait times of 30 to 60 minutes. How is CDC 
working to improve its hotline?
    Dr. Redd. Let me get back to you on that. I think that is a 
very important thing that needs to be corrected----
    Ms. Underwood. OK.
    Dr. Redd [continuing]. And something to take action on 
that.
    Ms. Underwood. Just more broadly, sir, our job is to steer 
the Federal Government toward the best possible outcome for 
public health. Modeling estimates help us evaluate outcomes. 
Surveillance informs modeling. Tests inform surveillance. We 
need to get all 3 right, sir. We will be making some really 
important decisions without a comprehensive view of what we are 
facing.
    So Dr. Redd, we are going to be sending over some follow-up 
questions for you in writing. We would appreciate your help in 
ensuring a prompt response. Thank you.
    I now recognize the Ranking Member of the full committee, 
the gentleman from Alabama, Mr. Rogers, for questions.
    Mr. Rogers. I thank you. Mr. Cuccinelli, this morning the 
CDC director said Europe is the new China in terms of outbreak. 
Is CBP doing more screenings of international travel from 
European countries to the United States?
    Mr. Cuccinelli. So as each country or in this case region 
becomes more and more problematic, it obviously gets reviewed 
on a day-to-day basis. I would tell you that it isn't just CBP. 
TSA is involved. CDC is involved. This is one of the things 
that the task force has considered literally on a daily basis 
as we have watched this pandemic move around the globe.
    As you know, I am sure there is exit screening going on in 
Italy in particular, but Europe presents a unique problem. 
Because of the Schengen zone where their borders effectively 
don't--they don't have borders for purposes of travel, there 
are 29 countries that we have to confront here.
    The question arises, does treating--we will take Italy. We 
will continue with Italy. Italy in the fashion we would China 
or even South Korea as a unitary entity even makes sense.
    So what the task force came to with respect to Italy, is we 
are testing--in fact, the Italian government is doing it on the 
exiting side for direct flights to the United States. That is 
about half of those flights--very close to half. They have 
dropped from above 7,000 to just above 1,000 a day.
    So the--there has been a substantial drop in that travel. 
The reason that we chose not to expend the resources to capture 
the indirect flights is by way of scale--don't hold me to these 
exact numbers--to capture the last 2-, 3-, 4,000 travelers from 
Italy depending on the day--and that was at full flight 
capacity--would require screening approximately 100,000 people.
    Those are resources that just--relative to the cost 
benefit--were more appropriate to apply to public health 
efforts other than that screening. So in Korea and Italy, we 
have allies who we trust and who are transparent doing exit 
screening.
    We are of course doing entrance screening for those from 
Iran and China or who have been through there. But the question 
is a live question, Congressman, about how to treat Europe as a 
whole. You have seen Department of State and CDC----
    Mr. Rogers. Right.
    Mr. Cuccinelli [continuing]. Warnings go up. That is not to 
the level of using legal authorities to block travel yet, but 
it is under consideration.
    Mr. Rogers. Well, and it should be. That is the reason I 
brought it up. Right now, we are just dealing with a handful of 
those countries as you know.
    Mr. Cuccinelli. Right.
    Mr. Rogers. Given the freedom of travel throughout the 
European Union, my view is we should be treating it as a region 
as a unit and, and expecting them accordingly. Let me ask--you 
know, we just passed in a bipartisan fashion an $8.3 billion 
supplemental to help with this. I know a lot of that is going 
toward vaccine development.
    Mr. Cuccinelli. Right.
    Mr. Rogers. But it went from $2.5 billion to $8.3 billion 
real fast. Tell me how that money is broken out. What are you 
going to do with it?
    Mr. Cuccinelli. Well, as you probably know, the money that 
DHS receives comes through HHS. So I will give you an example: 
FEMA has been with ASPR since--for about a month now at their 
request as the lead Federal agency in HHS and are--FEMA is 
reimbursed for those services effectively through interagency 
agreements.
    So the dollars you are describing from the supplemental 
that reached DHS come through HHS in exchange for services in 
accordance with the law.
    Mr. Rogers. Is it just FEMA or won't CBP to get some of 
that money?
    Mr. Cuccinelli. Right now, it is just FEMA. CBP, CWMD, the 
Coast Guard, TSA are all operating out of their base budgets 
for all the work they are doing----
    Mr. Rogers. Do you expect----
    Mr. Cuccinelli. As is the, you know, S&T as well.
    Mr. Rogers. Do you expect that to be sufficient given the--
--
    Mr. Cuccinelli. For the moment, we do. Yes. Some things 
would have to change for that to not be sufficient but so far 
none of those conditions have arisen.
    Mr. Rogers. Doctor Redd, the Chinese government failed to 
give us notice for 2 months from the time of the outbreak until 
they did make the international community aware. What damage 
did that do to our ability to deal with this in a better 
fashion if any that you are aware of?
    Dr. Redd. You know, I think there are some things that they 
did well and others that they didn't. Reporting the outbreak 
quickly, posting the sequence of the new virus--there did 
appear to be a period of time when probably things were going 
on that weren't getting out of China.
    I think there were questions about whether there was human-
to-human transmission that initially it appeared it might be 
just people exposed to animals. So I think that, that was a 
period of time when we were--there is not really anything we 
would have done differently. We were working on a diagnostic 
test. We were sending materials that started the ball rolling 
on vaccine production.
    We--you know, as you know within weeks of identifying the 
outbreak, it really--the restriction of travel from China 
reduced travel by 90 percent. I think that was a very helpful 
move to prevent more cases from China coming into the United 
States.
    Mr. Rogers. Thank you. Madam Vice Chair, I yield back.
    Ms. Underwood. The Chair will now recognize Members for 
questions that they may wish to ask the questions. In 
accordance with our committee rules, I will recognize Members 
who are present at the start of the hearing based on seniority 
in the committee alternating between Majority and Minority.
    Those Members coming in later will be recognized in the 
order of their arrival. The Chair recognizes for 5 minutes the 
gentleman from Mississippi, Mr. Thompson.
    Chairman Thompson. Thank you very much, Madam Chair. In my 
earlier comments, I talked about the importance of transparency 
and communication. The public only gets what we tell them. If 
we don't tell them accurately, then it is misinformation.
    The best example I can share in my opening statement the 
very first briefing we got we were told that there is a 800 
number. The briefers--as Members of Congress--the briefers 
didn't know the 800 number. They had to get the number and 
bring it to us.
    Now, I hear that the number is working, but if as a member 
of the public who would call and be put on hold for 30 to 60 
minutes. It just absolutely too big a problem. So I hope that 
you--you look at it.
    Two of the people we heard from last week--one was a former 
head of CDC and the other was a respected researcher from John 
Hopkins--they made it very clear to us that communication is--
and transparency in this kind of situation is absolutely 
important.
    So Dr. Redd, can you tell me if the coronavirus task force 
is carrying out its meeting at a Classified level or are they 
open?
    Dr. Redd. I know that the meetings are being held in a 
Classified facility. I don't think that they are Classified.
    Chairman Thompson. Well, I want you to check because I 
think there are some challenges in that arena because they are 
in fact Classified. Part of the problem a lot of us are having 
is an over classification of information to the point that the 
public doesn't know. So look at that.
    Dr. Redd. Actually, I would like to agree with your major 
point, which is I agree that communication and information is a 
critical took in combating the outbreak.
    People need to know what is happening. They need to know 
what kind of actions they can take to protect themselves. It is 
really one of the most important tools that we have at this 
point.
    Chairman Thompson. So in line with the Chairperson's 
question, how many test kits do we have as of today?
    Dr. Redd. So on the public health side, 75,000. On the 
commercial side, over a million--somewhere between 1- and 2 
million right now. The numbers are increasing rapidly.
    Chairman Thompson. So how would the test kits be dispersed?
    Dr. Redd. So on the public side they go to State health 
department laboratories and other laboratories that are a part 
of our network for influenza surveillance. Actually, on the 
commercial side it is however that system normally works. So it 
depends on the company. Some of them have----
    Chairman Thompson. Well----
    Dr. Redd [continuing]. Facilities.
    Chairman Thompson. Well, you know, we trying to help the 
public--you are tell them we have a million test kits, but if 
somebody from CDC in your position can't explain to me how the 
public can access those kits that is not very helpful.
    Dr. Redd. I agree with that. I think that what people need 
to do if they feel that they are in need of a test is--the 
first thing would be to call their doctor. The doctor would 
then--depending on how they have access to the test--it could 
either be through the commercial system or it could be through 
the public health system----
    Chairman Thompson. So----
    Dr. Redd [continuing]. That person----
    Chairman Thompson. Are those 75,000 test kits that you 
talked about that are publicly available, does that address all 
of the current needs here in the United States?
    Dr. Redd. It doesn't. It doesn't. That is why the 
commercial manufacturers are such an important part of this----
    Chairman Thompson. Absolutely. But are they talking to each 
other?
    Dr. Redd. So I--I have----
    Chairman Thompson. Well----
    Dr. Redd. I mean----
    Chairman Thompson. Get back to us.
    Dr. Redd [continuing]. Basically yes. You know, I think the 
answer is----
    Chairman Thompson. Well, I mean----
    Dr. Redd [continuing]. Yes.
    Chairman Thompson. You know, we are trying to give the 
public some comfort that if you say we have a million kits then 
there is a process that is defined for those million kits to be 
accessed.
    We don't have that based on what you are telling me. I 
think one of the reasons we are here today is to put some 
clarity on how we address this situation.
    Dr. Redd. Yes, sir. I think that people--I think that the 
patient experience here is really critical. And that when they 
need a test, they can get one quickly and get the results 
quickly. That is the aim that we are----
    Chairman Thompson. OK.
    Dr. Redd [continuing]. Hoping to achieve.
    Chairman Thompson. Thank you. If the Chairwoman will 
indulge me just for--Mr. Cuccinelli, on March 1, 2020 a 
District Court Judge ruled that you were not lawfully appointed 
to serve as the acting director of USCIS and that accordingly 
the reduced time to consult and prohibitions on extensions 
directed must be set aside.
    Are you still serving the senior--as a senior official 
performing the duties of director of USCIS in opposition to 
what the court ruled?
    Mr. Cuccinelli. No, sir. The court ruled that in my 
position as principle deputy at USCIS I was not properly 
occupying the position of acting director of USCIS. That is 
obviously something we are still analyzing and obeying the 
court order with respect to the 5 plaintiffs.
    My current position as senior official performing the 
duties of the deputy secretary derives not from my previous 
capacity as acting director of USCIS, but from my official 
position as principle deputy of USCIS.
    So my--as I perform the rules I am here doing today as a 
senior official performing the duties of deputy secretary that 
is not affected by the court's ruling. The court did not rule 
that I am inappropriately occupying my current position. It was 
the prior position.
    Chairman Thompson. So that is your interpretation of the 
court's order?
    Mr. Cuccinelli. No, sir. That is the ruling.
    Chairman Thompson. Well, I would--have you had the 
counsel----
    Mr. Cuccinelli. Yes.
    Chairman Thompson [continuing]. From DHS look at that?
    Mr. Cuccinelli. Yes, sir.
    Chairman Thompson. Did they provide you something in 
writing?
    Mr. Cuccinelli. No, sir.
    Chairman Thompson. So how did--what, they just told you?
    Mr. Cuccinelli. Well, it is pretty simple and 
straightforward Mr. Chairman. So it wasn't hard for them to 
explain it to me.
    Chairman Thompson. Well, I would--as Chair, we would like 
to get it in writing because I think the court was fairly clear 
that your present position was not consistent with the law. Any 
way of trying to massage it just gets around it, but I--we will 
look forward to getting that correction. I yield back.
    Ms. Underwood. The Chair now recognizes the gentleman from 
New York, Mr. Katko, for 5 minutes.
    Mr. Katko. Thank you, Madam Chair. Mr. Cuccinelli, is there 
anything else you want to add to the last line of inquiry 
before we proceed----
    Mr. Cuccinelli. Just----
    Mr. Katko [continuing]. To other questions?
    Mr. Cuccinelli. I would just point out the time line. It 
might help understand the ruling. The case was filed last 
summer when I was serving as the acting director of United 
States Citizenship and Immigration Services as assuming that 
vacant slot from my position as principle deputy.
    The hierarchy if you will of the deputy secretary position 
as it currently stands traces back to the principle deputy for 
the United States Citizenship and Immigration Services. It does 
not trace back to either the director or acting director 
phrased in any way.
    That is why I gave the answer to the Chairman that I did. 
It was why I got the legal advice from counsel at DHS that I 
did.
    Mr. Katko. Thank you, sir. Doctor Redd, I want to drill 
down a little farther on the previous line of our inquiry as 
well. I am trying to get a handle.
    So you have 75,000 tests in a Government--I mean in the 
Government sector. You have a million tests in the private 
domain. What happens--what is going to happen to those million 
tests? Where do they go?
    Dr. Redd. So those--the purpose of those tests would be 
clinician, a doctor nurse practitioner, physician's assistant 
could order a test and that would go just the way any test you 
would get in a doctor's office would go.
    It would be sent to a commercial laboratory either at the 
hospital or one of the large companies. You would get a test 
result. It would come back to your doctor. We are working on 
making sure that, that information also is funneled into the 
Government so we will be able to track those tests.
    But it is essentially a way of providing a test that can be 
used for clinical services where public health testing 
generally is to detect the first cases and then to really to do 
surveillance. You don't have to test every case to do 
surveillance, but for clinical care you do need a test for each 
person.
    Mr. Katko. I just want to make sure I understand this. Is 
it fair to say that you have the million tests that are already 
available, plus you have 75,000 more tests? All of them are 
getting in front line one way or another for testing of 
patients?
    Dr. Redd. Yes, sir.
    Mr. Katko. OK. How much more--are going to be expected the 
next few weeks that are going to be produced?
    Dr. Redd. So the time line I am not so sure on, but it is 
going to be additional millions of tests in the commercial 
sector.
    Mr. Katko. OK. Good. That is good to hear. Now, when we get 
these tests out there, it is fair to say that these numbers are 
going to go up, the number of positive tests are going to go up 
and go up significantly; is that correct?
    Dr. Redd. I think that is fair to say that we are going to 
identify additional cases with more testing.
    Mr. Katko. OK. As these numbers go up, you are going to 
have to act according on what has been considered by the World 
Health Organization now a pandemic.
    I think we need to have the American people prepared for 
the fact that we are going to have a very serious rise in the 
number of cases. Has there been any estimates as to what they 
think it is going to be, the numbers next month or so?
    Dr. Redd. So I think the total numbers really depend on the 
aggressiveness and intensity and effectiveness of our public 
health measures. One of the things that is happening and just 
in our strategy to respond, early on we wanted to identify 
every case, identify the contacts of that case, recommend self-
monitoring to prevent further spread.
    At this point, the individual measures in some parts of the 
country where there is intense community transmission, those 
measures are not appropriate. That there are more important 
things to do.
    That is really when we shift to a community measures such 
as making sure nursing homes are especially protected, 
canceling large gatherings, recommending as we have that people 
that are at risks, seniors and people with chronic medical 
conditions, take different steps to protect themselves from 
becoming exposed.
    So it is a shift from a kind-of an individual level case 
tracking to something that is broader and applies to entire 
communities.
    Mr. Katko. As a matter of precaution, should we be doing 
any of those things now and not waiting until they get all 
these positive tests? What should we be doing now?
    Dr. Redd. We should. In fact, we are in King County, 
Washington; in Santa Clara County; in New York City. There 
are--in fact today--I think maybe just as the hearing started, 
there was guidance posted based on--a guidance document they 
released a few days ago but tailored specifically for King 
County and Santa Clara working with the health departments on, 
you know, what does it mean to actually apply this guidance to 
your community at--in the situation that you are in right now.
    I think that the--in general these measures are more 
effective the earlier they are implemented. We have seen that 
in other parts of the country--or world in Singapore, Hong Kong 
where they are taking very aggressive measures, and in those 
cases had a really good success in preventing the kind of 
transmission that we would like to prevent.
    Mr. Katko. Last, the line--the lab testing. Could you just 
briefly explain to us just so we are clear, how does the lab 
testing actually work?
    Dr. Redd. So a specimen is obtained from a person. We are 
actually--the way that it has been--now is a nasal specimen. So 
there is a device that is stuck in the person's nose to collect 
a specimen, a throat swab that is put in transport medium, is 
transported to a laboratory.
    There is a process of denaturing that specimen that might 
contain a virus. That denatured specimen is then put into a 
machine that assays for specific parts of the nucleic acid, the 
genetic material of the virus.
    There are also a set of positive controls so to make sure 
the test would find if it is there, and negative controls to 
make sure if it is not there it wouldn't be detected. That then 
yields a yes or a no result.
    It also can tell you the concentration--something that is 
called cycle threshold. That is basically the number of times 
the machine has to go through this cycle. So a high number 
means there is not that much virus there. A low number means 
there is a lot.
    Mr. Katko. All right. Thank you very much. I yield back, 
Madam Chair.
    Ms. Underwood. The Chair now recognizes the gentlelady from 
New York, Miss Rice, for 5 minutes.
    Miss Rice. Thank you, Madam Chairwoman. Mr. Cuccinelli, 
during the past public health crisis like Ebola and H1N1, the 
Department of Homeland Security played a pivotal role in a 
clear and coordinated Federal Government response.
    With the coronavirus, our State and local governments have 
stepped up to fill this role. States like New York have had to 
respond quickly to deploy emergency management and to work with 
local partners to keep our citizens safe. They instead of your 
agency are at the front lines of this outbreak.
    So for some reason it appears--and maybe you can enlighten 
me if I am wrong that DHS has not been on the front lines like 
they have in prior epidemics? So could you clearly state what 
DHS's role has been in responding to the coronavirus and what 
you see as your role going forward?
    Mr. Cuccinelli. Certainly. As we move further and further 
away from containment which is where the Department of Homeland 
Security has a significant role and into mitigation which we 
have been doing for weeks now, as Doctor Redd has referenced 
implicitly a number of times, the front lines folks in just 
pure volume of numbers are your local and State public health 
authorities.
    This is--we are following the pandemic plan put in place 2 
years ago which was the most recent iteration of that plan. It 
in fact calls for extensive cooperation with the Federal 
Government supporting local and State efforts.
    The sheer number of medical and health care professional 
personnel required to address a pandemic like this puts us in 
the position of necessarily relying on State and local 
officials to be front-line fighters in this effort.
    I will give you an example. When we saw the Grand Princess 
problem developing off the coast of California, we had a 
unified command set up between the Coast Guard, CDC, 
California.
    But in practical terms, because those people were going to 
land in California, were most likely to be impacting California 
health care facilities and capacity, California very much had 
the lead and did a great job with it. We are being very careful 
not to step on States or to tell them what to do. We are 
partnering with them as best we can, so----
    Miss Rice. OK. Thank you. I am just going to stop you 
there.
    Mr. Cuccinelli. Sure.
    Miss Rice. It is now being reported that my home State of 
New York, we have almost 200 cases of the coronavirus which 
makes it one of 3 States with the highest number----
    Mr. Cuccinelli. Yes.
    Miss Rice [continuing]. Of cases. Before this hearing, I 
spoke with the head of the Department of Health in Nassau 
County, which is on Long Island which my district is--fully 
encompassed in.
    I asked him--you know, I said that I was going to be at a 
hearing with you. I said is there anything that you need that 
you don't have that the Federal Government can provide?
    He said what we really need--because now they are seeing 
more significant cases of community spread; for instance, in my 
district alone, the number of infected people has quadrupled 
since Sunday.
    Mr. Cuccinelli. Right.
    Miss Rice. So I asked him what can the Federal Government 
do? He said, you know, what we would love is some guidance as 
to what public events should be canceled, what public events 
should not be canceled.
    Dr. Fauci testified today that large sporting events should 
be banned. So what is your guidance? They are looking to the 
Federal Government for some guidance on that issue so there can 
be a--so we don't increase the panic. And----
    Mr. Cuccinelli. Right.
    Miss Rice [continuing]. That States are not doing different 
things and getting people all riled up when they don't need to 
be.
    Mr. Cuccinelli. Well, we--in the Department of Homeland 
Security, we essentially operationalize CDC guidance. We look 
to the CDC's guidance as well, and because of the novelty of 
this virus it has been changing. I know--I will turn it over to 
Dr. Redd, but----
    Miss Rice. Well, let me just stop right there. OK. So I 
will follow up----
    Mr. Cuccinelli. OK.
    Miss Rice [continuing]. With my question. I just wanted to 
ask you--Dr. Fauci also said ``We would recommend that there 
not be large crowds.'' Would you consider a political rally in 
an arena that is filled to capacity with between 8- and 12,000 
people--would you consider that a large crowd?
    Mr. Cuccinelli. We would consider probably anything over 
1,000 people a large crowd.
    Miss Rice. OK. Doctor, if you could--the questions that Mr. 
Cuccinelli----
    Dr. Redd. Yes, I think that the purpose of the gathering 
wouldn't determine whether it would be, you know----
    Mr. Cuccinelli. Right.
    Miss Rice. Well, let me--do you agree with Dr. Fauci on 
that, that there should not be--that he said we would recommend 
that there not be large crowds? Would you recommend with him?
    Dr. Redd. I would.
    Miss Rice. Would you, Mr. Cuccinelli?
    Mr. Cuccinelli. Again, we look to the medical professionals 
for that----
    Miss Rice. I am asking your opinion.
    Mr. Cuccinelli. Guidance.
    Miss Rice. You are in this for DHS.
    Mr. Cuccinelli. I am sorry. I am not going to give you my 
opinion. I will tell you the opinions I look to operationalize 
when we do our jobs.
    Miss Rice. But do you agree with what----
    Mr. Cuccinelli. Dr. Redd.
    Miss Rice [continuing]. Dr. Redd is saying?
    Mr. Cuccinelli. Well, I certainly----
    Miss Rice. Yes or no.
    Mr. Cuccinelli [continuing]. Look to his employer for CDC 
for where we----
    Miss Rice. Why can't you answer this question?
    Mr. Cuccinelli. Well, I am sorry. I don't know that it is a 
can't----
    Miss Rice. Is it because the President has said that he has 
no plans to not have people--thousands of people gathered 
together in large crowds? Is that why? Because Dr. Redd----
    Mr. Cuccinelli. So when we had this----
    Miss Rice [continuing]. Said it in 2 seconds----
    Mr. Cuccinelli [continuing]. Decision to make----
    Miss Rice [continuing]. That he agreed with Dr. Fauci. Can 
you please give me a yes or no answer? Do you agree with Dr. 
Fauci when he said we would recommend that there not be large 
crowds?
    Mr. Cuccinelli. I am not prepared to do that.
    Miss Rice. OK. That is quite unbelievable. I think my time 
is up. Thank you, Madam Chairwoman.
    Ms. Underwood. The Chair now recognizes for 5 minutes the 
gentleman from North Carolina, Mr. Walker.
    Mr. Walker. Yes. Do you need another minute to kind-of go 
into detail or are you satisfied with that answer?
    Mr. Cuccinelli. Congressman, when we had this decision that 
we had to make last week, it wasn't 1,000 people; it was about 
200 at our Seattle office. We took into account what the local 
authorities were doing. That was part of our decision-making 
process.
    We will adjust our decision making based on what is going 
in the particular community at issue. Would I have less 
reluctance in agreeing with Dr. Fauci if we were talking about 
Seattle? Yes. Then if we were in the middle of, you know, an 
area of a State that was not experiencing interruption.
    Mr. Walker. Sure. So it is----
    Mr. Cuccinelli. Absolutely.
    Mr. Walker [continuing]. Is subjective. I know our 
Democratic Governor just ruled that the NCAA tournament there 
in North Carolina should move. So some of this could be 
geographically influenced? Would you agree?
    Mr. Cuccinelli. Absolutely. Again depending on what is 
going on in that local area.
    Mr. Walker. What procedures do have in place--specific 
question here. I was recently in the Rio Grande Valley border. 
Over 60 different countries--or migrants from 60 different 
countries had been apprehended.
    This year alone I believe several hundred Chinese 
nationalists have been apprehended as well. The procedures in 
place if you arrest a migrant that is showing size of 
respiratory problems, how do you handle that? Do you separate 
them or isolate them? What is the procedure in handling this?
    Mr. Cuccinelli. So we have prior to the existence of this 
virus in place standard operating procedures because we do 
confront communicable disease on the Southwest Border with a 
certain degree of regularity. Those folks are transferred to 
ICE. They have quarantine procedures.
    If that is not available, CBP is in a position of having to 
rely on local health care systems to provide that support. 
Those are the two avenues we have.
    Mr. Walker. I appreciate that. Dr. Redd, thanks again for 
your long-term service. I appreciate what you are doing. There 
are reports that there are two strains of this virus. If the 
virus continues to mutate, does this possibly slow efforts to 
develop a vaccine or contain in other aspects?
    Dr. Redd. Well, viruses that have the genetic material--
ribonucleic acid--when they--they naturally mutate. In fact, 
the--when we do sequencing we actually get a bunch of different 
viruses. There is a consensus sequence. So I think that they 
just naturally mutate.
    I don't think we can predict what will happen with the 
virus. It would be unusual for there to be enough mutation that 
a vaccine that we would produce against a strain now wouldn't 
work because of that kind of drift.
    Mr. Walker. We had a very strong presentation yesterday--
from Doctor Scott Gottleib who was pointing out the fact that 
he believes in his opinion that this will slow down in the 
summer or dissolve a good bit but have maybe a potentially a 
small spike back in the fall. Is that what you guys are seeing 
as well?
    Dr. Redd. I think we hope that in the summer we will see a 
drop in transmission. I don't think we can say that we know 
that. That what you are describing is what happened with H1N1 
where we had a fall--or a spring wave. Things went low in the 
summer--still had more flu than usual in the summer. Then in 
August and September, we saw a big increase.
    I think that, that does--if that were to happen, it would 
be a great thing because it would give us time to be more 
prepared for that fall wave.
    Mr. Walker. Right. Traditionally the flu follows that 
pattern; is that correct?
    Dr. Redd. That is true.
    Mr. Walker. OK. We talked about it already. The World 
Health Organization has now listed this as a pandemic. Does 
that modify your guys' approach or change anything as far as 
the way you are moving forward with it?
    Dr. Redd. It really doesn't. I think what that declaration 
was something that people working in this already knew that it 
is around the world, and there is lots of community 
transmission around the world.
    Mr. Walker. OK. Thank you. Time for another question with 
Mr. Cuccinelli. Do you have a plan for FEMA should an area that 
is the center of outbreak--we were just talking about 
geographic and maybe demographics as well--if there is an 
outbreak that could be considered maybe a natural disaster? How 
does those two connect and what is your role in this?
    Mr. Cuccinelli. So you are probably familiar with our IMAT 
teams that get deployed; for instance, Tennessee just had 
devastating tornados. FEMA deployed its IMAT teams and them 
followed up with support.
    What we are designed around at FEMA is fairly large IMAT 
teams to respond to a natural disaster as you describe. But 
here we can and are seeing eruptions all around the country.
    So what FEMA has done is they have broken their IMAT teams 
down into smaller teams so there is at least one for every 
single State and territory. They are smaller 4- or 5-person 
teams. They have been trained specifically to support States 
and local officials under these circumstances obviously 
different from a natural disaster.
    So we have adjusted our personnel--that is what we have 
been doing with some of this time is changing our set up, our 
structure, and our ability to reach out and more quickly 
support States and local officials in that capacity.
    If a local area is overwhelmed--if they have systems 
overwhelmed, at that point, they might request FEMA assistance 
on a more traditional basis that you are used to. I would note 
the Stafford Act isn't really designed for this sort of 
situation, but they are analyses of that going on right now.
    Mr. Walker. Thank you. Madam Chair, I yield back.
    Ms. Underwood. The Chair now recognizes for 5 minutes the 
gentlewoman from New Mexico, Ms. Torres Small.
    Ms. Torres Small. Thank you, Madam Chair. Thank you for 
being here. I want to pick up on that string of coordination 
with State and local governments because as you know State and 
local governments are at the front lines of this crisis right 
now.
    Dr. Redd, it is my understanding that is the CDC's standard 
to notify State officials if individuals from their State were 
on-board a suspected coronavirus-infected ship. Can you confirm 
that?
    Dr. Redd. I think that, that depends on the setting. I 
think that with the volume, we are working with the cruise 
industry to identify who would actually do that notification.
    Ms. Torres Small. In what setting would you not notify a 
State if there was a----
    Dr. Redd. State. Yes. Yes, we would--well----
    Ms. Torres Small. Oh, perfect.
    Dr. Redd. Yes.
    Ms. Torres Small. OK. Wonderful. Wonderful.
    Dr. Redd. I think contacting the individual is just a 
different story.
    Ms. Torres Small. Fantastic. OK. I----
    Dr. Redd. Misunderstood you.
    Ms. Torres Small. I appreciate that if the State--you will 
notify the State if they are. Today, we learned that 2 
individuals from my district who were on a cruise ship with 
suspected cases tested positive for the coronavirus.
    It is my understanding that the individuals returned to 
their local community for over week before the CDC notified the 
State of New Mexico. What are you doing to rectify this failure 
of communication?
    Dr. Redd. Oh, I have to look into that particular instance. 
I am not familiar with that. We can get back with you on what 
the specifics of that.
    Ms. Torres Small. I appreciate that. I know things are 
moving incredibly quickly, and so I--we are all working to just 
move forward better together. So to that note, will the CDC 
commit to sending a list of all individuals who have traveled 
to New Mexico from areas of concern today?
    Dr. Redd. I think that, that lists--I think this is one of 
the problems that we are coming into is that there is 
transmission from so many different places that it sort of 
depends on what--what the--what locations coming from would 
count as a place of concern.
    So I think--you know, this is one of the things that we are 
working with is many countries in Europe now have cases. It is 
not just Northern Italy as it was a week or so ago. I think 
this is one of the things that was referenced earlier that 
there is daily discussion about what should be done about 
travel from locations just as you described?
    I think our current policy is, is problematic in that 
people--there is a lot of cases and outbreaks being sparked 
from travelers. You have heard from the testimony this morning 
that Europe is the new China from the standpoint of coronavirus 
and exporting of cases.
    Ms. Torres Small. Thank you, Dr. Redd. Just to--I recognize 
that this is a big problem you are trying to get your handle 
around. So maybe we can identify some of the--the easier places 
to start in terms of State notification. Can you notify the 
State of all service members who are coming to New Mexico who 
have traveled from areas of concern?
    Dr. Redd. I believe that, that notification is occurring--
--
    Ms. Torres Small. Let's confirm that.
    Dr. Redd [continuing]. Particularly from--well, parts of 
the world that service members have been identified in. But let 
me--we will take that for action.
    Ms. Torres Small. That is fantastic. The same with DoD 
personnel?
    Dr. Redd. Yes.
    Ms. Torres Small. OK. What about public health service 
corps members?
    Dr. Redd. I think that, that is a reasonable suggestion. 
Let me though--I think this is one of the instances where the 
more places that have cases, we could essentially be 
identifying any traveler returning to the United States.
    There is a point at which that ceases to be as useful as--
particular as it was earlier when it was China or you could say 
China, Iran, South Korea, Italy.
    Ms. Torres Small. That is fair.
    Dr. Redd. Because I think there is going to be a point 
where that notification really--it is harder to take that for 
public health action because there would be so many people 
everywhere. You could almost take a plan coming from Europe.
    Ms. Torres Small. Thank you, Dr. Redd. Just switching, 
quickly in my last minute, to date how many people have been 
tested for the coronavirus across the United States?
    Mr. Cuccinelli. So I can't give you an exact answer on 
that; 17,084 and have been tested at CDC. There are thousands 
that have been tested in the last week at State health 
department laboratories. We are working on setting up the 
system to collect information from the commercial 
manufacturers. So that----
    Ms. Torres Small. OK.
    Mr. Cuccinelli [continuing]. That what you are describing--
the question that you are asking is the one that we are seeking 
to be able to answer.
    Ms. Torres Small. So 17,084 confirmed plus other places 
that you are working on seems lower than other countries where 
they are testing--South Korea, for example, can test up to 
10,000 a day. Germany has done a lot. Do you have a time line 
for scaling up testing in the United States?
    Mr. Cuccinelli. Well, we have scaled up in the past week 
that there is 75,000 test kits for the--sorry--75,000 materials 
sufficient to test 75,000 people on the public health side, a 
million on the commercial side. I would like to say that we 
cannot really test our way out of this epidemic. That that is a 
part of the response, but there are many other----
    Ms. Torres Small. And it is----
    Mr. Cuccinelli [continuing]. Important elements.
    Ms. Torres Small. Absolutely. But it is a part we need to 
focus on. How many tests a day can we expect in the next few 
weeks?
    Mr. Cuccinelli. Yes, I think that--that is a hard question 
because there is a lot--all the other things besides having the 
materials are----
    Ms. Torres Small. Do you have a goal?
    Mr. Cuccinelli [continuing]. Appropriate? I think what we 
want is what everybody here wants which is every person that 
needs a test can get it the same day. That would be the 
objective.
    Ms. Torres Small. OK.
    Mr. Cuccinelli. We are working toward that end.
    Ms. Torres Small. Thank you. My time has expired.
    Ms. Underwood. The Chair now recognizes for 5 minutes the 
gentleman from Pennsylvania, Mr. Joyce.
    Mr. Joyce. Thank you, Madam Chair. Thank you for holding 
this hearing. I would also like to thank both of our witnesses 
for appearing today and for keeping Congress informed as to 
what President Trump's administration and the efforts to combat 
and contain this novel coronavirus.
    Secretary Cuccinelli, thank you for mentioning in your 
testimony the work that DHS is doing to keep our front-line 
employees safe, especially given that the nature of their work 
leads actually to a higher risk of exposure. You mentioned in 
your testimony that all CDP--all CBP personnel have access to 
personal protective equipment.
    Can you assure us that there is sufficient equipment for 
all personnel at CBP? Do you believe additional funding is 
necessary to ensure the on-going availability of this 
protective equipment?
    Mr. Cuccinelli. Congressman, tracking PPE for our employees 
has been something we have done from Day 1, well back into 
January. We are comfortably ahead of that curve. We keep a 
stock of 30-plus days on hand. We would probably say we have 
around 45 days available. That is standard for us.
    We are not seeing a threat to that. We are not seeing a 
draw-down at a pace that is cutting into our ability to 
maintain protection and protective gear for our employed work 
force.
    Mr. Joyce. Thank you, Mr. Secretary. On another matter, the 
lack of a full operational control of our Southern Border is 
something of particularly concern to many of my constituents.
    Since taking office, President Trump has repeatedly asked 
for additional funding for the border security, including hard, 
physical wall infrastructure. That has either gone unfunded or 
ignored by Congress.
    Briefly--Mr. Walker said this--but given the control that 
comes in and out of our Nation is at the hands of CBP, it is 
imperative that we seek to prevent this novel virus from coming 
in through our borders. Do you agree that fully funding the 
President's budget request for border security is necessary for 
the protection of our country?
    Mr. Cuccinelli. Well, certainly, we do, Congressman. The 
way you phrased it, border security, speaks to the 
comprehensive nature of the strategy we need to employ which 
includes the whole wall system, but it also includes our 
people, the folks in the Border Patrol and in ICE who back them 
up at USCIS who do much of the processing. That entire system 
is necessary to maintain security at our border.
    One of the things--you know, every month you all see the 
numbers of apprehensions and so forth. But what doesn't get 
talked about as much is what we call the getaways. There are 
plenty of people who are not caught.
    When you think about that in terms of communicable disease 
that takes on a whole new threat. It has existed with other 
communicable diseases; measles to name one--TB. We do see them 
in--across the United States at levels that many communities 
haven't seen in some time because of the situation at the 
border.
    We are not yet having a coronavirus problem at the Southern 
Border, but we are planning for such a problem as we see the 
case numbers in South and Central America rise precipitously as 
we are in other parts of the world.
    Mr. Joyce. Secretary Cuccinelli, you talk about individuals 
who are apprehended and those who get away. Have you 
apprehended individuals from China or other nations where we 
have known cases of the virus?
    Mr. Cuccinelli. We have not yet apprehended anyone crossing 
illegally--well, I will speak to legally in a second--who has 
tested positive for the coronavirus. We have apprehended almost 
400 Chinese nationals since January 1--no positive coronavirus 
tests amongst those individuals or any others at this point.
    We have also based on the 212(f) proclamation the President 
implemented on January 29--I should say 31, effective February 
2. We have turned away people from all--many countries of the 
world because they had been in China or Iran in the previous 14 
days.
    The No. 1 category of foreign nationals we have turned away 
are Canadians. Chinese are second at our land ports of entry 
under the 212(f) authority. So we don't know who amongst those 
folks had what medical condition because they were turned away.
    Mr. Joyce. Thank you, Mr. Secretary for your attention to 
this subject. I yield my remaining time.
    Ms. Underwood. Mr. Cuccinelli, I just wanted to follow up 
on that. Are you all testing every apprehended individual from 
an affected country?
    Mr. Cuccinelli. I am sorry. Are we--I am sorry, ma'am. I 
didn't hear you.
    Ms. Underwood. Are you testing every individual apprehended 
from a coronavirus-affected country?
    Mr. Cuccinelli. No, we are not. No, we are not.
    Ms. Underwood. OK. So you said that--you just said that 
there--out of the 400 Chinese nationals that there was no 
coronavirus found. So how many of those 400 were you testing?
    Mr. Cuccinelli. I don't know how many we have tested. We 
don't test unless observe symptoms again using already existing 
protocols. We are not creating yet new protocols to deal with 
potential coronavirus sufferers. We deal with them as we would 
any other immigrant that we encountered.
    Of course setting this virus entirely aside--one of CBP's 
roles, though not medically trained, is to observe those coming 
into the country for symptoms of illness in general.
    Ms. Underwood. Absolutely. Yes. We are very well aware of 
the screening standards--passed a bill to that end out of this 
committee. Would you be willing to submit to us in writing a 
summary of those tests that you--that CBP has performed on 
migrants apprehended at the Southern Border?
    Mr. Cuccinelli. I would be happy to go determine how many 
immigrants we have tested for coronavirus.
    Ms. Underwood. And submit it to us in writing to this 
committee----
    Mr. Cuccinelli. Yes.
    Ms. Underwood [continuing]. Promptly, please? Thank you, 
sir. The Chair will now recognize, Mr. Rose, from New York, for 
5 minutes.
    Mr. Rose. Thank you, Madam Chairwoman. Dr. Redd, would you 
agree that we will not be able to test nearly enough people 
without automated, automatic or automated testing approved in 
our State laboratories?
    Dr. Redd. I think that, that kind of testing is being done 
at the commercial scale. I am not sure it is necessary in the 
public health scale side. That is where these different roles 
that the two types of testing play is----
    Mr. Rose. So maybe I am confused about something. My 
understanding is, is that automated testing needs to be 
approved by the CDC in conjunction with the FDA before it can 
occur in any laboratory private or----
    Dr. Redd. There is----
    Mr. Rose [continuing]. Commercial or public.
    Dr. Redd. There is a process of emergency use 
authorization. That is an approval that the FDA grants to do a 
test that is earlier in development.
    Mr. Rose. You review it though?
    Dr. Redd. Well, we develop it. We basically----
    Mr. Rose. So has any--it exponentially increases the number 
of tests that can be conducted in 1 day? It is significant. We 
need for it----
    Dr. Redd. Right.
    Mr. Rose [continuing]. To happen as quickly as possible. 
You would agree with that?
    Dr. Redd. Right. I think that is right. I think whether we 
do that on the commercial side or in the public health side 
is----
    Mr. Rose. I don't care what laboratory is doing it. It has 
got to happen.
    Dr. Redd. Exactly.
    Mr. Rose. Has any laboratory in the country been approved 
for automated testing yet?
    Dr. Redd. I am--I can check on that. I can tell you that 
the LabCorp and Quest use those kind of systems, and they have 
been approved.
    Mr. Rose. So is it happening anywhere in the country?
    Dr. Redd. It is happening in those laboratories.
    Mr. Rose. OK. Because it is not----
    Dr. Redd. Let me--let me verify that.
    Mr. Rose. That way--there is a difference between semi-
automated. There is manual, semi, and then full automated. We 
have to get to fully automated, correct?
    Dr. Redd. Let's check to--I will----
    Mr. Rose. Because I can tell you not one laboratory in New 
York has been approved. Can I have your word here publicly that 
you will make this a top priority to get not just in New York, 
but as many laboratories across the country approve for this as 
quickly as possible?
    Dr. Redd. I think we want the same end which is to have 
really every person that needs to be tested be able to get that 
test done----
    Mr. Rose. Certainly.
    Dr. Redd [continuing]. The day that they need it. To that 
end, I think the exact means that you use to get there--I 
wouldn't--I don't want to quibble about that.
    Mr. Rose. But you do agree we can't get there without 
automated testing?
    Dr. Redd. Some level of automation, certainly.
    Mr. Rose. Some level. OK. So thank you for that. I look 
forward to working with you and your team----
    Dr. Redd. Yes, sir.
    Mr. Rose [continuing]. To get New York there as quickly----
    Dr. Redd. I----
    Mr. Rose [continuing]. As possible.
    Dr. Redd. It is a high priority. I think what is going on 
there is something that we are working very closely with the 
health department on.
    Mr. Rose. Do you have any sense of a time line for how 
quickly we can get to these automated testings approved in New 
York?
    Dr. Redd. Well, I think--I guess again I think that this is 
not a problem we can test our way out of. I think that, that is 
part of the overall strategy. We need to be testing so that 
our--we understand where we need to be intervening, and we 
understand the effectiveness of those interventions. So I 
actually----
    Mr. Rose. Of course.
    Dr. Redd. I don't think every--for public health purposes, 
every single person doesn't need to be tested; for example, in 
the influenza pandemic 10 years ago, we weren't able to test 
everyone. We didn't need to test everyone. Our public health 
interventions were guided by the ability to extrapolate from 
the laboratory tests that we had.
    Mr. Rose. Of course.
    Dr. Redd. Different clinical purposes.
    Mr. Rose. Absolutely. Those who have symptoms though. Those 
who are symptomatic should be able to be tested same day? We 
can't do that without these testings. It is necessary.
    Dr. Redd. Especially----
    Mr. Rose. It is not sufficient.
    Dr. Redd. Right, and but especially for clinical purposes. 
The public health--you know, doing a representative sample 
doesn't help you if you are the patient----
    Mr. Rose. Absolutely. So my apologies in advance that we 
are going to be contacting your office every single day until 
this happens in New York----
    Dr. Redd. You don't need to apologize.
    Mr. Rose [continuing]. And across the country. Mr. 
Cuccinelli, thank you. Thank you for your service. I want to 
talk to you about foreign travel. It is my understanding that 
those foreign nationals traveling from China and Iran are now 
tested upon reaching a domestic airport; is that correct?
    Mr. Cuccinelli. No, that is not correct. They are barred 
from entering the United States.
    Mr. Rose. OK. So in terms of foreign screenings though, 
where--which nations are we doing screening at----
    Mr. Cuccinelli. So the way it works is the 212(f) only 
covers foreign nationals. The President doesn't have the 
authority----
    Mr. Rose. Mm-hmm.
    Mr. Cuccinelli [continuing]. Under 212(f) to do anything to 
you and I as United States citizens. So U.S. citizens, legal 
permanent residents, and their families come in. Those are the 
people being screened at the airports.
    So an American citizen flies from China--and there are 
still some flights--to one of the 11 airports. They encounter a 
CBP OFO officer, the blue uniform folks you see when you come 
from another country. You show them your passport.
    Now, they are going to see you came from China. They are 
going to send you to secondary screening. That screening is run 
by CWMD, our contract medical personnel. Unlike the traveling 
questions that CBP asks you, they are going to ask you medical 
questions. These are medically-trained personnel.
    Mr. Rose. This is upon entry to the United States?
    Mr. Cuccinelli. Correct. At the first point of----
    Mr. Rose. Is there any consideration of expanding that to 
other nations that are hard-hit by this; Italy, for example?
    Mr. Cuccinelli. Yes. There is regular consideration of 
that.
    Mr. Rose. OK. Do you think that is a good idea at this--
knowing what we know right now to expand that to South Korea, 
Italy?
    Mr. Cuccinelli. Well, in the particular cases of South 
Korea and Italy, those allied nations took very quick 
affirmative steps to start performing exit screening. They are 
essentially doing on exit what our medical screeners would do 
on entry.
    They did that in part to avoid being swept into a 212(f) 
situation. That was acceptable to the President's task force. 
He accepted it because of their transparency. These are allied 
nations who are being very up-front with us about what they are 
receiving.
    Mr. Rose. From who?
    Mr. Cuccinelli. They are also barring passengers who for 
instance test over 37 and a half degrees centigrade for a 
temperature, just to use an easy one.
    Mr. Rose. Well, what I will ask is that please keep us 
posted on your analysis going forward as to whether that should 
be expanded.
    Mr. Cuccinelli. Glad to do so.
    Mr. Rose. Thank you.
    Ms. Underwood. Oh, yes, I am going to wait for him to sit 
down. OK. The Chair now recognizes Mr. Bishop for 5 minutes.
    Mr. Bishop. Thank you, Madam Chairman. I have had to step 
out for a bit so you all may have covered some of these items. 
But Dr. Redd, do I still understand that it is the objective--
the Vice President said that he was--they were trying to make 
it so--the administration is trying to make it so that any 
doctor could order a test; is that correct?
    Dr. Redd. Yes, sir.
    Mr. Bishop. I heard you recite the numbers that I was 
hearing last week that there would be a million test kits sent 
out by the end of that week. Did that in fact occur?
    Dr. Redd. It did. That is from the commercial side, not the 
public health side; 75,000 was----
    Mr. Bishop. Right.
    Dr. Redd [continuing]. The number from the public health 
side.
    Mr. Bishop. Understood that. Do you get feedback to 
indicate that there are uncertainties on the part of doctors at 
this point in time whether or not they can order tests?
    Dr. Redd. There are not uncertainties that I have heard.
    Mr. Bishop. Word is that schools and universities are 
closing. North Carolina has several. Is the CDC recommending 
pulling classes until the virus is more contained or slows?
    Dr. Redd. So that is a local decision. We have been working 
with communities that have substantial human-to-human community 
transmission. It is really a case-by-case basis depending on 
the--you know, basically what the issue is, what set of 
activities need to be changed from the normal way.
    We have actually posted guidance today for King County and 
Santa Clara County as examples of how to adapt our more general 
recommendations to particular communities. But we are working--
I don't know the details of how we are working with the 
communities in North Carolina, but we would be working minute-
to-minute with them on sort-of side trading these 
recommendations to be the right intensity.
    Mr. Bishop. In response to the Vice Chairman's questions 
early on about how many persons you expect to be infected and 
so forth, you said it depends on the intensity of the--of our 
public health response.
    How are you--I mean--so are there questions about how 
intense to make it? I mean you all--you are part of the 
organization that decides how intense of the response to have.
    So are you holding back or have you decided what an ideal 
is? Or is that changing day-to-day based on circumstances. If 
it is changing based on circumstances, I would assume that 
would be test results indicating how wide-spread this is?
    Dr. Redd. So I think that the--as communities identify 
cases in their community, there are a set of activities that--
there are questions, you know, should we cancel this event? 
Should we cancel that? That--those aren't the kind of things we 
can have a Federal guidance that would cover every eventuality.
    So it is--you know, I think this is an instance where it is 
a wide-spread event. The Federal Government can't cover every 
location. So our role is to support State and local health 
departments.
    There are going to be some instances where we can provide 
boots on the ground, but in general we are going to be 
providing guidance and working with communities to make their 
decisions based on their own circumstances.
    Just for example, a large gathering--if it is people that 
are at high risk, so older people or people with chronic 
medical conditions, if that kind of thing is known it would--a 
large gathering would be a smaller gathering than if it were 
teenagers.
    Mr. Bishop. Yes, sir. Thank you.
    Mr. Cuccinelli. Congressman, could I add----
    Mr. Bishop. Yes, sir.
    Mr. Cuccinelli [continuing]. A little flavor to that as a 
former State attorney general?
    Mr. Bishop. Yes, sir.
    Mr. Cuccinelli. For each of you, you all represent many 
different States. Your States have in many cases vast 
authority--legal authority in this arena. It is easy for us in 
the Federal Government to overlook that, but your Governors and 
your public health professionals have tremendous authority in 
this area.
    Many Governors, of course, have declared public health 
emergencies and so forth. I have talked to a number of AGs--
many Governors--we have both talked to hundreds of local and 
State officials. That is something that is--that allows for the 
very specific surgical application of authority place to place, 
State to State.
    Mr. Bishop. Point well taken. Thank you, sir. Has your 
question today covered the fact that we have a no-ban vote 
tomorrow on the section 212(f) authority?
    Mr. Cuccinelli. No, sir.
    Mr. Bishop. Well, let me ask you quickly. Then we are 
voting tomorrow on this political no-ban act to restrict the 
President's use of 212(f) authority. Didn't the President use 
212(f) authority here in order to have an early intervention to 
stop Chinese folks--nationals--from coming in, in a way that 
has helped the response to the----
    Mr. Cuccinelli. That is exactly what he used. It was 
available to use quickly at the advice of the task force. It 
has been effective.
    Mr. Bishop. Would it have been a problem if that authority 
had been limited or restrained?
    Mr. Cuccinelli. There is no question that the use of that 
authority has bought us time. You have heard from both Dr. Redd 
and I various ways that we have used that time in the Federal 
Government. Our partners in local and State government have 
used that time to be better prepared as this virus advances.
    Mr. Bishop. Thank you, Mr. Cuccinelli. Thank you, Dr. Redd. 
I yield back.
    Ms. Underwood. The Chair now recognizes Ms. Slotkin for 5 
minutes.
    Ms. Slotkin. Thanks, gentlemen. I just want to say at the 
outset that I am really invested in your success. I think that 
we heard from the former head of the CDC who served, I think 
under the George Bush administration, who talked about the 
importance of trust and how critical that is in a public health 
crisis or moment.
    So I really want you to succeed. I want all of us succeed. 
We are all on this boat together. So I really want to have 
clarity for the people who are at home who are looking to you 
all and to us for guidance. I guess I have the question on 
preparedness.
    I think we have heard a couple of times from you, Admiral 
Redd, that the earlier we intervene the fewer number of cases 
and the lesser the spread for lack of a better term.
    I have seen other countries take much more aggressive 
steps. You know, Italy is now--obviously, has a lot more cases, 
but they have banned travel. People are staying in their homes. 
There is no going to tourist destinations. There is no public 
gatherings.
    Should there be anything else and guidance that we give 
beyond public health, washing your hands, staying--giving a 
social distance? Should we be telling our businesses to go to 
telework if at all possible?
    Should we be getting people out of offices and schools, not 
because this is such a terrible threat? I don't want to 
incite--I am not--I am just saying preparedness helps us blunt, 
you know, unnecessary panic.
    Dr. Redd. Preparedness does help. I would point to 
Singapore and Hong Kong as examples of aggressive early action 
that has blunted the epidemic.
    Ms. Slotkin. So----
    Dr. Redd. I think in the case of Italy, it may be a lot too 
late.
    Ms. Slotkin. It got away from them. So what are the 2 or 3 
other things that people should be doing besides the public 
health guidance to minimize the spread of this illness, since 
Michigan we just got our first 2 cases yesterday?
    Dr. Redd. So I think that the--there are some individual 
actions and there are community actions. I think that all of 
these--protecting the elderly and medically vulnerable is the 
highest priority because those are the people that are going to 
have the worst outcomes.
    So I think there is a lot of work around nursing homes in 
particular that needs to be undertaken to prevent the virus 
from getting into the nursing homes--things like reducing the 
number of visitors.
    Ms. Slotkin. Mm-hmm.
    Dr. Redd. If anybody is sick--working there, being 
absolutely certain that, that person doesn't--isn't allowed 
back in. That people who work in one nursing home, don't work 
in another nursing home.
    Ms. Slotkin. Mm-hmm.
    Dr. Redd. That when a patient is transferred from a nursing 
home to a hospital, they are not sent to another nursing home.
    Ms. Slotkin. OK.
    Dr. Redd. These are the kind of things that are known to 
spread other kinds of infections in that setting. I think that 
the work that we do to protect people in nursing homes and the 
elderly is critical----
    Ms. Slotkin. So can I ask a quick question because again on 
the public trust issue--the issue of testing. So I will tell 
you that the sense in the public is that there is not enough 
tests.
    I am glad to hear the numbers that you all offered that 
there is 75,000 public health tests and another million 
available commercially. We are not getting those to our States 
in a way that feels reassuring to people.
    I guess I am confused on why we are playing catch-up on 
this. My understanding is we have tested 8,500 people across 
the country, but that South Korea is capable of testing 10,000 
people a day. Can you help me understand why they are able to 
do that?
    Dr. Redd. They have implemented a different system then the 
one that we are using. I am--I think that we probably should be 
scoring ourselves on the ultimate impact of the epidemic and 
how well we control it. Testing is a part of that. It is not 
the only part.
    So I am not sure--I mean we don't have really good 
visibility on who is being tested. If you are just testing 
people who are perfectly well, have not had any exposure, have 
a negative test, I am not sure that really contributes to the 
public health outcome.
    Ms. Slotkin. OK.
    Dr. Redd. I do think that--I agree with what you are saying 
that there is a sense that we haven't done enough in testing. 
We are doing everything we can to correct that. I also agree 
with your statement about the importance of trust.
    Ms. Slotkin. So I just--I am sorry. I just have one quick 
second. So a lot of us really do respect the head of the NIAID, 
Mr. Fauci--Dr. Fauci. He has gotten us through a lot of crises. 
I guess I would ask that while you have devolved a lot of 
things to the States--and I understand things are going to be 
certainly a little bit different.
    I guess I am just a prisoner to the fact that I was on--in 
New York City on 9/11. Whatever people think of Rudy Giuliani, 
he was clear. He was available. He was telling us what was good 
and what was not good.
    I am telling you that people are missing that. They are 
feeling like they want clearer guidance. Just my strongest 
recommendation is that Dr. Fauci be allowed to take that role 
to reassure the country.
    Ms. Underwood. The Chair now recognizes Mr. Crenshaw for 5 
minutes.
    Mr. Crenshaw. Thank you, Madam Chairwoman. Thank you both 
for being here. I will actually continue along that line of 
questioning because I have similar questions about, you know, 
what is the standard we are trying to achieve with testing?
    We do hear that South Koreans are testing huge amounts of 
people, and it--it makes people feel like they should also have 
a test whenever they want. Now, of course, you have to buttress 
that against the reality that we come up against which is, you 
know, are we then excluding people who actually need the test.
    So I do want to get a more detailed sense from you of where 
we should be. What is the right realistic standard that we 
should be trying to achieve with respect to testing and 
availability of testing? Should the threshold be lower than it 
currently is because right now I believe you need doctor's 
orders to get a test?
    Dr. Redd. So I--this is a really important question. I 
think right now there is this sense that you should just be 
able to get it. You know, anybody should get a test everyday if 
they want. I don't think that is really helpful to the 
response.
    I think that in communities that have transmission it is 
very important to do enough testing to understand the 
epidemiology of the disease. That is something that is a health 
department role so that kind of testing is critical.
    There is some questions about just the kinds of things 
that, that kind of testing could help us understand whether 
schools are an important place for virus transmission. Children 
don't get as sick as older people.
    Mr. Crenshaw. Right.
    Dr. Redd. We are not really certain if school closure is 
the right move. So we can't----
    Mr. Crenshaw. And I----
    Dr. Redd [continuing]. Understand that without testing.
    Mr. Crenshaw. I agree with that general philosophy. So you 
have laid out the philosophy of standardizing testing. So I 
mean the next question is should we be reaching for a different 
standard than we are currently implementing or should we keep 
it about the same?
    Dr. Redd. I think that a clinician saying this is a person 
that needs a test--and that can be a pretty low threshold. I 
think that is the right threshold action.
    Mr. Crenshaw. So the right threshold. Admiral Redd, you 
were also incident commander for the H1N1 pandemic response in 
2009. Can you tell me what major differences there have been 
between the current response to coronavirus and the H1N1 a 
decade ago?
    Dr. Redd. Yes. Well, I think the two biggest things are we 
had a drug that worked against the virus, and we were able to 
produce a vaccine within time to blunt the outbreak or at least 
to have it available during the peak of transmission.
    I think the other--we knew more about flu then we know 
about this virus. Some of the issues that have come up about 
when people can transmit the virus are--wouldn't have fit 
conventional wisdom.
    Mr. Crenshaw. Mm-hmm.
    Dr. Redd. So I think there is more that the scientific 
community has to learn about this coronavirus even though we--a 
lot of uncertainty in H1N1----
    Mr. Crenshaw. Sure.
    Dr. Redd [continuing]. But less----
    Mr. Crenshaw. That goes without saying. I mean--but the 
actual response has it been dramatically different?
    Dr. Redd. It is--it is a much larger response then we had 
for H1N1. I think there are more sectors of Government 
involved. We didn't do a lot of the things that we are doing 
now because they weren't appropriate, the border issues. We had 
cases here that the pandemic was first recognized in the United 
States. So that----
    Mr. Crenshaw. Right.
    Dr. Redd [continuing]. That is a totally different 
situation.
    Mr. Crenshaw. Speaking of border issues, Mr. Cuccinelli, in 
the face of a global pandemic should we have less security at 
the border or more security at the border?
    Mr. Cuccinelli. Under those circumstances, more of course. 
I mean the greater your operational control of the border, A, 
the less incentive there is to attempt to pass through that; 
and B, this is just a numbers game--the less chance you then 
have of people who may not even know----
    Mr. Crenshaw. Right.
    Mr. Cuccinelli [continuing]. That they are infected because 
to Dr. Redd's comment about things that are different from 
H1N1, one--the biggest one for this non-medical person is 
asymptomatic transmission. That presents dangers that you can't 
even understand when they are right in front of you.
    Mr. Crenshaw. Do things like physical barriers, additional 
technology, and more personnel increase our border security?
    Mr. Cuccinelli. Absolutely.
    Mr. Crenshaw. I want to ask you both about our medical 
supply chain and how reliant we appear to be on China for some 
very basic things, like generics, antibiotics, things like 
that.
    Could you both discuss the current state of our medical 
supply chain, specifically how the Chinese shutdown has 
affected it and how we can get better? How can we become more 
self-reliant in the face of future pandemics?
    Dr. Redd. It is an important question. That--unfortunately 
for--to be able to answer your question directly and the 
department that area is handled by the assistant secretary for 
preparedness and response.
    Mr. Cuccinelli. So I have been of course part of the 
President's task force since January. This has been a focus for 
us.
    I would note, Congressman, that if you go back and look at 
things like that first 212(f) proclamation, you will see--and 
how we unrolled it--you will see that we made accounting--we 
accounted for economic activity, not because of the money, but 
because of the supply chains to which you are referring--and 
not just medical.
    We--at FEMA, for instance, and CISA, we keep track of 7 
different sectors. Health care is just one of them--
transportation, energy, others. Because of the 
interconnectedness of our economies and societies around the 
world, we thought it very important to keep that cargo flowing 
both by air and sea. We have made accommodations to do that.
    I think that a lot of people's eyes, not just in Congress 
but in the Federal--but in the Executive branch as well, have 
been opened to some of the nuances of the supply chain 
reliance. My understanding--and I am not the expert, but I am 
here, and you want your questions answered.
    My understanding is that we are not in danger on any 
particular drugs with respect to interruptions from China at 
the moment, not in any significant way--that there is 
substantial--I will call them stockpiles, but they are working 
capital equipment of drugs. There are substitutes that fill the 
needs for where we do have gaps. That gets us out of months and 
months----
    Mr. Crenshaw. Mm-hmm.
    Mr. Cuccinelli [continuing]. But it--when this is over and 
we all step back and ask ourselves what did we learn here, this 
is definitely going to be one of the subjects we are all going 
to want to come back to and sit down together. As Congresswoman 
Slotkin noted and as Vice President has said, we are all in 
this together. Well, if history is any guide, we will be in it 
together some time in the future so----
    Mr. Crenshaw. Thank you, Madam Chairwoman.
    Ms. Underwood. Thank you. The Chair now recognizes Mrs. 
Watson Coleman for 5 minutes.
    Mrs. Watson Coleman. Thank you very much. Dr. Redd, one of 
the functions of the CDC is to collect information of what is 
happening to our communities across the country.
    I know that the CDC is no longer depending upon the State 
test to come to you to be confirmed before they can move 
forward with the decisions they have to make, but are you all 
doing anything to collect all the information so that there is 
essential place where the information can be held? Are you 
disseminating it?
    Dr. Redd. We are collecting information from the States. 
The status of the tests that the States are doing, they are 
performing the diagnostic tests. They are then actually sending 
the clinical specimen to CDC for verification.
    Mrs. Watson Coleman. That is not what I am asking you. 
Because the CDC director said yesterday that you are not--we 
are not depending upon their sending it to the CDC for 
verification now. You are going to--I believe what found----
    Dr. Redd. Well----
    Mrs. Watson Coleman [continuing]. In the States or what I 
am told.
    Dr. Redd. There is this designation called presumptive 
tests.
    Mrs. Watson Coleman. Yes.
    Dr. Redd. We are encouraging them to take action on those 
results. Yes.
    Mrs. Watson Coleman. What I am really wanting to know is 
are you collecting the information--is there going to be 
essential point of collecting the information? Because the one 
thing--and Ms. Slotkin kind-of referred to it.
    We don't know the extent of what is happening in our 
communities. We experience an incident daily. So it becomes a 
new phenomenon. So we would like to kind-of have greater 
expectation then we have now. We don't have that sense of 
confidence coming from the CDC or from the White House.
    Dr. Redd. Let me describe it in a little more detail what 
we are doing because we are collecting the results of test that 
are being done at States. The other thing that we are doing is 
working with our system for influenza where we are testing 
specimens that are being collected with people that have 
respiratory illness in Santa Clara County, San Francisco----
    Mrs. Watson Coleman. Are you----
    Dr. Redd [continuing]. San Diego----
    Mrs. Watson Coleman. Are you also collecting the number of 
presumptive cases? Are you collecting the data that the States 
are finding that X number of cases--New Jersey has got what--I 
don't--I don't even know today. It is more than it was 
yesterday.
    Dr. Redd. We are.
    Mrs. Watson Coleman. Are you collecting that information?
    Dr. Redd. We are.
    Mrs. Watson Coleman. OK. Thank you. Thank you. This is a 
question--the CDC has reported that more than 600 confirmed 
presumptive cases. So we are all concerned that everyone is 
given the kind of screening, testing, and whatever treatment 
you can get irrespective of who you are.
    So this question has to do the--a conversation that has 
been developing around this immigration enforcement free zones. 
So Mr. Cuccinelli, I guess for you more than anyone, I know 
many health experts and legal experts are saying how important 
it is for these people to be able to go in and be tested and 
not fear being exposed to immigration enforcement. Have you all 
had that discussion at all in your----
    Mr. Cuccinelli. Yes.
    Mrs. Watson Coleman [continuing]. Whatever it is you have.
    Mr. Cuccinelli. Yes, we have. And----
    Mrs. Watson Coleman. Where are you on that?
    Mr. Cuccinelli. ICE has a pre-existing policy--and I mean 
pre-existing the virus where they don't do enforcement in 
health care facilities, doctor's offices, except under unique 
single case circumstances. So that is not an issue with respect 
to virus testing and anything of that nature.
    Mrs. Watson Coleman. So those individuals don't have to 
fear----
    Mr. Cuccinelli. We repeated that publicly.
    Mrs. Watson Coleman [continuing]. Going--those individuals 
don't have to fear trying to get tested or treated or whatever?
    Mr. Cuccinelli. Correct.
    Mrs. Watson Coleman. OK. All righty. Mr. Cuccinelli, the 
President has touted that measures the administration took to 
try to prevent the infection from coming into the country by 
screening certain passengers coming in.
    We are told that there have been more than 40,000 people 
who have been screened, but only 1 of those passengers has 
actually been confirmed positive with the COVID-19. Meanwhile, 
2 of the people conducting the screening--they work for you--
have tested positive in addition to 3 TSA--TSOs.
    Can you tell me if you think these screenings are effective 
and if you think that this is where we should be applying our 
priority resources? If so----
    Mr. Cuccinelli. So----
    Mrs. Watson Coleman [continuing]. Why?
    Mr. Cuccinelli. So obviously, this screening is at the 11 
funneling airports that you are referencing. My most recent 
data is consistent with your comment about 1 person being 
quarantined; although, over 30,000--over 34,000 have been asked 
to do self-isolation and then communicate with their local 
public health authorities.
    We don't know--we don't go back to those to find out how 
many ultimately became positive. Again, this goes back to the 
asymptomatic problem of people coming through screening. They 
won't necessarily show symptoms.
    Mrs. Watson Coleman. Well, you know, having information 
come back, having information collected, having information in 
a central location, and having information available is 
something that is very important. There seems to be a big gap 
in that in what we are experiencing right now. That is very 
troubling and concerning.
    My last question, today Governor Inslee just banned 
gatherings of 250 or more in Washington State and Governor 
Cuomo yesterday ordered a 1-mile containment around New 
Rochelle.
    As Federal leaders charged with responding to this virus, 
can you tell the committee whether you had any direct 
involvement in the decisions that these Governors have made to 
try and contain the virus, either one of you? Is that yes or 
no?
    Mr. Cuccinelli. Yes, I certainly can't speak to having 
personal involvement, but both States have been in deep 
conversations with their Federal partners: DHS, CDC, and so 
forth for some time now.
    Mrs. Watson Coleman. OK. Thank you. I yield back.
    Ms. Underwood. The Chair now recognizes the gentleman from 
New Jersey, Mr. Van Drew, for 5 minutes.
    Mr. Van Drew. Thank you. Thank you for not retiring. Thank 
you both for being here. So I just want to clarify a few things 
in my mind which I think maybe would help everybody and sort-of 
almost a little bit rapid-fire. But we go back to border 
security. I just want to make sure this is clear to people 
because I think it is clear in common sense to me.
    If we have open borders, if we have sanctuary cities, 
sanctuary States, if we have people traveling around that just 
got into the country not in the normal route, is it your 
feeling, Mr. Cuccinelli that, that eventually could increase 
the risk without question of these types of diseases?
    Mr. Cuccinelli. Oh, well certainly. Absolutely. That is a 
simple matter of math.
    Mr. Van Drew. I mean there is nothing complicated about 
this. If people for lack of a better term sneak into the 
country and haven't gone through the normal legal immigration 
route, we have a larger chance of the disease spreading more; 
is that correct?
    Mr. Cuccinelli. Yes. The legal route, we have an immediate 
screening for illness that is part of the legal requirement for 
entry.
    Mr. Van Drew. OK. The second question that I have is about 
the travel restriction that was originally criticized when the 
President put the travel restriction on China and was seen as 
something abhorrent and terrible.
    If you were to look back now, would you say, Dr. Redd--both 
of you that, that was obviously as much as we have issues and 
problems now--the issues and problems and challenges would have 
even been deeper and greater; is that correct?
    Mr. Cuccinelli. Well, our understanding at the time when we 
recommended it to the President and when we had that discussion 
with him was that the academic models suggested not to do that.
    So our advice was contrary to the then-existing models as 
it was described in the task force. We made the recommendation 
anyways. The President was well aware of that sort-of 
contraindication. He adopted the recommendation. We universally 
now believe we benefited tremendously.
    Mr. Van Drew. Of adopting----
    Mr. Cuccinelli. Obviously, it was fortunate from adopting 
those measures.
    Mr. Van Drew. OK. In canceling large events that we spoke 
about, wouldn't it be dependent upon the State to--I mean just 
thinking about how large the United States of America is 
compared not to China obviously, but to a place like Italy or 
some other areas?
    Wouldn't it be on an individual case-by-case situation too 
whereas for example I understand in Washington where you might 
want to cancel any large gathering where in Nebraska perhaps 
you would not? Is that accurate at this point? Is that----
    Mr. Cuccinelli. It most----
    Mr. Van Drew [continuing]. How we would deal with that?
    Mr. Cuccinelli [continuing]. Certainly is. It is why it is 
appropriate for Governor Inslee to make that decision. It is 
why it is appropriate for Governor Cuomo to make those 
decisions and not for us sitting here in Washington to impose 
those decisions. That is part of the partnership.
    The guidance you have heard Dr. Redd talk about has been 
flowing freely. It has changed because this virus has literally 
not been known in human beings for 3 months on the planet earth 
yet.
    So we are still learning, and we are going to be learning 
for months to come. But that is why those local sensitivities 
and letting local authorities have final say is so important.
    Mr. Van Drew. Let me understand testing for a second. So, 
you know, hypothetically I don't feel well. I feel that 
possibly I have the coronavirus. I call my doctor, my nurse 
practitioner, whoever the appropriate health professional is. I 
say I really don't feel good. I have the symptoms. What should 
I do?
    They are--that person right now as of today is going to be 
able to get that test if their doctor or health professional 
thinks that is appropriate; is that correct?
    Dr. Redd. It is. I think there is some work to be done to 
make sure that they can get it as quickly and as easily as it 
needs to be.
    So I think that the test is available but making that 
patient experience optimal, there is still work to be done so 
that it gets done, same day. It gets a result back quickly. 
There is work to be done there even though it is available.
    Mr. Van Drew. Are we getting close to where it would be the 
same day?
    Dr. Redd. I think we are getting closer, but I wouldn't 
want to give you a time line that by X date it is going to be 
perfect.
    Mr. Van Drew. OK. Another question too. We all understand 
older people are at risk, immunocompromised are at risk. A 
thought that came to me--and I think I know the answer, but 
pregnant women and their unborn child that hasn't been born 
yet.
    Dr. Redd. Yes, I think right now the evidence isn't in. 
There--the evidence that there is does not suggest that, that 
is a group that is at particular risk, which is a little bit 
surprising. But that is the state of science----
    Mr. Van Drew. Thank God.
    Dr. Redd [continuing]. Today.
    Mr. Van Drew. Yes. Israeli researchers have been saying 
that they are months away from developing a coronavirus 
vaccine. Any thought on that?
    Dr. Redd. I generally go with Dr. Fauci's talking points on 
this. There will be a vaccine available pretty soon, but it 
won't be tested yet. That is really the time-consuming thing.
    So I don't--I am actually not sure what the Israelis are 
promising, but having a vaccine available doesn't mean that it 
has been shown to be safe and effective. That is what takes a 
substantial amount of time. There are 2 cycles of test that 
need to be done so it is going to be while before we have it--a 
vaccine that is approved that we know is safe and effective.
    Mr. Van Drew. OK.
    Ms. Underwood. The gentleman's time----
    Mr. Van Drew. It----
    Ms. Underwood [continuing]. Has expired.
    Mr. Van Drew. Did I go over? OK. I am sorry. Thank you.
    Ms. Underwood. OK. Thank you. The Chair now recognizes the 
gentlewoman from Texas, Ms. Jackson Lee.
    Ms. Jackson Lee. I thank the Chair very much and the 
Chairman and as well the Ranking Member. I ask unanimous 
consent to place in the record the American Academy of Family 
Physicians letter March 11 and a letter from me on February on 
February 26. I ask unanimous consent.
    Ms. Underwood. Without objection.
    [The information referred to follows:]
              Letter Submitted by Hon. Sheila Jackson Lee
                                 February 26, 2020.
The Honorable Bennie Thompson,
Chair, Committee on Homeland Security, 176 Ford House Office Building 
        H-217, Washington, DC 20515.
The Honorable Mike Rogers,
Ranking Member, Committee on Homeland Security, Ford House Office 
        Building, Washington, DC 20515.
RE: Preparedness of the Department of Homeland Security for a 
        Coronavirus Pandemic arriving in the United States

    Dear Chairman Thompson and Ranking Member Rogers: I write to 
express my concern that the Department of Homeland Security (DHS) may 
not be prepared for a major test of its preparedness for an eminent 
biological threat in the form of a global pandemic caused by the new 
coronavirus designated as COVID-19. For this reason, I request an 
emergency briefing by the Acting Secretary of Homeland Security on our 
Nation's preparedness for a pandemic. Due to the unprecedented number 
of vacancies and acting positions in the agency as well as the high 
turnover throughout the department, the ability of DHS to meet an 
essential responsibility of protecting the Nation from a biological 
threat should be assured.
    Today, Europe announced it has begun to prepare for a pandemic. It 
my belief that it is time for the United States to do the same. It is 
better for our nation to prepare and not have a pandemic occur, than 
not to prepare and it happens. Unfortunately, the disease is proving to 
be highly contagious, mobile, and has a mortality rate that is much 
higher than the flu, making it a significant threat to global health 
and to our Nation.
    The National Infrastructure Protection Plan is the foundational 
document guiding the work of DHS in the event of a national emergency. 
The National Infrastructure Protection Plan already defines public 
health departments as critical infrastructure. This makes local and 
State public health agencies eligible to receive homeland security 
grant funds. The Federal Government's critical infrastructure 
protection efforts, and related documentation can be found at (https://
www.cisa.gov/national-infrastructure-protection-plan.).
    Thank you for accommodating this urgent request to convene a 
meeting with the Acting Secretary and head of FEMA to discuss our 
nation's preparedness for a pandemic and to determine what level of 
Federal funding will be needed to carry out necessary work to prepare 
the Nation for a possible pandemic. If you have questions, or need 
additional information, do not hesitate to contact my Policy Director, 
Lillie Coney at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0965606565606c276a66676c7049646860652761667c7a6c276e667f">[email&#160;protected]</a>, [.]
            Very truly yours,
                                        Sheila Jackson Lee,
                                                Member of Congress.

              Letter Submitted by Hon. Sheila Jackson Lee
                                    March 11, 2020.
The Honorable Mitch McConnell,
Majority Leader, U.S. Senate, Washington, DC 20510.
The Honorable Chuck Schumer,
Minority Leader, U.S. Senate, Washington, DC 20510.
The Honorable Nancy Pelosi,
Speaker, U.S. House of Representatives, Washington, DC 20510.
The Honorable Kevin McCarthy,
Minority Leader, U.S. House of Representatives, Washington, DC 20510.
    Dear Majority Leader McConnell, Minority Leader Schumer, Speaker 
Pelosi, & Minority Leader McCarthy: The American Academy of Family 
Physicians, representing 134,600 family physicians across the country, 
are working diligently to screen, diagnose, counsel, and treat patients 
who have or believe they have COVID-19. Our members are fully committed 
to helping their patients and their communities in this time of 
national need, but we urgently need greater coordination.
    We urge Congress to contact the White House Coronavirus Task Force 
to ensure that information, supplies, and resources are flowing to 
physicians on the front lines, not just hospitals and public health 
departments.
    Consistency and coordination will be the key to successfully 
responding to this public health crisis. We are doing all we can to 
assemble and disseminate information prepared by the Centers for 
Disease Control and Prevention and the World Health Organization to our 
members; however, we still lack critical information including:
  <bullet> the availability of testing kits
  <bullet> clearly stated protocols for when and how testing should be 
        conducted
  <bullet> how to address the scarcity of personal protective equipment 
        (PPE) for front-line clinicians
  <bullet> coordinated communication between Federal agencies, health 
        departments, and the medical community.
    This lack of information and communication will have a devastating 
impact on our efforts to treat our patients effectively.
    If we are to be successful, it will be imperative that there is an 
enhanced level of collaboration and cooperation with the Federal 
Government and its agencies. We urge you to ask the White House 
Coronavirus Task Force to partner with family physicians and other 
primary care clinicians to ensure greater coordination and information 
sharing. Please contact Stephanie Quinn, Director of Government 
Relations for additional information.
                                            John Cullen, MD
                          Board Chair, STRONG MEDICINE FOR AMERICA.

    Ms. Jackson Lee. Let me thank both of the witnesses. Very 
quickly, I have little time. Doctor Redd, let me thank you for 
your years of services. Can I find out the first moment that 
this country detected the coronavirus was coming in this 
direction?
    Dr. Redd. It was in late January, I believe. I can get the 
date for you, but it was----
    Ms. Jackson Lee. But wasn't cases arising in China in 2019?
    Dr. Redd. We believe that there were. The report that they 
produced was right at the end of December. We think that 
probably the first cases were sometime in November, detected at 
some point after that. We think actually the----
    Ms. Jackson Lee. So let me respect what is being done. Let 
me publicly say that I believe that this Nation was not 
prepared equating to its greatness and the responsibility it 
has not only to 300 million plus, but the world watches us. You 
are with the CDC. We needed to be far better prepared.
    So this first thing I want to have is as Members spread out 
to their districts, we need an 800 number because we cannot use 
coronavirus.gov and anything else. As Members, I have got 
people calling me and asking, are we closing their schools?
    So I am asking both the deputy secretary convey to this 
task force, set up a number for Members of Congress, however, 
you want to have a Classified or a cold--give us a number to 
call. Can I have that conveyed and established, please?
    Dr. Redd. I think we can commit to getting you a number 
that you are going to get an answer to.
    Ms. Jackson Lee. I appreciate----
    Dr. Redd. I think----
    Ms. Jackson Lee. Thank you, Doctor.
    Dr. Redd. I think that the--the question of whether a 
particular school is closing or not is not something----
    Ms. Jackson Lee. No, no.
    Dr. Redd [continuing]. We would be able to answer.
    Ms. Jackson Lee. I am just saying these are the kind of 
calls that are coming in. Let me move on. The level of 
contagiousness of the coronavirus, would you explain that very 
briefly how contagious it is?
    Dr. Redd. Sure. The measure that is used to describe that 
characteristic of a virus is the number of additional cases 
that would arise from one case. It is called the R naught.
    Ms. Jackson Lee. I am sorry. I am going to have to ask you 
to move quickly on that.
    Dr. Redd. OK.
    Ms. Jackson Lee. Yes.
    Dr. Redd. For influenza, it is 1.5. For this virus, 
probably somewhere between 2 and 3. So it is more----
    Ms. Jackson Lee. OK.
    Dr. Redd [continuing]. Contagious than influenza.
    Ms. Jackson Lee. It is more contagious--this is the kind of 
information that really needs to be presented to the public, 
not out of panic, but in terms of educating them. Let me go to 
the test kits. You indicated that there was 75,000 to be 
tested. Is that test kits or tests?
    Dr. Redd. Those are tests.
    Ms. Jackson Lee. Tests.
    Dr. Redd. I agree that the----
    Ms. Jackson Lee. Yes.
    Dr. Redd. This nomenclature of kit has been confusing.
    Ms. Jackson Lee. Right. So these are individual tests, 
75,000?
    Dr. Redd. Correct.
    Ms. Jackson Lee. Is the 1 million individual tests as well 
or kits?
    Dr. Redd. That is people.
    Ms. Jackson Lee. People. So 1 million people possibility, 
but not yet?
    Dr. Redd. It has been sent out. I think that availability 
depends on other factors than the tests materials itself. That 
is really the logistics of----
    Ms. Jackson Lee. But they are going out to labs and local 
governments? Are they going to physicians and hospitals?
    Dr. Redd. They are--these are the laboratories companies 
that do these tests so----
    Ms. Jackson Lee. Right. So you have to access that?
    Dr. Redd. Correct.
    Ms. Jackson Lee. There is a process to be tested. People 
need to be trained on how you use a test?
    Dr. Redd. So there are people in the laboratory that are 
trained. There is--it is mainly protecting yourself if you are 
an individual collecting a specimen.
    Ms. Jackson Lee. I have got to go quickly. I thank you. So 
it is not standing out on the street and get tested or walk 
into an urgent care and possibly get tested?
    Dr. Redd. In the United States, no. In Korea, they have 
drive-thru testing----
    Ms. Jackson Lee. I----
    Dr. Redd [continuing]. Where you get tested in your car.
    Ms. Jackson Lee. That is coming to my next point which is I 
hope to get in a phone call back if I could. Low-income people, 
poor people do not have medical providers. They are walking 
into urgent care, clinics, or hospitals. You have got to be 
able to respond. I am not going to take the answer right now. 
You have got to be able to respond to that.
    I do need a one-on-one conversation. Baylor College of 
Medicine, the infectious disease has a vaccine with 20,000 
vials. They don't have the resources to do the clinical tests. 
I want them to be connected to the task force to get those 
clinical tests or to get them connected for resources.
    They are ready to go right now. They are not Jackleg Joe or 
somebody down the road in a lab that we can't find. I need that 
to happen right now. So I don't--again--and can we--can I 
dialog to find out how to work that out or who to connect them 
to?
    Dr. Redd. Yes.
    Ms. Jackson Lee. I thank you. Let me ask my good friend 
here in DHS--we have community spread in Texas, but I take 
issue with the non--the connecting flights.
    So our community spread came through a person who came from 
Italy to Frankfurt to the United States. CBP is not prepared. 
You need to implement some form of testing for CBP in terms of 
asking the question of whether or not the person has come from 
Italy, period.
    The other point is, there are 3 TSO officers diagnosed in 
San Jose. Can you just give me an answer of what you are doing 
to ramp up preparation from those airports?
    Ms. Underwood. The gentlelady's time----
    Ms. Jackson Lee. If I can get that answer----
    Ms. Underwood [continuing]. Has expired.
    Ms. Jackson Lee [continuing]. I would appreciate it on the 
record.
    Ms. Underwood. Yes. So----
    Ms. Jackson Lee. Thank you. If--and Deputy Secretary, thank 
you.
    Mr. Cuccinelli. The 3 TSOs are all at one airport, San Jose 
International----
    Ms. Jackson Lee. Right. But----
    Mr. Cuccinelli [continuing]. So 46 other employees have 
been sent home for self-quarantine.
    Ms. Jackson Lee. I want to do TSO across the Nation. I 
don't want to--I am just saying that they are susceptible.
    Ms. Underwood. The gentlelady's time has expired. She posed 
a number of questions. Perhaps you can submit the answer in 
writing, sir. The Chair now recognizes Mr. Higgins for 5 
minutes.
    Mr. Higgins. Thank you, Madam Chairwoman. Mr. Cuccinelli. 
Does your job description include advising and reporting the 
Executive and the Department of Homeland Security based upon 
your mission parameters and your background, your own personal 
experience and knowledge?
    Mr. Cuccinelli. Yes, sir.
    Mr. Higgins. Dr. Redd, does your job description include 
advising the CDC and HHS regarding your background as a doctor 
and your specific mission requirements?
    Dr. Redd. It does.
    Mr. Higgins. Do you gentleman know Dr. Anthony Fauci?
    Dr. Redd. Yes.
    Mr. Higgins. Would you consider him to be a brilliant 
scientist with an incredible medical background and an expert 
on allergy and infectious diseases?
    Dr. Redd. I would.
    Mr. Higgins. Would you, Dr. Redd, concur with Dr. Fauci's 
conclusions that based upon his scientific assessment and his 
job description as an advisor and a counselor based up a 
scientific data, would you concur with his conclusion that 
large gatherings of Americans--it would be best to slow the 
spread of this virus if there were not large gatherings?
    Dr. Redd. Yes.
    Mr. Higgins. Did that concurrence with his opinion that is 
based upon science and medicine; is it now?
    Dr. Redd. It is. There are elements to that, that we could 
go into, but, yes.
    Mr. Higgins. So in--on a clean slate, that is strictly 
medical and scientific advice, correct? That is his job? Your 
job and Mr. Cuccinelli's job is to advise the Executive?
    Dr. Redd. Yes, sir.
    Mr. Higgins. You swore an oath when you took office, did 
you not, sir?
    Dr. Redd. Did----
    Mr. Higgins. Your oath was to the Constitution, was it not?
    Dr. Redd. Yes, sir.
    Mr. Higgins. It has been alarming to me to hear suggestions 
in this committee and others that there seem to be suggestions 
that there be some Federally-mandated overriding authority to 
enforce restrictions of travel of free Americans and to 
override the authority of sovereign States and the Governors 
thereof to mandate the enforcement of restrictive gatherings of 
free Americans.
    We are not Italy. We are not South Korea. We are certainly 
not Beijing. We are not Hong Kong. This is America. I have a 
great deal of concern that this virus--and let's talk about 
that for a second.
    There has been a lot of talk about preparedness in this 
committee and others. Does the CDC have stockpiles of millions 
of test kits and vaccines for a virus that may surface next 
year that we don't know what it is?
    Dr. Redd. No, we do not. And----
    Mr. Higgins. Of course not.
    Dr. Redd. In fact, the--that----
    Mr. Higgins. When was COVID-19 first discovered within an 
American certified scientific lab and evaluated and said, yes, 
this is COVID-19. This is a new virus?
    Dr. Redd. It was in January 2020.
    Mr. Higgins. Thank you very much. Did we have stockpiles of 
prepared tests that--these tests must be virus-specific; am I 
correct?
    Dr. Redd. They are. We started producing them before we had 
the virus. Actually, one the sequence was produced in early----
    Mr. Higgins. But you had the scientific sequence?
    Dr. Redd. We did.
    Mr. Higgins. So there is no way for us now to know what 
that sequence is for a virus that may be discovered next year, 
is there?
    Dr. Redd. Correct.
    Mr. Higgins. So other than having infrastructure of our 
massive Federal Government working in cooperation with 
international organizations and our State and local governments 
and--including private industry, did--well, how more prepared 
could a nation be for a unknown virus then we are right now? 
Now, surely, we will learn from this. Do you agree?
    Dr. Redd. I do. We will----
    Mr. Higgins. We will be better and stronger as we move 
forward. Did we learn from SARS?
    Dr. Redd. We did. We learned quite a bit over the last 20 
years in emergency responses. If I could just go back to one of 
your earlier points.
    Mr. Higgins. Please do.
    Dr. Redd. If I may, we work closely with State and local 
governments. We don't make decisions for what they should do. 
We are really at their service providing that kind of technical 
and scientific guidance that you described. So we don't make 
those decisions.
    Mr. Higgins. I concur as we should as a Federal Government 
and a Constitution that is represented to republic of sovereign 
States.
    Dr. Redd. Yes, sir.
    Mr. Higgins. So the Governors of our sovereign States have 
been instructed and advised and empowered to make decisions 
within their States; is that correct?
    Dr. Redd. Absolutely.
    Mr. Higgins. Would you see the role of the Federal 
Government in any other way?
    Dr. Redd. I wouldn't--you know, I think there are places 
where things like quarantine authority--there are State 
authorities. There are Federal authorities. You know, those are 
things we have to work out. But in general at CDC we work in 
the service of the State governments.
    Mr. Higgins. Well, thank you for service, gentleman. Both 
of you, thank you for appearing before this committee today. It 
has just been fascinating. Madam Chairwoman, thank you for 
holding this hearing.
    Ms. Underwood. The Chair now recognizes Mr. Thompson.
    Chairman Thompson. Let me get something straight, Dr. Redd. 
We just approved $8.3 billion last week to go to State 
governments because they don't have the capacity to do exactly 
what we are dealing with. So now are you agreeing that States 
ought to do their own thing, and the Federal Government stay 
out?
    Dr. Redd. We guide--we provide advice to States. So it is--
we work at their service. We are providing a lot of funding 
through your appropriation to do the things that we all agree 
need to be done.
    Chairman Thompson. But we giving them a heck of a lot of 
money. So I don't think you can become a sovereign State and 
not rely on your Federal Government to help in times of 
pandemic.
    Dr. Redd. Well, it--I think that we are certainly doing 
everything we can to support the States, but they will be the 
ones making these kinds of decisions. I am not following you--
--
    Chairman Thompson. Dr. Redd----
    Dr. Redd [continuing]. I think. I am----
    Chairman Thompson. I think there are some health decisions 
CDC makes independent of the States.
    Dr. Redd. We really work--the way that CDC primarily 
operates is by collecting information, analyzing it, and then 
translating that into guidance or recommendations. We work very 
closely with State health departments and State governments, 
but at the end of the day for these kind of things we are 
talking about close this event--it is going to be a State 
decision.
    Chairman Thompson. But States rely on CDC?
    Dr. Redd. They do. We have----
    Chairman Thompson. That is what I----
    Dr. Redd. Yes, I think it is a partnership really.
    Chairman Thompson. No State on its own can survive a 
situation that we are dealing with right now without the help 
of CDC.
    Dr. Redd. Yes. That would be my opinion. I----
    Chairman Thompson. That is what I am trying to get at.
    Dr. Redd. Yes.
    Chairman Thompson. Thank you. I yield back.
    Ms. Underwood. OK. The Chair now recognizes Mr. Correa for 
5 minutes.
    Mr. Correa. Thank you, Madam Chair. I want to thank the 
Chairman for holding this most important issue. I want to 
welcome both of our witnesses, Dr. Redd and Mr. Cuccinelli for 
being here today. I just want to say we are all in the same 
team so to speak.
    Mr. Cuccinelli, you said earlier you--I don't want to put 
any words in your mouth that you didn't want to essentially get 
in the way of local efforts--didn't want to interfere, didn't 
want to step on any of those efforts; is that correct, 
something to that effect?
    Mr. Cuccinelli. Along the same lines that Dr. Redd was 
just----
    Mr. Correa. The reason I bring that up is I try to have a 
town hall last Friday. My town hall in my district because 
really to get information out--and I encountered very shy 
county health officials who didn't want to get ahead of this 
issue. There is a lot of confusion out there right now. This 
issue is evolving on a daily basis.
    Mr. Cuccinelli. It is.
    Mr. Correa. World Health Organization just declared a world 
pandemic. Who is in charge?
    Mr. Cuccinelli. The way that the----
    Mr. Correa. Is it----
    Mr. Cuccinelli [continuing]. Leadership for this----
    Mr. Correa. Is anybody in charge? Is anybody quarterbacking 
this effort at the Federal level or is this left to 50 States? 
Again just asking because my constituents want to know what is 
going on. What really unnerves individuals is you have got 
information, misinformation coming at you from all sectors.
    So you got a Congressman, not a doctor, holding a town hall 
trying to explain to people with a couple of other individuals 
there who are doctors what is going on when my local county 
health officials don't want to step into this issue. Who is in 
charge?
    Mr. Cuccinelli. So the answer to your question, 
Congressman, is both which doesn't help with the confusion 
side.
    Mr. Correa. Both what?
    Mr. Cuccinelli. Our authorities are limited and our 
capacity.
    Mr. Correa. But you do have a voice----
    Mr. Cuccinelli. Absolutely.
    Mr. Correa [continuing]. Of authority based on science we 
hope----
    Mr. Cuccinelli. Yes.
    Mr. Correa [continuing]. To let people in this country know 
what the state of this Nation is. It is not about State's 
rights. It is not about Federal rights. It is about health 
issues and science.
    Mr. Cuccinelli. So among the things we have been doing, 
Congressman--I don't even know how many calls I have been on 
with literally hundreds and thousands of local health 
officials, legal authorities, like----
    Mr. Correa. But are we----
    Mr. Cuccinelli [continuing]. Attorneys and so forth----
    Mr. Correa. We need to continue----
    Mr. Cuccinelli [continuing]. To talk them through this.
    Mr. Correa [continuing]. To step up and really make that 
voice clear and concise to folks as to what we need to do. Very 
quickly, I am going to shift over.
    Dr. Redd, I don't want to start any rumors here, but it is 
my understanding that the World Health Organization created a 
diagnostic test early on and offered it to the United States.
    That the administration essentially decided to forgo using 
this World Health Organization COVID-19 diagnostic test and 
instead to have CDC develop its own; is that correct?
    Dr. Redd. The tests were being developed at the same time 
at CDC. It is actually in Germany where the test was actually 
being developed. The WHO has kind-of a recipe for what the 
test--kind-of the characteristics of the test.
    Mr. Correa. So they weren't ahead of us? It was just almost 
parallel in terms of our efforts?
    Dr. Redd. Correct. It was----
    Mr. Correa. Were those efforts coordinated?
    Dr. Redd. We knew about their tests, but in terms of joint 
development it was independently developed.
    Mr. Correa. If I would ask, why we are not coordinating? 
This is a world pandemic--easy to figure that it is coming our 
way--China, Italy, Iran. Why would we not coordinate?
    Dr. Redd. At that time, it was just China when we were 
beginning development of the test. The issue--maybe this is a 
later question that you would have. But when the issues with 
our tests were identified, there was sort-of a decision to make 
about how to proceed in correcting that issue.
    If we had gone to the other tests, we would have kind-of 
gone back to zero with the FDA in terms of the emergency use 
authorization. So I am not----
    Mr. Correa. Lessons learned, can we figure out how to 
coordinate on a world-wide basis when we are looking at these 
kinds of world pandemics coming at us: Zika--OK--Ebola, corona. 
Something is going to come around the corner. I think our 
constituents--our tax payers--deserve that we learn lessons and 
react to this stuff on a world-wide basis immediately.
    Mr. Cuccinelli. Congressman, can I comment?
    Mr. Correa. Yes, sir.
    Mr. Cuccinelli. So on January 6, CDC reached out to their 
compatriots--the Chinese CDC taking its name from ours and 
offered to cooperate and to help them.
    Their scientists as I understand it were agreeable to that, 
were enthusiastic about it, but their political leadership 
wouldn't act on those communications for weeks and weeks and 
weeks.
    You heard Secretary Azar I am sure publicly complain 
eventually of that--the Chinese were taking so long to let the 
WHO team into China. That team included America 
representatives.
    Mr. Correa. Thank you.
    Ms. Underwood. Colleagues, Members are reminded that votes 
have now been called. We are going to try to finish up the line 
of questioning, OK. So we are going to ask Members to be 
thoughtful as they proceed. The Chair now recognizes Mr. 
Richmond for 5 minutes.
    Mr. Richmond. Let me just follow up where my colleague left 
off. We are talking about lessons learned.
    Mr. Cuccinelli, you mentioned that what China wouldn't do. 
But isn't that what our leadership is supposed to do? I mean 
people are not always going to just volunteer and follow, but 
that is what we have our American leadership for, right?
    Mr. Cuccinelli. Well, and our leadership reached out at 
both the Secretary and Presidential level. By Secretary, I mean 
two secretaries, Secretary Azar and Secretary Pompeo and the 
President all reached out to their counterparts in China during 
that time period.
    Mr. Richmond. My suggestion would be sometimes you don't 
take no for an answer. That would just--especially when you are 
playing with something this important. But let me--I need to 
just explain to my colleagues, how many tests does South Korea 
do in a day?
    Dr. Redd. They are doing a very large number of tests each 
day. They have got 60 sites that are drive-thru, many more 
tests than we are doing.
    Mr. Richmond. So people in my district are not going to 
understand how South Korea are ahead of us because we are the 
United States of America. It is not the time to complain about 
it, but we need to have that figured out.
    Because let us take a community like New Orleans that is 
high on tourism--the port is our biggest industry, tourism is 
our second--when it comes we are in a world of trouble, 
especially if we don't have the ability to test like we should. 
So when do you think we would have that ability in New Orleans 
to test as we would need.
    Dr. Redd. So the ability to test is increasing day by day. 
We have sent--we have got 2 systems to do tests in the United 
States. We have the public health system. There are 75,000 
tests out there in that system now. There are over a million 
tests in the commercial sector with that number increasing 
almost daily.
    The place where we have work to do is making sure that when 
a patient--a doctor decides a patient needs a test, they can 
get it that day and can get results back quickly.
    I think from the standpoint of being able to respond 
effectively and to kind-of know where we are, a lot of the 
things that we are doing now are going to clarify actually 
where we are. For example, community surveillance to make sure 
if there is a virus--not even having to go and say I think I 
have coronavirus.
    But if you have respiratory symptoms, there are systems 
around the country that we are standing up to test people, not 
just for influence which is what those systems were designed 
for, but also for coronavirus. So we will be able to detect 
transmission in a way that doesn't require that prompting.
    Mr. Richmond. So the technical support that you all are 
offering to local municipalities that would include tracing?
    Dr. Redd. You know, it depends on where we are in the 
epidemic. The contact tracing is--again is a really important 
measure when you want to extinguish transmission. That was what 
we have been doing in the early parts of the epidemic.
    When you have community transmission, there is just--it is 
just not feasible to do that. The effort is better directed 
toward the kind of recommendations that you are seeing in King 
County, in Santa Clara, in New York which is protect the 
elderly and do things at a community level that can prevent 
transmission.
    Mr. Richmond. That would be--that would be my question 
because I guess what I am hearing in New Orleans now--we have 
put in a request for technical support from the CDC. It appears 
that we have a case of an elderly person who lived either in 
assisted living or a nursing home.
    So we are going to need all the help we can get and we are 
going to need it real quick. Are you all prepared to assist in 
an event like that?
    Dr. Redd. So I think that the--as there are more nursing--I 
think what we need to do is to protect nursing homes.
    Mr. Richmond. Let's----
    Dr. Redd. I can't promise you that we are going to send a 
team to New Orleans, but we are going to help the health 
department in every way that we can.
    Mr. Richmond. OK. So the answer is you don't know. Let me 
also ask very quickly, do we think that--and this is about the 
future, about putting pandemics under the Stafford Act so that 
when it happens we can mobilize without having to come to 
Congress.
    We can do individual assistance. We can do all the things 
we need if we put it under Stafford Act, include it with 
natural disasters. Is that something we should do?
    Dr. Redd. I think that one of the things that we have 
learned from previous experience is very important work 
Congress has done is to create the Infectious Disease Rapid 
Response Reserve Fund.
    That allowed us to respond immediately and not be delayed 
waiting for an appropriation. I think the question of whether 
the Stafford Act is the right mechanism or not or there is some 
other mechanism is one that I think we need to have a dialog 
about. But it is--it is essential that large emergency 
responses like this not be hindered by the lack of funding.
    Mr. Richmond. I yield back.
    Ms. Underwood. Thank you. The Chair now recognizes Mr. 
Green from Texas for 5 minutes. OK. If the gentleman yields to 
Ms. Titus for 5 minutes.
    Ms. Titus. Well, thank you, Mr. Green. I appreciate that 
very much. I will just be brief. Mr. Cuccinelli, I think you 
said earlier that you rejected the academic models that advised 
against travel boundaries or travel restrictions and gave the 
advice to the President to the contrary.
    What would make you think you could reject an academic 
model based on scientific study and evidence to advise the 
President? Was that like bad politics as opposed to good 
science?
    Mr. Cuccinelli. Well, I am not quite sure how to answer 
your last question.
    Ms. Titus. Well, I think I know the answer.
    Mr. Cuccinelli. It was our----
    Ms. Titus. I think it probably was. And this----
    Mr. Cuccinelli. It was our best judgment----
    Ms. Titus [continuing]. Administration has very little----
    Mr. Cuccinelli [continuing]. As a task force.
    Ms. Titus [continuing]. Respect for----
    Mr. Cuccinelli. And----
    Ms. Titus [continuing]. Anything intellectual. And this is 
yet another----
    Mr. Cuccinelli. Do you actually want me to answer the 
question?
    Ms. Underwood. Gentleman will suspend.
    Ms. Titus. No, that is fine.
    Ms. Underwood. Gentleman will suspend.
    Ms. Titus. If you can answer this question for me though, 
Mr. Cuccinelli. As the acting director, you oversaw the roll 
out of the very cruel public charge rule. Now, we heard 
yesterday from the director of the CDC that the public charge 
rule would discourage people from seeking the health care they 
need amidst this outbreak.
    Could you comment on this, Dr. Redd? Do you think the fact 
that people don't have coverage or they are afraid to get 
Medicaid because they are afraid they will lose their green 
card, this could have some impact on the spread of this virus?
    Dr. Redd. I am not familiar with that rule. I think we 
should be doing everything we can to make sure that people that 
need to get tested and need treatment have access to it.
    Ms. Titus. Thank you, Dr. Redd. In light of that, Mr. 
Cuccinelli, would you recommend that we take away that global--
I mean that public charge rule?
    Mr. Cuccinelli. Do you want me to actually answer?
    Ms. Titus. I would like an answer.
    Mr. Cuccinelli. Oh, all right. Well----
    Ms. Titus. It is a yes or no.
    Mr. Cuccinelli. No.
    Ms. Titus. Why not?
    Mr. Cuccinelli. Oh, I thought it was just yes or no.
    Ms. Titus. That is next question.
    Mr. Cuccinelli. So the--because it is completely unrelated. 
Anyone seeking help or testing or health care related to the 
coronavirus does not affect a public charge analysis.
    Ms. Titus. I guess the director of the CDC would disagree 
with you. That is what he testified before House Appropriations 
yesterday.
    Mr. Cuccinelli. If he so testified, he was wrong.
    Ms. Titus. OK. Thank you. I yield back.
    Ms. Underwood. The Chair now recognizes Mr. Green from 
Texas for 5 minutes.
    Mr. Green of Texas. Thank you, Madam Chair. Dr. Redd, if I 
may--and I will try to move expeditiously because my dear 
friend Mr. Cleaver is here, and I would like for him to have 
his turn. You have indicated that in South Korea they test 
people in their cars as they drive-thru, true?
    Dr. Redd. Yes, sir.
    Mr. Green of Texas. You have indicated that they test some 
60,000 people?
    Dr. Redd. I didn't give a number, but that sounds right.
    Mr. Green of Texas. Per day.
    Dr. Redd. I am not sure if that--I can't verify that 
number. We can check. I have got it in here, but I don't recall 
the exact number.
    Mr. Green of Texas. How many do we test per day in this 
country?
    Dr. Redd. It is not that high.
    Mr. Green of Texas. Is it 40,000?
    Dr. Redd. So we have--at CDC we have tested----
    Mr. Green of Texas. Is it 30,000?
    Dr. Redd [continuing]. One thousand seven hundred people--
1,784. State health departments----
    Mr. Green of Texas. Is it----
    Dr. Redd [continuing]. Have tested----
    Mr. Green of Texas [continuing]. Twenty thousand?
    Dr. Redd. I am sorry.
    Mr. Green of Texas. Is it 20,000 per day?
    Dr. Redd. It is not 20,000 a day.
    Mr. Green of Texas. Is it 10,000----
    Dr. Redd. It is on the border of----
    Mr. Green of Texas [continuing]. Per day?
    Dr. Redd. I really want to get back to you----
    Mr. Green of Texas. Is it 5,000 per day?
    Dr. Redd [continuing]. With numbers? I would like to get 
back to you with the numbers.
    Mr. Green of Texas. Is it a number that exceeds 10,000 per 
day?
    Dr. Redd. It is not a number that exceeds 10,000 a day.
    Mr. Green of Texas. Is it a number that exceeds 5,000 per 
day?
    Dr. Redd. I would like to----
    Mr. Green of Texas. Is it a number that exceeds 3,000 per 
day?
    Dr. Redd. I think it would be better for me to get back to 
you----
    Mr. Green of Texas. Does it exceed----
    Dr. Redd [continuing]. With an exact number.
    Mr. Green of Texas. Does it exceed 1,000 per day?
    Dr. Redd. As I said before, it would be better if I got 
back to you with the correct number.
    Mr. Green of Texas. Is it true that there is a way to test 
thousands of people per day?
    Dr. Redd. I think that we are going to be seeing that----
    Mr. Green of Texas. Is it true----
    Dr. Redd [continuing]. In the commercial sector.
    Mr. Green of Texas [continuing]. That the technology exists 
such that thousands of people per day can be tested?
    Dr. Redd. Yes.
    Mr. Green of Texas. Is it true that if this technology 
exists that the United States of America, greatest, richest 
country in the world, can employ this technology?
    Dr. Redd. I think that we will be doing that in the 
commercial sector.
    Mr. Green of Texas. Yes, is it true that the United States 
of America regardless of setting can deploy this technology?
    Dr. Redd. It certainly is possible.
    Mr. Green of Texas. In the United States of America is it 
not true that we can put a person on the moon?
    Dr. Redd. We have.
    Mr. Green of Texas. Yes, we have. So is it fair to say that 
if they are doing it in South Korea that we can--maybe we can 
ask them how to do it.
    Dr. Redd. We are in discussions with them about their 
response. One maybe 2 points to make, I think that at the end 
of the day----
    Mr. Green of Texas. Is it also true----
    Dr. Redd [continuing]. Our----
    Mr. Green of Texas [continuing]. That if we had 1 million 
people tested that we would not be able to ascertain the 
results within any reasonable amount of time because we don't 
have the methodology, the means by which we can examine the 
test and do it in an efficacious way such that we can give 
results with some degree of immediacy? Is this true?
    Dr. Redd. Well, it is one of the things that we are working 
on----
    Mr. Green of Texas. Is it true that----
    Dr. Redd [continuing]. To do.
    Mr. Green of Texas [continuing]. If we had a million people 
tested, we would not be able to get the results back 
immediately?
    Dr. Redd. I think that the answer to your question----
    Mr. Green of Texas. Is it true that it would take longer 
than a week to do that, to get the results back?
    Dr. Redd. I am sorry. I am trying to answer your question.
    Mr. Green of Texas. I understand it. I am trying to ask a 
question. Is it true that it would take longer than 2 weeks to 
get the results back?
    Dr. Redd. I think that there is----
    Mr. Green of Texas. It is true that it would take longer 
than 3 weeks?
    Dr. Redd. I think the systems exist now to get results back 
to patients more quickly, particularly----
    Mr. Green of Texas. If we had a million people tested--we 
are talking about a million--how long?
    Dr. Redd. Well, people get blood tested every day, and 
there are more than a million people. They get their results 
back the same day.
    Mr. Green of Texas. But I am asking you about current 
circumstances--current circumstances. As we sit here waiting 
for this answer so that we can vote, how long?
    Dr. Redd. I think what we could get back to you with is for 
the--the companies that are----
    Mr. Green of Texas. The truth is there is----
    Dr. Redd [continuing]. On a routine basis.
    Mr. Green of Texas. There is a way to do this testing. It 
appears to me that we don't have the will. We don't have the 
will to move expeditiously to acquire the technology if we 
don't have it. We can do this.
    This country has the ability to get great things done in 
short order. We for whatever reason don't have the will. Public 
becomes highly suspect when we don't exercise the will where 
you have few facts. You have much speculation. The speculation 
is going to run rampant because we don't exhibit the will to do 
that which can be done.
    Dr. Redd. I respectfully disagree with you, sir.
    Mr. Green of Texas. I will expect you to respectfully 
disagree, but I respectfully disagree with your disagreement. I 
yield back the balance of my time.
    Ms. Underwood. The Chair now recognizes Mr. Cleaver for 5 
minutes.
    Mr. Cleaver. Thank you, Madam Chair. I won't use 5 minutes. 
Admiral, thank you. I am--this is I guess a little personal, 
but it probably has some applicability to the entire country. 
My father is 97. He won't take the flu shot because he thinks 
it will make him get the flu.
    By the way, my grandmother said that messing around with 
the moon messed up the weather and the flowers. So if we went 
up there, we made some mistakes while we were on the moon.
    But let me get back to my dad because he is healthy as far 
as we know--97 years old. But he is already suspicious of 
things. Then we are told that your shop wanted to advise 
elderly Americans, you know, not to do certain things because 
97 years old or whatever your immune system is vulnerable. That 
it was overruled.
    I am concerned about people out here who are--who may be 
sick. They already--older people--already suspicious. Then they 
can't get accurate information about their immune system and 
the vulnerability to this galloping virus.
    You know, we are probably going home tomorrow. We got to 
deal with--I do--I am--in my real life I am a Methodist pastor. 
I am going to deal with people this weekend wanting to know 
what is going on.
    You know, the White House says, you know, it is OK. You 
don't need to worry about CDC said if you are older--an older 
person, don't get on planes and so forth. What--Mr. 
Cuccinelli--somebody--would you like to come to speak to the 
church or call my father?
    Dr. Redd. I think the question of distrust of authorities 
and for example with the influenza vaccination is a really 
difficult problem. I think it really gets back to the question 
of trust that we have talked about----
    Mr. Cleaver. Yes.
    Dr. Redd [continuing]. To some extent today. And----
    Mr. Cleaver. I am not blaming you. I am just--I just want 
to know how did we get into this mess because it is--I think it 
is going to--because it----
    Dr. Redd. Well----
    Mr. Cleaver. We could cause some people to----
    Dr. Redd. I think your son is going to believe you more 
than he is going to believe us. So I would recommend that you 
give him the advice that is on the CDC website, and do your 
best to encourage him to stay protected.
    Mr. Cleaver. But what about flying? What about elderly 
people flying?
    Dr. Redd. I think that, that is for a 90-year-old person 
today, I would not recommend flying.
    Mr. Cleaver. Why would it be overruled? I mean I don't--
maybe I am not articulate enough, but----
    Dr. Redd. Well, I actually--in the guidance that we have 
that is--we do recommend that for----
    Mr. Cleaver. Yes, but--I had to cut you off. But earlier we 
were--the White House said don't make that information 
available. That is all I want to know is why?
    Mr. Cuccinelli. No, sir. There has not been a point where 
we have said or anyone at the White House has said don't make X 
information available.
    Mr. Cleaver. OK. Well, these news reports are I guess----
    Dr. Redd. I think maybe there is an interpretation of close 
space with limited air circulation. That--you know, there are 
ways to interpret that.
    Mr. Cleaver. OK. I don't have time. The news reports that 
is--I don't have the time to do this in here right now. But I 
had news reports. I can get them--get it to you--which said 
that CDC said they wanted to issue this warnings to the 
elderly, and they were told not to do it by the White House, 
you know.
    Dr. Redd. Well, I think--you asked me for an interpretation 
of our guidance. That was----
    Mr. Cleaver. Yes.
    Dr. Redd [continuing]. The interpretation I gave.
    Mr. Cleaver. I appreciate that. I appreciate that.
    Mr. Cuccinelli. Yes, and Congressman, I have participated 
in the task force, and CDC has been a critical central member 
of it from the beginning of course. As Dr. Fauci testified in 
one of--he didn't testify.
    It was a press conference. As he said when he was directly 
asked, you know, have you been muzzled, he said, ``I have been 
doing this for 30-plus years.'' I don't remember his whole 
exact answer. He said----
    Mr. Cleaver. I hear you.
    Mr. Cuccinelli [continuing]. Nobody has told me to not say 
anything.
    Mr. Cleaver. I heard it.
    Mr. Cuccinelli. That has been the case with the whole--with 
the CDC as well.
    Mr. Cleaver. Thank you.
    Ms. Underwood. OK. The gentleman's time has expired. I ask 
unanimous consent to enter into the record a statement from the 
American Federation of Government Employees.
    Without objection.
    [The information referred to follows:]
 Statement of the American Federation of Government Employees, AFL-CIO
                             March 11, 2020
    Chairman Thompson, Ranking Member Rogers and Members of the 
committee: On behalf of the American Federation of Government 
Employees, AFL-CIO (AFGE), which represents more than 700,000 Federal 
and District of Columbia employees who serve the American people in 70 
different agencies, including approximately 100,000 employees at the 
Department of Homeland Security (DHS), thank you for holding this 
hearing entitled ``Federal Coronavirus Response.'' AFGE has serious 
concerns involving the administration's efforts to prevent, detect, and 
treat Coronavirus, or COVID-19, as it relates to the Federal workforce 
and the American public. In addition to employees at DHS, our union 
represents thousands of workers who are health care professionals at 
the Department of Veterans Affairs (VA), the Department of Defense 
(DoD) and the Bureau of Prisons (BoP) and the many Federal workers 
whose jobs require regular contact with the public. Their health and 
safety as they continue to provide services to the public is essential 
to our homeland security.
    Health care providers and emergency responders such as workers at 
the Federal Emergency Management Agency (FEMA) are among those Federal 
employees who have been or are likely to be called upon to provide 
services to populations infected with COVID-19 or populations at risk 
of infection. Workers who provide patient care and emergency responders 
should be accorded the highest priority for disease prevention 
measures. Additionally, Transportation Security Officers (TSOs), 
employees at the U.S. Citizenship and Immigration Services (USCIS) and 
Customs Enforcement (ICE) are in positions that require interaction 
with the public and should be considered as at-risk for contracting the 
virus.
    AFGE is concerned that safety protocols have not been sufficiently 
communicated to the front-line workforce, and adequate personal 
protective equipment such as gloves, effective masks, and hand cleaner 
have not been deployed to an adequate extent. Agencies are not 
communicating with their workforces to a degree that will allow them to 
protect themselves or the public adequately in order to contain the 
spread of this virus. In most cases, employees have only been given a 
link to the Centers for Disease Control website, told to monitor the 
news and stay home if they do not feel well. The Office of Personnel 
Management (OPM) has likewise provided only vague instructions in three 
successive efforts to communicate the administration's plans for the 
Federal workforce.
    For many DHS employees, remote workstations or telework are not 
options. However, we urge the committee to insist that the Acting 
Secretary move immediately to allow all employees who are capable of 
performing their duties via telework to begin doing so immediately. For 
those who are not currently telework-ready, but whose jobs can be 
performed in that capacity, this must include provision of necessary 
equipment and remote work training to maximize employees' ability to 
continue to perform their duties. Many of these employees provide 
crucial support functions to the front-line workforce and are essential 
to ensuring the continuity of homeland security and emergency 
operations. The White House Coronavirus Task Force (Task Force) 
directed OPM to include telework in its guidance to agencies, requiring 
them to incorporate telework in their continuity of operations plans. 
We urge the committee to insist that the Task Force provide regular 
communications to agency leadership and the workforce regarding its 
progress toward achieving this directive.
    For those on the front lines such as first responders, law 
enforcement officers, TSOs, and all those with substantial work-related 
contact with the general public where telework is not practicable, we 
urge the committee to insist that the acting director adopt a policy, 
like the long-established precedent at the VA with Agent Orange, that 
if they are exposed, there is a presumption that the virus was 
contracted at work. As such, a front-line worker will have access 
through the Federal Employees Compensation Act (FECA) to full coverage 
of related medical treatment and for wage loss or disability related to 
that condition or associated complications from the illness.
    Further, all Federal employees who are in positions where they may 
be exposed to COVID-19 should have rapid access to screening at no 
cost. DHS should also direct TSA to immediately retract its recent 
reductions of Federal Employee Health Benefit Program (FEHBP) coverage 
for its large part-time workforce and provide for a temporary open 
season to return to better health plans. These workers' share of 
premiums doubled, and with their low pay, many changed to less 
expensive policies with higher deductibles and less generous coverage. 
We cannot afford to have such artificial barriers to employees seeking 
the best possible medical treatment.
    Workers who provide direct patient care and emergency services to 
individuals who have contracted COVID-19 do not have clear, specific 
guidance and effective preventive equipment and gear to protect 
themselves from contracting the virus. In other cases where workers are 
exposed to unusual hazards, current law provides for a pay 
differential, or hazardous duty pay. Because these workers are in 
immediate danger of exposure, and current protocols have no guarantees 
of protection, employees required to work and interface with 
individuals who have been quarantined or diagnosed with COVID-19 should 
qualify for hazardous duty pay.
    AFGE recognizes that COVID-19 is spreading rapidly and that 
requirements of agencies and especially of the front-line workforce may 
change. As it does, we thank the committee for its on-going and 
diligent oversight as you work to protect the Federal workforce and the 
American public.
    Thank you for your consideration.

    Ms. Underwood. I thank the witnesses for their valuable 
testimony and the Members for their questions. The Members of 
this committee may have additional questions for the witnesses, 
and we ask that you respond expeditiously in writing to those 
questions.
    Without objection, the committee record shall be kept open 
for 10 days.
    Hearing no further business, the committee stands 
adjourned.
    [Whereupon, at 4:44 p.m., the committee was adjourned.]



                            A P P E N D I X

                              ----------                              

   Questions From Honorable Michael T. McCaul for Ken Cuccinelli, II
    Question 1. For those who have traveled from areas of high exposure 
to COVID-19, is traveler information being shared across the Government 
between DHS, State, and the CDC? If so, how does this process work and 
protecting those in the United States?
    Answer. The multi-agency response entails information sharing 
between pertinent Federal agencies. Through interoperability 
agreements, traveler information is synthesized at U.S. Customs and 
Border Protection's (CBP) National Targeting Center (NTC) and shared 
with interagency liaisons from the Department of State (DOS) and the 
Centers for Disease Control and Prevention (CDC). When travelers arrive 
at the ports of entry, CBP and CDC personnel work together to identify 
travelers who have COVID-19 or are potentially contagious. This 
determination is made based on advanced information from the NTC and by 
CBP officer observation.
    Travel history for every traveler is assessed against CDC 
guidelines, and travelers are referred for enhanced public health 
screening as needed. Symptomatic travelers, both those displaying 
symptoms of COVID-19 or symptoms of another potentially contagious 
disease, are referred for public health assessment according to CBP and 
CDC shared guidance, training, and policies.
    On January 31, 2020, President Trump initially determined that the 
potential for wide-spread transmission of the coronavirus by infected 
individuals seeking to enter the United States threatens the security 
of the homeland. Accordingly, the President issued Proclamations 9984, 
9992, 9993, and 9996, which suspend entry to nearly all foreign 
nationals who have been in China, Iran, or certain European countries 
at any point during the 14 days before their scheduled travel to the 
United States. American citizens, lawful permanent residents, their 
immediate families, and other individuals not subject to the 
Proclamations who arrive from impacted areas must travel through one of 
13 airports where DHS has established enhanced entry screening 
capabilities. All individuals not subject to the Proclamations who are 
returning from an impacted area must self-quarantine for 14 days after 
arrival.
    Upon arrival in the United States, travelers proceed to standard 
customs processing. They then continue to an enhanced entry screening 
where the passenger is asked about his or her medical history and 
current condition, and asked to provide for contact information for 
local health authorities. Additionally, some passengers will have their 
temperature taken. After the enhanced entry screening is complete, 
passengers are given written guidance about COVID-19 and allowed to 
proceed to their final destination. Once home, individuals must 
immediately self-quarantine in their home and monitor their health in 
accordance with CDC best practices. In order to ensure compliance, 
local and State public health officials will contact individuals in the 
days and weeks following their arrival.
    Question 2. Does DHS need additional funds to combat the 
coronavirus pandemic?
    Answer. The Department greatly appreciates Congress' support for 
COVID-19 funding provided in the CARES Act.
    Among the needs we are encountering that is particularly acute are 
for those agencies reliant to one degree or another on fees. As you are 
aware, due to reduced travel, there is an impact to numerous fee 
accounts; however, not all will have an operational impact. For the 
accounts that will have an operational impact, the Department is 
working to identify mitigation strategies, although each fee account is 
different and potentially will have different mitigation options.
    As the impact is better known and mitigation options have been 
identified and vetted, we will provide the details to you and your 
staff. The Department will continue to refine requirements as we 
execute to current funding levels and monitor emerging needs.
     Questions From Honorable Michael T. McCaul for Stephen C. Redd
    Question 1. For those who have traveled from areas of high exposure 
to COVID-19, is traveler information being shared across the Government 
between DHS, State, and the CDC? If so, how does this process work and 
protecting those in the United States?
    Answer. The Centers for Disease Control and Prevention (CDC) and 
Department of Homeland Security's (DHS) Countering Weapons of Mass 
Destruction Office have worked closely in screening travelers for 
COVID-19 illness and exposure at the 15 funneling U.S. airports; 
collection and rapid sharing of data have been significant elements of 
that partnership.
    Prior to the COVID-19 pandemic, CDC has had a long-standing 
partnership with DHS, via the National Targeting Center, related to 
data sharing to facilitate contact investigations of travelers who may 
have been exposed to an infectious disease during flights and to 
implement Federal public health travel restrictions (i.e., ``Do Not 
Board'' list and Public Health Border Lookout record). More information 
about those restrictions is available here: https://www.cdc.gov/
quarantine/travel-restrictions.html.
    Since early February, CDC has participated in a National Security 
Council (NSC)-led collaboration with several agencies to look at 
Government-held data to determine where additional integration and data 
sharing could assist in public health follow-up programs on a larger 
and more rapid scale than occurs routinely. CDC has agreements with the 
Departments of State and Homeland Security that are either completed or 
in progress to improve sharing of available data for contact 
investigations and public health follow-up.
    CDC is appreciative of the leadership of the NSC in this effort and 
continues to collaborate with our partners to look at Government 
holdings of traveler contact information and determining best practices 
for sharing this data to help address unmet public health contact 
tracing and traveler monitoring needs.
    Question 2. Does DHS need additional funds to combat the 
coronavirus pandemic?
    Answer. CDC defers to DHS for this response.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
